No.
In the

Supreme Court of the United States
Congregation Rabbinical College
of Tartikov, Inc., et al.,
Petitioners,
v.
Village of Pomona, N.Y., et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

APPENDIX VOLUME 1 OF 2
Joseph A. Churgin
Donna C. Sobel
Savad Churgin
55 Old Turnpike Road,
Suite 209
Nanuet, New York 10954
(845) 624-3820

John G. Stepanovich
Counsel of Record
James M. Henderson, Sr.
Of Counsel
Stepanovich Law, PLC
618 Village Drive, Suite K
Virginia Beach, Virginia 23454
(757) 410-9696
john@stepanovichlaw.com

Roman P. Storzer
Storzer & A ssociates, P.C.
1025 Connecticut Avenue NW,
Suite 1000
Washington, DC 20036
(202) 857-9766
Counsel for Petitioners
296576

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
DECEMBER 20, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1a
APPENDIX B — OPINION & ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED DECEMBER 7, 2017 .  .  .  .  . 92a
APPENDIX C — OPINION AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED SEPTEMBER 29, 2015 .  . 233a
A PPENDIX D — OPINION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT
OF NEW YORK, FILED JANUARY 7, 2013 .  .  . 408a
APPENDIX E — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
FILED FEBRUARY 6, 2020 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 536a
A P P E N DI X F — R E L E VA N T
CONSTITUTIONAL AND STATUTORY
PROVISIONS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 538a

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE SECOND
CIRCUIT, DATED DECEMBER 20, 2019
United States Court of Appeals
for the Second Circuit
Docket Nos. 18-0869-cv(L), 18-1062-cv(XAP)
CONGREGATION RABBINICAL COLLEGE OF
TARTIKOV, INC., RABBI MORDECHAI BABAD,
RABBI WOLF BRIEF, RABBI HERMAN KAHANA,
RABBI MEIR MARGULIS, RABBI MEILECH
MENCZER, RABBI JACOB HERSHKOWITZ,
RABBI CHAIM ROSENBERG, RABBI
DAVID A. MENCZER,
Plaintiffs-Appellees-Cross-Appellants,
RABBI GERGELY NEUMAN, RABBI KOLEL
BELZ, of Monsey, RABBI ARYEH ROYDE,
RABBI AKIVA POLLACK,
Plaintiffs,
-v.VILLAGE OF POMONA, NY, BOARD OF
TRUSTEES OF THE VILLAGE OF POMONA, NY,
NICHOLAS L. SANDERSON, as Mayor, IAN
BANKS, as Trustee and in his official
capacity, ALMA SANDERS-ROMAN, as
Trustee and in her official capacity,

2a
Appendix A
RITA LOUIE, as Trustee and in her
official capacity, BRETT YAGEL, as
Trustee and in his official capacity,
Defendants-Appellants-Cross-Appellees.
August Term 2018
April 18, 2019, Argued
December 20, 2019, Decided
Before: Wesley
District Judge.*

and

Chin, Circuit Judges; and K aplan,

Congregation Rabbinical College of Tartikov, Inc. and
future students and faculty sued the Village of Pomona and
several village officials, challenging four amendments to
the Village of Pomona’s zoning law as violations of federal
and New York law. Tartikov argued principally that
Pomona adopted the challenged laws based on religious
animus against Tartikov. The United States District
Court for the Southern District of New York (Karas, J.)
dismissed Tartikov’s complaint in part and later resolved
certain claims in the defendants’ favor on a motion for
summary judgment. The remaining claims proceeded to
a bench trial, which concluded with a verdict for Tartikov
on those claims. The defendants appeal from the final
judgment, while Tartikov cross-appeals to challenge the
earlier orders dismissing certain of its claims and granting
summary judgment to the defendants on others.
* Judge Lewis A. Kaplan, of the United States District Court
for the Southern District of New York, sitting by designation.

3a
Appendix A
Tartikov lacks Article III standing to pursue some of
its claims. We VACATE the judgment with respect to those
claims and REMAND with instructions for dismissal. As
to the remaining claims that went to trial, we REVERSE
the judgment to the extent the claims invoke two of the
challenged laws, but we AFFIRM insofar as the claims
invoke the remaining two. Finally, we AFFIRM with
respect to the dismissal and summary judgment orders
challenged on cross-appeal.
K aplan, District Judge:
This case poses difficult and in some respects subtle
questions. Educational and religious institutions, as
owners and users of real estate, are generally subject
to local land use regulation. But they play unique roles
in our society. Hence, our laws afford them some special
treatment with respect to such regulation. Moreover,
religious institutions enjoy the protection of the First and
Fourteenth Amendments and federal legislation, each of
which, in appropriate circumstances, trumps local land
use law.
Given the importance in our free society of education,
religion, and the usually legitimate desires of communities
to regulate the manner in which the land within their
boundaries is developed and used, conflicts arise when
these interests come into tension. In resolving such
conflicts, courts must differentiate among opposition to
proposed land uses based on (1) legitimate development
concerns like traffic volume, density, and sufficiency of
municipal infrastructure, (2) bias against the religious

4a
Appendix A
faith or practices of the developer or of likely residents of
new development, whether overt or hidden by legitimateseeming pretext, and (3) mixed motives. These appeals
reflect one such conflict.
In 2004, Congregation Rabbinical College of Tartikov,
Inc. (“TRC”) purchased about 100 acres of land in the
Village of Pomona, New York (“Pomona” or the “Village”),
a small suburban village of about 3,200 people. As its
name indicates, TRC hoped to use the property to build
a school to educate rabbinical judges. But TRC submitted
no concrete development proposals nor sought any zoning
or construction approvals in the ensuing years.
In January 2007, a local group published an article
purporting to reveal that TRC’s plan was to build nine
large apartment buildings to house 1,000 students and
their families — a total of as many as 4,500 people — as
well as a school building. This provoked local opposition.
Soon after, the Village board enacted two amendments to
its land use laws limiting or outright prohibiting whatever
development TRC ultimately might seek to build.
TRC and future students and faculty (collectively,
“Tartikov”) filed this action against the Village and its
board of trustees seeking to declare unconstitutional the
two amendments enacted after its plans became known.
In addition, it challenged two other amendments that had
been passed earlier. After a bench trial, the district court
found that all four zoning law amendments were tainted by
religious animus, enjoined their enforcement, and entered
a broad injunction sweeping away or modifying for these

5a
Appendix A
plaintiffs New York State and local laws that otherwise
would apply. The Village challenges the decision below.
Its central contention is that the findings of religious
animus were clearly erroneous. Tartikov cross appeals
from a number of pretrial rulings that limited the scope
of its claims.
After careful consideration of the extensive record,
we decline to overturn the district court’s findings that
religious animus motivated the two zoning amendments
passed after the plaintiffs’ wishes became known and
thus affirm the injunction barring their enforcement.
But we respectfully conclude that there was insufficient
evidence to support such a finding as to either of the
two earlier zoning amendments and therefore reverse
that portion of the judgment. We conclude also that the
injunctive relief went further than was appropriate and
modify those aspects of the judgment as well. We affirm
as to the cross-appeal.
FACTS
The governmental and legal context in which the
amendments to the Pomona zoning law ordinance were
enacted is important to a full understanding of this case.
We therefore begin by sketching that framework.

6a
Appendix A
I. 	The Context
A. 	Local Government in New York
New York Stat e is home to over 1,6 0 0 loca l
governments.1 The entire state is divided among 62
counties, each of which has its own local government. 2
Each of the 57 counties outside New York City is divided
into towns and in some instances one or more cities, each
of which also has its own local government. 3 There are, in
addition, hundreds of villages throughout the state, some
coextensive with towns but most within larger towns. As is
now a familiar motif, each has its own government.4 Unlike
counties, cities, and towns, New York’s villages “exist at
the discretion of [their] residents”; they “can be created
or dissolved by local initiative.”5 According to New York’s
Department of State’s Division of Local Government
Services, one reason town residents might create a village
is “a difference in development philosophies of citizens
and town officials.”6

1. Division of Local Government Services, N.Y. Dep’t of State,
https://www.dos.ny.gov/lg/localgovs.html .
2. Id.
3. Id.
4. Id.
5. Id.
6. Id.

7a
Appendix A
Village governments draw their authority to enact
and enforce zoning regulations from numerous sources,
including the Statute of Local Governments,7 the Municipal
Home Rule Law,8 and the Village Law.9 A village exercises
that authority, as well as the authority to enact other
legislation, through a board of trustees,10 which typically
consists of an elected mayor and four elected trustees.11
The Village Law gives a board of trustees the authority to
regulate various aspects of land use within its domain.12
When a board of trustees regulates land use, it is obliged
to follow a “comprehensive plan.”13 A comprehensive plan
identifies the goals, policies, and instruments for the short
and long term growth and development of the village.14

7. 1 Patricia E. Salkin, N.Y. Z oning L aw & P rac . § 2:04
(hereinafter “Salkin”) (citing N.Y. Statute of Local G overnments,
§ 10(6)).
8. Id. § 2:05 (citing N.Y. Municipal Home Rule Law § 10).
9. Id. §§ 2:05, 2:07, 2:11 (citing N.Y. Village Law § 7-700). Under
the Municipal Home Rule Law, villages may amend and supersede
the Village Law as it applies to them. Id. (citing N.Y. Municipal
Home Rule Law § 10e(3)).
10. N.Y. Village Law § 4-412.
11. Id. § 3-301. The board of trustees has the power to modify
the number of trustee seats. Id.
12. Id. § 7-722.
13. Id. § 7-704.
14. Id. § 7-722(2)(a), (1)(f)-(g).

8a
Appendix A
B. 	Local Zoning Ordinances and Other Land Use
Controls
Village and other local governments in New York
exercise their land use authority through land use controls,
the most common type of which is a zoning ordinance.15
Zoning typically entails dividing a municipality’s entire
territory into districts and imposing land use restrictions
within them.16 Zoning ordinances can achieve many goals
related to community planning, among the most common
of which are prescribing minimum lot and maximum
building sizes that control the density of development
and permitting or proscribing the use of land in each
zoning district for specific purposes such as agricultural,
commercial, or residential.17
Numerous federal and state laws limit the exercise
of land use control powers.18 One important limitation is
the New York State Environmental Quality Review Act
(“SEQRA”).19 SEQRA requires state agencies, including
municipalities, “to incorporate the consideration of
environmental factors into the . . . planning, review[,]
and decision-making processes.” 20 It requires that a
15. Salkin § 1:10.
16. Id.
17. Id. §§ 6:04, 6:09, 6:11.
18. See generally Salkin ch. 3-5.
19. 6 N.Y. Comp. Codes R. & Regs. § 617.
20. Id. § 617.1(c).

9a
Appendix A
municipality considering a significant land use control
ordinarily must prepare or request an environmental
impact statement (“EIS”) early in the planning process. 21
An EIS is a document that weighs the “social, economic[,]
and environmental factors” of a municipality’s proposed
decision or regulation, which includes considering
alternative actions and mitigating factors. 22 After
completing an EIS, each agency involved in the planning
process must issue a findings statement that provides a
rationale for its decision in light of the EIS. 23
C.

Municipal Regulation of Land Used for
Religious and Educational Purposes

Land use regulation becomes more complicated when
affected property belongs to religious or educational
institutions — entities that, as noted previously, enjoy
certain legal rights unavailable to ordinary landowners.
As TRC is a religious educational institution, the terrain
here is particularly rugged.
The New York Court of Appeals thoroughly surveyed
this landscape in Cornell University v. Bagnardi. 24
21. Id. A municipality need not prepare a full EIS if it makes
or receives a negative declaration. See id. §§ 617.7, 617.12. A negative
declaration is “a written determination by a lead agency that the
implementation of the action as proposed will not result in any
significant adverse environmental impacts.» Id. § 617.2(z). Negative
declarations often are used with respect to minor development.
22. Id. § 617.2(n).
23. Id. § 617.2(p).
24. 68 N.Y.2d 583, 503 N.E.2d 509, 510 N.Y.S.2d 861 (1986).

10a
Appendix A
Beg inning w ith a histor y it deemed essential to
understanding the respective positions of religious schools
and municipal land use regulators, the court emphasized the
“special treatment” that schools and churches often have
enjoyed “with respect to residential zoning ordinances.” 25
This “favored status,” which has included “expan[sion]
into neighborhoods where nonconforming uses would
otherwise not have been allowed,” was unobjectionable in
the nation’s early years. 26 But with growing populations
and the advent of the automobile, citizens began viewing
schools — particularly universities, which were the subject
of the Bagnardi court’s discussion — as disturbances,
rather than benefits to the neighborhood. 27 “With this
change in attitude, courts were thrust into the role of
protecting [religious and] educational institutions from
community hostility.” 28
New York courts did this in several ways. On occasion,
they struck down “[z]oning ordinances that imposed
limitations on the construction of public schools” or that
interfered with the First Amendment rights of religious
schools. 29 On others, they “held that schools, public,
parochial[,] and private, by their very nature, singularly
serve the public’s welfare and morals.” 30 Accordingly, the
25. Id. at 592-93.
26. Id. at 593.
27. Id.
28. Id.
29. Id.
30. Id.

11a
Appendix A
New York Court of Appeals has concluded that “the total
exclusion of such institutions from a residential district
serves no end that is reasonably related to the morals,
health, welfare[,] and safety of the community.” 31 “[T]
otal exclusion is beyond the scope of the localities’ zoning
authority.” 32
This did not mean that schools and religious institutions
were exempt from zoning rules — a result that would
have “render[ed] municipalities powerless in the face of a
religious or educational institution’s proposed expansion,
no matter how offensive, overpowering[,] or unsafe to
a residential neighborhood.” 33 Bagnardi explained how
local authorities should balance the competing interests
at stake:
“The controlling consideration in reviewing the
request of a school or church for permission
to expand into a residential area must always
be the over-all impact on the public’s welfare.
Although the special treatment afforded schools
and churches stems from their presumed
beneficial effect on the community, there are
many instances in which a particular educational
or religious use may actually detract from the
public’s health, safety, welfare[,] or morals.
31. Id. at 594 (citing Diocese of Rochester v. Planning Bd. of
Town of Brighton, 1 N.Y.2d 508, 522, 136 N.E.2d 827, 154 N.Y.S.2d
849 (1956)).
32. Id.
33. Id.

12a
Appendix A
In those instances, the institution may be
properly denied. There is simply no conclusive
presumption that any religious or educational
use automatically outweighs its ill effects. The
presumed beneficial effect may be rebutted
w ith evidence of a significant impact on
traffic congestion, property values, municipal
services[,] and the like.
“Thus, educational and religious uses which
would unarguably be contrary to the public’s
health, safety[,] or welfare need not be permitted
at all. . . . Such uses, which are clearly not what
the court had in mind when it stated that
traffic and similar problems are outweighed
by the benefits a church or school brings, are
unquestionably within the municipality’s police
power to exclude altogether. Even religious and
educational institutions must accommodate
to factors directly relevant to public health,
safety[,] or welfare, inclusive of fire and similar
emergency risks, and traffic conditions insofar
as they involve public safety.
“Less extreme forms of expansion that are
nonetheless obnoxious to the community’s
residents, of course, require a more balanced
approach than total exclusion. In Matter of
Westchester Reform Temple v. Brown, the
court recognized that considerations which
may wholly justify the exclusion of commercial
structures from residential areas may be

13a
Appendix A
considered for the purpose of minimizing,
insofar as practicable, the impairment of
surrounding areas or the danger of traffic
hazards. A special permit may be required
and reasonable conditions directly related to
the public’s health, safety[,] and welfare may
be imposed to the same extent that they may
be imposed on noneducational applicants. Thus,
a zoning ordinance may properly provide that
the granting of a special permit to churches or
schools may be conditioned on the effect the
use would have on traffic congestion, property
values, municipal services, the general plan
for development of the community, etc. The
requirement of a special permit application,
which entails disclosure of site plans, parking
facilities, and other features of the institution’s
proposed use, is beneficial in that it affords
zoning boards an opportunity to weigh the
proposed use in relation to neighboring land
uses and to cushion any adverse effects by the
imposition of conditions designed to mitigate
them. These conditions, if reasonably designed
to counteract the deleterious effects on the
public’s welfare of a proposed religious or
educational use should be upheld by the courts,
provided they do not, by their cost, magnitude[,]
or volume, operate indirectly to exclude such
uses altogether.” 34
34. Id. at 595-96 (citations, brackets, and quotation marks
omitted).

14a
Appendix A
The foregoing, of course, was an explication principally
of New York law, which is informed with respect to
religious land use by constitutional principles applicable
to religious institutions. But to be absolutely clear, the
Supremacy Clause of the Constitution demands, as it
always has done, that state law yield to the imperatives
of more demanding federal law including the First and
Fourteenth Amendments.
II. 	Facts
A. 	Pomona and Its Zoning Ordinance
The Village of Pomona was incorporated in Rockland
County, New York in 1967. 35 It is governed by a board of
trustees, which consists of the mayor, deputy mayor, and
three trustees. 36 At the times relevant here, the entire
Village was designated as an R-40 residential zoning
district. 37 Thus, the entire Village was zoned to permit
only single-family residential development on lots of at
least 40,000 square feet. 38

35. Joint Pretrial Order Stipulations of Fact ¶¶ 3, 8 [A-732-33].
36. Id. ¶ 7 [A-733].
37. Joint Pretrial Order Stipulations of Fact ¶ 5 [A-732].
38. Ulman Affidavit [DX 2000] ¶ 5.

15a
Appendix A
B. 	The Subject Property and Pomona’s Zoning
Ordinance
1. 	Camp Dora and Yeshiva Spring Valley
The 100 acres at issue here are on the southwestern
side of Pomona. For years it had been the site of a summer
camp known as Camp Dora. 39 At some point prior to
December 1999 — the record does not indicate when —
an entity named Yeshiva Spring Valley (“YSV”) acquired
the parcel.40 Initially, YSV continued operating a summer
camp on the site, but its goal was to build a yeshiva 41 on
the property.42
a. 	December 1999 Informal Planning
Board Meeting
On December 15, 1999, a representative of YSV, Rabbi
Fromowitz, met with the Village planning board, the
members of which then were Mel Cool, Alan Lamer, Alma
39. Joint Pretrial Order Stipulations of Fact ¶¶ 3, 17 [A-732-33].
40. Village of Pomona Planning Board Meeting Minutes, Dec.
15, 1999 at 34-35 [TE-585-86].
41. A yeshiva is a Jewish educational institution that educates
students at the elementary, middle, and high school levels. Some,
though not all, are Orthodox institutions. Orthodox Judaism is
a branch of Judaism that teaches strict adherence to rabbinical
interpretations of holy scripture.
42. Village of Pomona Planning Board Meeting Minutes, Dec.
15, 1999 at 35-36 [TE-586-87].

16a
Appendix A
Roman, Joy Shulman, and Nik Winter.43 Also present
was Mark Healey, a representative of Frederick P. Clark
Associates, Inc. (“FPC”), then the Village’s planning
consultant.44
YSV did not present the planning board with any
specific building plans or application. Rather, it made
an informal presentation regarding the yeshiva it hoped
to apply to build in the future. 45 Rabbi Fromowitz
explained that YSV wished to build a primary school for
children in kindergarten through the eighth grade and
a preschool for younger children.46 The primary school
would be approximately 100,000 square feet 47 and would
accommodate roughly 800 students. 48 The preschool
building would be approximately 30,000 square feet 49 and
include a large synagogue. 50
During the meeting, Roman asked if YSV planned
to build dormitories at the schools. Rabbi Fromowitz
43. Id. at 1 [TE-583].
44. See id.; Tr. Ulman Trial Testimony, 753:4-10 [A-1281].
45. This mode of proceeding apparently is frequent in at least
some areas in New York State.
46. Village of Pomona Planning Board Meeting Minutes, Dec.
15, 1999 at 33, 38 [TE-584, 589].
47. Id. at 38 [TE-589].
48. Id.
49. Id.
50. Id. at 40 [TE-591].

17a
Appendix A
answered that it did not. Roman repeated the question
twice more, mentioning a rumor “floating around” that
YSV did intend to build dormitories. 51 Rabbi Fromowitz
repeated that YSV had no such intention. He explained
that the development would be a primary school and that
“[p]rimary school children should be living at home.”52
Planning board member Lamer asked the Rabbi if
YSV had done traffic studies. 53 Rabbi Fromowitz replied
that it had. 54 Roman then asked if there would be any
other structures built on the property.55 Rabbi Fromowitz
replied that “we have no plans for further development.
There’s nothing on the table that we are planning at this
moment. If there would be a future plan we would come
before the Planning Board once again for additional, you
know, development. But I can’t tell you right now of any
other development because there is nothing, that we’re
planning at this point.”56
Mark Healey, the FPC representative, then interjected
the following:
“Mr. Chairman, if I could offer some comments
to the Board. I took a look at the zoning for
51. Id. at 37 [TE-588].
52. Id.
53. Id. at 40 [TE-591].
54. Id.
55. Id. at 41 [TE-592].
56. Id.

18a
Appendix A
schools in the Village and they really stink, to
put it straight. The[] only requirement is that
they have to have five acres of land and the
setbacks have to be twice what is ordinarily
required. 57 So that leaves an open question
of issues that several members of the Board
brought up. What can happen in the future?
It looks okay now, but look at the property,
it’s 100 acres and there’s a lot of potential out
there. So, I would recommend that perhaps the
applicant going back and doing more detailed
plans, and doing a traffic study and everything
else for the Village to seriously consider looking
at it[s] requirements for schools and address
such issues as perhaps, more detailed or more
tailored lot area requirements. It’s common to
have lot area based on the number of students.
So you can have say 5 acres, and say you have
to have another .1 acre per student. So you
wouldn’t restrict them from doing what they
want to do but it would assure the Village that
they’re not going to go down the road and
develop a lot more in the future. Especially
considering the constrained nature of the
site and also the constrained nature of the
surrounding road ways, in terms of traffic.”58
57. A “setback” is “[t]he minimum amount of space required
between a lot line and a building line.” Setback, Bryan A. Garner,
Black’s Law Dictionary (11th ed. 2019).
58. Village of Pomona Planning Board Meeting Minutes, Dec.
15, 1999 at 41 [TE-592].

19a
Appendix A
In response to Healey’s comments, the board chairman,
Mel Cook, asked whether YSV would have the ability to
build an additional school in the future or if the Village
could “limit that.”59 Healey replied that the Village could
not prohibit building schools but could “put reasonable
standards on their development and operations.” 60
He added that he thought the Village should consider
changes to the Village code for schools “from a planning
perspective, in terms of property constraints, traffic and
what would be appropriate” for the Camp Dora property
and others in the Village.61
Following the meeting with Rabbi Fromowitz,
FPC prepared several memoranda for Mayor Herbert
Marshall and the Village board of trustees addressing
the YSV proposal and recommending amendments to
the Village zoning law.62 FPC noted in a January 24,
2000 memorandum that “it quickly became apparent”
from a review of “the existing standards for schools in
the Village’s Zoning Law” that “the current standards
for schools . . . are rather scant and would not adequately
control the total/future development of a school property.”63
The memorandum continued:
59. Id. at 42 [TE-593].
60. Id.
61. Id.
62. Frederick P. Clark Associates, Inc., Memorandum re
Proposed Primary School and Pre-School (YSV-Pomona) and the
Village’s Zoning Regulations Regarding Schools, Jan. 24, 2000
[TE-283-85].
63. Id. at 1 [TE-283].

20a
Appendix A
“For example, based on the 10 percent maximum
permitted building coverage requirement the
subject property[, i.e., YSV property, formerly
Camp Dora,] could theoretically be developed
with over 800,000 square feet of floor space.
While this amount of development is highly
unlikely due to the development constraints
presented by the steep slopes and wetlands on
the property, it does point out the inadequacy
of the current standards.”64
FPC recommended, among other things, making schools
subject to special permit approval by the board of
trustees,65 revising lot area requirements, implementing
limits aimed at controlling development intensity, and
changing the definition of “school” to include preschools.66

64. Id.
65. A “special permit,” or “special-use permit,” “is permission
to use property in a manner expressly permitted by a zoning
ordinance although other zoning ordinances in effect would otherwise
prohibit the use.” Salkin § 29:2. It is in effect an exception to the
ordinance identified within the ordinance itself. It differs from a
variance, which is an approved development that does not comply
with an ordinance. Id.
66. Frederick P. Clark Associates, Inc., Memorandum re
Proposed Primary School and Pre-School (YSV-Pomona) and the
Village’s Zoning Regulations Regarding Schools, Jan. 24, 2000 at
1-2 [TE-283-84].

21a
Appendix A
b. 	December 2000 Board of Trustees
Meeting
Eleven months later, Pomona trustees Ian Banks
and Nick Sanderson, Deputy Mayor Al Appel, and
Mayor Herbert Marshall addressed these matters.67 On
December 18, 2000, they considered whether the definition
of “school” in any new law should include both public and
private schools, rather than private schools alone, in light
of their understanding that state law already regulated
public schools.68 They discussed also the recommendation
to change schools from “permitted uses” “to uses subject
to special permit approval.”69 The group indicated that
adopting school-related changes to the Village code was
a priority that it hoped to accomplish within two months.
Mayor Marshall stated also that the draft changes then
before them were “a starting point” that they “want[ed] to
work on” because “[t]his thing’s going to come in. They’re
going to come in and we’re going to be caught with our
pants down if we don’t move. That’s why I want to make
sure that we’re moving ahead.” 70 At the time of this
meeting, and when the changes discussed were enacted
67. One reasonably might infer that there had been discussion
involving FPC, the Village board, and perhaps the planning board
about possible amendments to the zoning ordinance in light of FPC’s
recommendations to the planning board. The record, however, is
silent on this.
68. Village of Pomona Board of Trustees Meeting Minutes,
Dec. 18, 2000 at 67-69 [TE-296-98].
69. Id. at 68 [TE-297].
70. Id. at 69 [TE-298].

22a
Appendix A
into law, there were no schools in the Village.71 The only
prospective school use was the YSV plan.
c. 	Local Law No. 1 of 2001
On January 22, 2001, the board of trustees adopted
Local Law No. 1 of 2001 (the “2001 Law”).72 It defined
“educational institutions” as kindergartens, primary, and
secondary schools that were operated and licensed under
New York law.73 It required also that schools obtain special
permits from the board of trustees. In addition, it changed
the minimum lot size from 10 gross acres to 10 net acres
plus an additional .05 net acres per student.74

71. Joint Pretrial Order Stipulations of Fact ¶ 11 [A-733].
72. Id. ¶ 10 [A-733]. At the time, the members of the board were
Mayor Herbert Marshall, Deputy Mayor Al Appel, and trustees Nick
Sanderson, Ian Banks, and Alma Roman. See Village of Pomona
Board of Trustees Meeting Minutes, Oct. 22, 2001 at 1 [TE-273].
73. Local Law No. 1 of 2001, Jan. 22, 2001 [TE-1481-87].
74. Id. “Net lot area” refers to total acreage exclusive of certain
types of land. The concept is a product of overlay zoning, a practice by
which a municipality “overlays” its zoning map with a separate map
designed to protect an environmental area. See Robert J. Blackwell,
Overlay Zoning, Performance Standards, and Environmental
Protection After Nollan, 16 B.C. Envtl. Aff. L. Rev. 615, 615 (1989).
As defined in Pomona’s 2001 law, net lot area is calculated as acreage
less submerged land, most land within utility or drainage easements,
and certain land with unexcavated slopes. Local Law No. 1 of 2001,
Jan. 22, 2001 [TE-1481-87].

23a
Appendix A
d.

June 2001 Planning Board Meeting

In June 2001, YSV returned to the planning board with
another informal presentation. This time, YSV described
an additional proposed structure — an educational center
for adults.75 The Village attorney questioned whether
the educational center would qualify as an “educational
institution” under the new 2001 Law.76 The planning
board and the YSV representative discussed also issues
related to wetlands, slopes, and road access.77 The YSV
representative stated that YSV would address these issues
with the Village before submitting a formal application.78
e. 	The YSV Subdivision
Under Pomona’s subdivision regulations, subdivision
of a parcel into two or more lots requires the planning
board’s approval before the applicant seeks approval for
a specific development plan on a subdivided lot.79 While
its informal approach concerning its yeshiva project was
underway, YSV made a separate presentation during an
75. Village of Pomona Planning Board Meeting Transcript,
June 20, 2001 at 51-52 [TE-1609-10]. This aspect of the plan was
subsequently removed. Village of Pomona Planning Board Meeting
Transcript, Aug. 15, 2001 at 43 [TE-1350].
76. Village of Pomona Planning Board Meeting Transcript,
June 20, 2001 at 52-53 [TE-1610-11].
77. Id. at 54-59 [TE-1612-17].
78. Id. at 57-58 [TE-1615-16].
79. Pomona Code § 118-2 [TE-714].

24a
Appendix A
August 2001 hearing concerning a proposed subdivision of
the 100 acre property into 26 lots — 25 for single-family
homes, and one large lot, not a topic of the August 2001
hearing, for the yeshiva. 80
A number of Pomona residents attended the planning
board hearing and commented on the YSV proposal. Two
expressed anxiety over the Village’s ability to control the
large lot. One asked whether that lot later could be annexed
“to any of the other religious areas in the county” and thus
prevent the Village from exercising regulatory control
over the property. 81 The other asked whether Pomona
had laws stricter than those of the Town of Ramapo that
would allow the Village to determine whether and how
the Camp Dora property could be developed, or whether
there were no such laws and that the school essentially
was “a done deal.”82
2. 	TRC Buys the Property and the Village
Adopts Local Law No. 5 of 2004
On August 31, 2004, YSV sold the property to TRC
for approximately $13 million. 83 The parties stipulated
80. Village of Pomona Planning Board Meeting Transcript,
Aug. 15, 2001 at 29-30 [TE-1336-37].
81. Id. at 41 [TE-1348].
82. Id. at 46 [TE-1353].
83. DX 1057, Deed of Sale, Rockland County, Aug. 31, 2004 [TE1618]. YSV had paid approximately $1.65 million for the property,
though there is no indication in the record of the year in which that
occurred. Tr., Deposition of Nathan Fromowitz, 23:11-19 [A-449].

25a
Appendix A
below that the Village government did not become aware
of this transaction until November 2004. 84 In the interim,
however, the board of trustees considered another
amendment to the zoning ordinance.
On September 7, 2004, Village Attorney Doris Ulman
made the following recommendations to the board of
trustees: (1) changing the definition of “educational
institution” to allow dormitories as a permitted accessory
use, (2) eliminating the requirement of a specific acreage
per student, (3) removing restrictions related to the location
of schools on certain roads, and (4) limiting dormitories
to one such building per lot. 85 The first recommendation
would have brought Pomona into compliance with state
law — specifically, Bagnardi — requiring that municipal
zoning codes allow dormitories as an educational use of
property. 86
On September 27, 2004, the board adopted these
recommendations by enactment of Local Law No. 5 of
2004 (the “2004 Law”). 87 Bound as we are by the parties’
84. Joint Pretrial Order Stipulations of Fact ¶ 15 [A-733].
85. Doris F. Ulman, Memorandum re Proposed Amendment to
Zoning Law in Relation to Schools, Sept. 7, 2004 [TE-1513-14]. The
board consisted of Mayor Herbert Marshall, Deputy Mayor Nick
Sanderson, and trustees Ian Banks, Alan Lamer, and Alma Roman.
Village of Pomona Board of Trustees Meeting Minutes, Sept. 7, 2004
at 1 [TE-361].
861.

86. See Bagnardi, 68 N.Y.2d 583, 503 N.E.2d 509, 510 N.Y.S.2d
87. Joint Pretrial Order Stipulations of Fact ¶ 24 [A-734];

26a
Appendix A
stipulation, we, like the court below, necessarily accept
that it did so in ignorance of TRC’s purchase of the
property.
The 2004 Law liberalized certain provisions of
Village law related to educational institutions — including
provisions of the 2001 Law. It expanded the definition of
“educational institution” to include college, graduate, and
postgraduate schools in addition to kindergarten, primary,
and secondary schools.88 It recognized also accreditation of
schools “by the New York State Education Department or
[a] similar recognized accrediting agency.”89 Additionally,
the 2004 Law defined a “dormitory” as:
“A building that is operated by a school located
on the same lot and which contains private or
semi-private rooms which open to a common
hallway, which rooms are sleeping quarters
for administrative staff, faculty[,] or students.
Communal dining, cooking, laundry, lounge[,]
and recreation facilities may be provided.
Dormitory rooms shall not contain separate
cooking, dining[,] or housekeeping facilities
except that one dwelling unit with complete
housekeeping facilities may be provided for
use of a Superintendent or supervisory staff
for every fifty dormitory rooms. Not more than
Village of Pomona Board of Trustees Meeting Minutes, Sept. 27,
2004 [TE-374].

88. Local Law No. 5 of 2004, Sept. 27, 2004 [TE-1488-91].
89. Id. at 1 [TE-1488].

27a
Appendix A
one communal dining room shall be provided
in any building used for dormitory purposes.
Single family, two-family[,] and/or multi-family
dwelling units other than as described above
shall not be considered to be dormitories or
part of dormitories.” 90
According to Ulman, who drafted the law, this definition
was based on laws in Chestnut Ridge and Ramapo.91
Significantly, none of the changes effected by the
2004 Law would have had any effect on the plans of YSV
which, as far as the Board of Trustees knew, still owned
the property.
3. 	The Village’s Opposition to the Town of
Ramapo’s Zoning Changes
Until now, we have focused on events relating to the
old Camp Dora that culminated with TRC’s acquisition of
the property and the Village’s amendments to its zoning
law. But there were related events going on during part of
the same time period that involved the Town of Ramapo’s
zoning ordinance. As these events bore also on the district
court’s findings, we turn to them now.
Between 2002 and 2004, the Town of Ramapo, which
governs areas adjacent to Pomona, considered and passed
a number of laws regulating or relevant to land use.
90. Id.
91. Affidavit of Doris F. Ulman [07-cv-6304, DI 296] ¶ 47 [TE1892].

28a
Appendix A
In September 2002, Ramapo came out with a draft
comprehensive plan for development. The draft plan
proposed, among other things, to “down zone” a 200-acre
property called the Patrick Farm Property from 2-acre
residential zoning, or RR-80, to R-40 that would allow for
“Planned Residential Development.” 92 The Patrick Farm
Property is located on the southwest corner of Routes
202 and 306 — across the road from the TRC property.
Rumors circulated that 1,500 to 2,000 units of multifamily housing would be built on the Patrick Farm
Property. To calm the rumors, the town supervisor, 93
Christopher St. Lawrence, issued a statement to clarify
that the draft plan would allow only 220 residential units
to be built there.94 But some of the neighboring villages,
including Pomona, were not reassured and sought to
create a new village where the Patrick Farm Property was
located in order to remove it from Ramapo’s jurisdiction

92. Office of the Mayor, Letter, Dec. 12, 2002 at 1 [TE-235].
A “planned residential development” is a provision of a zoning
ordinance that permits a municipality to exempt certain types of
development — frequently large-scale projects — from specified
zoning requirements. See Eli Goldston & James H. Scheuer, Zoning
of Planned Residential Developments, 73 H arv. L. Rev. 241, 252-53
(1959). In some instances, their use may permit higher density as
well as building types that otherwise would not be permitted.
93. A town supervisor is an elected officer who functions as the
town treasurer and presides over town board meetings. See N.Y.
Town Law §§ 20, 29, 63.
94. Office of the Mayor, Letter, Dec. 12, 2002 at 1 [TE-235].

29a
Appendix A
and thus prevent the proposed down zoning. 95 Mayor
Marshall was a proponent of this idea and vocal opponent
of the draft comprehensive plan.96 He emphasized that
“[z]ero population growth should be a major [objective
of Ramapo’s comprehensive plan].” 97 Notwithstanding
such opposition, the comprehensive plan was adopted on
January 28, 2004.98 The new village supported by Marshall
did not come to pass.
In May 2004, the Village of Pomona and five other
villages sued Ramapo to set aside its comprehensive plan.99
Their petition stated that:
“Beginning in the 1990[s], the Town has
attracted a burgeoning Hassidic community,
which has for the most part settled around the
central hub in Monsey and areas to the east of
Monsey.
“This has caused development and political
pressures in the Town to increase its housing
stock and infrastructure.
95. Id. at 2 [TE-236]. The Town of Ramapo “has no direct
jurisdiction over village zoning.” DX 1008, Town of Ramapo Draft
Comprehensive Plan (R-2040), Dec. 22, 2003 at 2 [TE-1474].
96. See Office of the Mayor, Letter, Dec. 12, 2002 [TE-235-36].
97. Office of the Mayor, Ramapo Comprehensive Plan DGEIS,
Apr. 29, 2003 Comments at 2 [TE-379].
98. In re Application of Village of Airmont, Verified Petition
at 1, May 27, 2004 [TE-848].
99. Id.

30a
Appendix A
“The essence of the Comprehensive Plan and
zoning proposals is to significantly increase the
housing densities and infrastructure along the
bordering areas of the Town to accommodate
the existing and future population increases
in this area.
“It is not a rational development plan, and
certainly did not take into consideration the
impacts such development would have on the
infrastructure and character of the Town’s
bordering Villages.”100
The action sought to set aside the plan on the ground that
it had been adopted in violation of SEQRA.
Shortly after the petition was filed, Ramapo adopted
Local Law No. 9-2004, which “permits married adult
student multi-family high density housing in most singlefamily residential zones throughout the unincorporated
portion of the Town of Ramapo” if that housing is an
accessory use to a postsecondary educational institution.101
Pomona and other villages again sued Ramapo on the
grounds, among others, that the law violated SEQRA and
the Establishment Clause of the First Amendment.102 And
Mayor Marshall separately criticized the Ramapo town
100. Id. ¶¶ 31-34 [TE-853-54].
101. Village of Chestnut Ridge v. Town of Ramapo, Verified
Petition and Complaint ¶ 7, Oct. 12, 2004 [TE-889].
102. Id. [TE-887-926].

31a
Appendix A
board for “pandering to the special interest groups able
to deliver the critically important block vote [that] has
become so essential to those seeking office in Ramapo.”103
4. 	TRC’s Plans to Build a Rabbinical College
TRC was formed in August 2004 as a religious
corporation.104 Its stated purpose was, among other things,
to “establish, maintain[,] and conduct a school for the
[study] of the holy Torah and to maintain classes for the
teachings of the customs, traditions[,] and mode of worship
of the Jewish Orthodox faith.”105 It intended to build and
operate a rabbinical college in Rockland County to train
a new generation of rabbinical judges106 on the property
it purchased from YSV in August 2004.107
According to Tartikov, TRC would be organized as
a Torah community,108 a community designed to isolate
103. Newsletter of the Village of Pomona, The Village Green
(Jul. 2004) [TE-275].
104. TRC Certificate of Incorporation, Rockland County, New
York, Aug. 5, 2004 (hereinafter “TRC Certificate of Incorporation”)
[TE-1-2].
105. Id. at 1 [TE-2].
106. Trial Declaration of Michael Tauber [07-cv-6304, DI 283]
¶ 11 [TE-1668].
107. TRC Certificate of Incorporation at 3 [TE-4].
108. A Torah community, or Bais Din community, is one in
which students training to become rabbinical judges live with their
families and study with other students, free from distractions

32a
Appendix A
students from distractions and surround them only with
others engaged in the same study.109 Students would
follow its planned program of study for approximately
fifteen years before becoming rabbinical judges.110 They
would study from 6 a.m. until 10 p.m111 and live on campus
with their spouses and children.112 On-campus housing
would allow them to meet their religious obligations to
their families.113 Due to the nature of its program, TRC
could not be accredited by the New York State Education
Department or the Association for Advanced Rabbinical
and Talmudic Schools, the only accrediting agencies
relevant to TRC’s program of study.114
There is evidence that Pomona’s board of trustees
learned a bit about TRC’s plans as early as November
2004, when it became aware that TRC had purchased the
property. Most obviously, TRC’s name, which includes
the phrase “Rabbinical College,” is not subtle about the
purpose of TRC. Further, from November 2004 until
presented by the outside world. See Tr., Tauber Trial Testimony,
69:9-70:8 [A-894-95].

109. Trial Declaration of Michael Tauber [07-cv-6304, DI 283]
¶ 56 [TE-1672].
110. Id. ¶ 26 [TE-1669].
111. Id. ¶ 69 [TE-1673].
112. Id. ¶ 54 [TE-1672].
113. Id.
114. Id. ¶¶ 71-75 [TE-1673-74]; Joint Pretrial Order Stipulations
of Fact ¶ 2 [A-732].

33a
Appendix A
January 2007, the Village approved TRC’s tax-exempt
status twice,115 and the board of trustees discussed or
planned to discuss TRC in nonpublic meetings on ten
separate occasions.116 There is evidence also that there
were “unsubstantiated rumors”117 that TRC planned to
build a rabbinical college on the property.118
These facts notwithstanding, there is no evidence that
the board knew any details about the planned rabbinical
college before January 2007. In particular, nothing in the
record suggests that the board knew about the nature,
length, or size of the contemplated rabbinical college
program, its anticipated on campus housing, the number
of people who would reside on the site, or the duration of
the planned course of study.
5. 	Ulman Drafts the 2007 Laws
It was in this context that Ulman in late 2006 drafted
what would become Local Law No. 1 of 2007 (the “2007
115. Joint Pretrial Order Stipulations of Fact ¶ 16 [A-733].
116. Congregation Rabbinical Coll. of Tartikov, Inc. v. Vill. of
Pomona, 280 F. Supp. 3d 426, 441 (S.D.N.Y. 2017).
Executive sessions, which are nonpublic, may be held to
discuss matters of litigation. See Village of Pomona Board of
Trustees Meeting Minutes, Feb. 12, 2007 at 6 [TE-247]; Tr., Ulman
Trial Testimony, 850:22-851:3 [A-1349-50].
117. Defendants’ Amended Responses to Certain of Plaintiffs’
Second Set of Interrogatories ¶ 20 Response [TE-693].
118. Tr., Sanderson Trial Testimony, 463:12-20 [A-1104].

34a
Appendix A
Dormitory Law”) and Local Law No. 5 of 2007 (the “2007
Wetlands Law”) — the third and fourth challenged laws.119
The draft 2007 Dormitory Law would have (1) changed
the acreage requirement for educational institutions to
a net of 10 acres without the prior requirement of .05
additional net acres per student, (2) removed certain
slopes from the net lot area calculation, (3) prohibited
dormitories from occupying more than 20 percent of the
total square footage of all the buildings on a lot, and (4)
set the maximum height of a dormitory at 25 feet.120
Among other things, the draft 2007 Wetlands Law
would have prohibited “[e]recting any building or structure
of any kind,” including roads and driveways, within 100
feet of the boundary of any wetland without a permit issued
by the board of trustees or planning board.121 A person
could apply for a permit only if the prohibitions in the law
resulted in the “deprivation of [all] the reasonable use of
a property so as to constitute a de facto taking of such
property.”122 The 100-foot buffer, however, would not apply
to “lots that are improved with single family residences.”123
The permit and permit-approval procedures prescribed
119. See, e.g., December 11, 2006 Memorandum from Doris
Ulman to Mayor and Board of Trustees 1 [TE-341] (sending the
board a draft of the Wetlands Law).
120. Local Law No. 1 of 2007 [TE-1492-93].
121. Local Law No. 5 of 2007 at 3 [TE-1496].
122. Id. at 5 (emphasis omitted, alteration in original) [TE1498].
123. Id. at 3 [TE-1496].

35a
Appendix A
by the 2007 Wetlands Law are different from the special
permit requirement and permit process for educational
uses under the 2001 Law.
6. 	December 18, 2006 Public Hearing re 2007
Laws
The board of trustees held a public hearing on what
became the 2007 Dormitory Law on December 18, 2006.
Paul Savad, the attorney for TRC, asked if the proposed
law was being considered due to his client’s intended use
of its property and what the law would accomplish for
the Village.124 Marshall responded that the intent was to
“refine the existing law.”125 To give interested parties more
time to review the proposed law, the board continued the
hearing to the next board meeting on January 22, 2007.126
It set the extension hearing on the draft 2007 Wetlands
Law for the same date.127 Before concluding matters on
December 18, however, the board held a closed executive
session to discuss “matters of litigation.”128 There is no
record of the board’s discussion during that session,
though the agenda for the meeting indicates that the board
planned to discuss the TRC property.129
124. Village of Pomona Board of Trustees Meeting Minutes,
Dec. 18, 2006 at 4 [TE-261].
125. Id.
126. Id. at 4-5 [TE-261-62].
127. Id. at 9 [TE-266].
128. Id. at 12 [TE-269].
129. Village of Pomona Board of Trustees Meeting Agenda,
Mayor’s Edition, Dec. 18, 2006 [TE-318]. Prior to TRC and YSV, the

36a
Appendix A
7. 	Details of TRC’s Plans Emerge
On January 9, 2007, a political action group called
Preserve Ramapo published an article detailing plans for
the TRC construction. 130 Michael Castellucio circulated
the article to a Preserve Ramapo email list along with the
following message:
“This is not our usual update letter. We have
posted an important story that you will not
find in other media including the Journal or
Channel 12. Plans are under way to build a
‘religious college’ in Pomona at the end of
Route 306 where it meets Route 202. On the 100
acres on the right side of the road a developer
plans to put up an apartment complex of 4 to
6-story buildings that will house 4,500 adult
students and their families. This campus will
have 9 large apartment buildings and a single,
much smaller 3-story building that is the sole
school building. The formula used is the 90%
apartments 10% school of [Town of Ramapo
Supervisor Christopher] St. Lawrence’s Adult
Student Housing Law. . . .
“Please forward this email, or send a link to the
story to your neighbors and friends. Residents
property was owned by Camp Dora. Joint Pretrial Order Stipulations
of Fact ¶ 17 [A-733]. Village meeting agenda refer to the property by
that name on at least several occasions. See, e.g., Board of Trustees
Meeting Agenda, Tentative Working Edition, Oct. 16, 2006 [TE-226].

130. PX 65, Email and Attachment, Jan. 9, 2007 [TE-163-65].

37a
Appendix A
need to know that the Adult Student Housing
complex on the old Nike site (Grandview Ave)
was just the beginning of a massive urbanization
effort whose path was cleared by Supervisor St.
Lawrence and his Board.”131
The article itself stated that TRC planned to build
housing for 1,000 students — together with their families
totaling 4,500 residents.132 The plan involved parking for
34 vehicles at the school building and 1,036 vehicles at
the residence buildings.133 The article provided also the
following background on the adult-student-housing law:
“in [the Town of] Ramapo[, the Religious
Land Use and Institutionalized Persons Act
(RLUIPA)] . . . was used by our town board as
the legal justification for its new Adult Student
Housing Law (ASH). Michael Klein, our
town attorney, informed the town board that
under RLUIPA it could not prevent religious
institutions from creating ‘Adult Student
Housing’ connected to schools providing ‘postsecondary education.’
“Rather than test the fai rness and
constitutionality of the RLUIPA law in court,
Supervisor St. Lawrence and his Board created
131. Id. at 1 [TE-163].
132. Id. at 2 [TE-164].
133. Id.

38a
Appendix A
a number of ASH zones in Ramapo including
the project on Grandview Ave. on the old Nike
site and numerous others. . . .
“By doing so, St. Lawrence and the Board have
opened the floodgates to urbanization with
high-density, multi-story apartment complexes
masquerading as school campuses.
“The only way out of this march over the cliff is
for voters to clean house this fall in the Ramapo
elections, just as they did last fall in the state
and national elections.”134
On January 12, 2007, The Journal News, a local
newspaper, published an article entitled “Pomona to get
rabbinical college plan.”135 It included an overview of
the scale of the project similar to the Preserve Ramapo
article. In addition, it quoted Savad as saying that the
project was not a “dormitory city” but a rabbinical college
“for Orthodox Jews who desperately needed and are
mandated by Jewish law to go to the Jewish courts.”136
8.

January 22, 2007 Public Hearing on the
2007 Dormitory Law

On January 22, 2007, the board continued the public
hearing on the draft 2007 Dormitory Law. Villagers voiced
134. Id. at 2-3 [TE-164-65].
135. James Walsh, Pomona to Get Rabbinical College Plan,
The Journal News (Jan. 12, 2007) [TE-1129-30].
136. Id.

39a
Appendix A
their opposition to the size and scale of the rabbinical
college as had been reported by Preserve Ramapo and
The Journal News despite repeated statements from
Marshall that the exclusive purpose of the hearing was
to discuss changes to the law generally rather than to
discuss any specific property or project.137 Nevertheless,
some villagers noted that an additional 4,500 people
added to the Village’s population of 3,200 residents would
“entirely change the character” and “the politics of the
[V]illage.”138 A volunteer firefighter noted that there
was no equipment to “handle six story buildings.”139 One
individual mentioned the pressure that the college would
put on town infrastructure.140 A number stressed that the
rural character of the community was a feature of Pomona
they wished to preserve.141 And another described the
adult student housing in Ramapo on Grandview Avenue
as a “monstrosity.”142
Some villagers voiced their opposition to the people
who potentially would reside on the property. One said
that “there is a group who wants to take over this village”
and that he did not want to be
137. See, e.g., Tr., Village of Pomona Public Hearings on Local
Law Amendment: Dormitories (continued), Local Law Amendment:
Wetlands, Jan. 22, 2007, 30:18-25, 54:16-55:11 [TE-409, 433-34].
138. Id. 10:3-11 [TE-389].
139. Id. 11:21-12:2 [TE-390-91].
140. Id. 14:24-15:12 [TE-393-94].
141. See, e.g., id. 17:8-22 [TE-396].
142. Id. 21:3-6 [TE-400].

40a
Appendix A
“responsible for pay ing the expenses of
somebody else’s lifestyle, whether you cloak it
in religion, you cloak it in anything you want to
say, it just seems unfair that the burden should
be placed on the people who have lived in the
village by other people who want to come in
and change the whole nature of the village.”143
Another stated that “it’s really funny how we’re talking
about law, when you have a group that breaks every law
there is.”144
Two potential changes to the draft 2007 Dormitory
Law — permission to construct dormitories with two
communal dining rooms and a height limit of 35 rather than
25 feet on dormitories — were discussed also. The change
from 25 to 35 feet would have brought the height limit in
line with the limit on all other buildings in the Village.
One villager noted, however, that many single-family
homes and other buildings in the Village had pitched,
rather than flat roofs, as one would expect a dormitory to
have.145 Applying a different height limit to dormitories
therefore would produce little or no inconsistency in the
law.146 Another suggested that the 35-foot limit should
be measured from the existing rather than the proposed
grade of a property.147
143. Id. at 18:9-19:14 [TE-397-98].
144. Id. 47:2-5 [TE-426].
145. Id. 66:1-11 [TE-445].
146. Id.
147. Id. 68:14-69:10 [TE-447-48].

41a
Appendix A
At a certain point in the meeting, an individual stated
that “it would be nice to hear [the board] saying, hey, I
know how you all feel.”148 He continued to state that “in
America, we have the sense of community. That’s our face.
We’re going to be another Kiryas Joel.149 That’s why we
are emotional.”150 The next three individuals to speak all
commented on the emotion and frustration that villagers
felt as a result of the reports detailing TRC’s plans.
Specifically, one individual said:
“The frustration that we have is that you knew
of the press that had come out, whether it be
true or not. You knew that it was out there, and
you know we were very, very upset. I think what
would have helped us is if at the beginning of
this meeting, you had said, this is what is going
on, we know that you’ve read this, we are here to
protect your interests, and the amendments to
this law, this project, this alleged project, with
the alleged attorney who is allegedly sitting
here, produces it, that these amendments will
148. Id. 56:11-12 [TE-435].
149. Kiryas Joel is a village located within the Town of Monroe
in Orange County, New York. It was incorporated in 1977 to serve as
an enclave for followers of the Satmar Hasidic sect of Judaism and
is populated almost exclusively by followers of that sect. See, e.g.,
Fernanda Santos, Reverberations of a Baby Boom, N.Y. Times (Aug.
27, 2006), https://www.nytimes.com/2006/08/27/nyregion/27orange.
html.
150. Tr., Village of Pomona Public Hearings on Local Law
Amendment: Dormitories (continued), Local Law Amendment:
Wetlands, Jan. 22, 2007, 56:18-20 [TE-435].

42a
Appendix A
defend us. If you had said that in the beginning,
I don’t think as many people would be as upset
as they are, because we don’t know where you
stand.”151
Mayor Marshall replied:
“We sitting at this table have limitations that
are placed on us as to what we can say, and what
we can’t say, because our attorney tells us what
we can say and what we can’t say. I can’t say
what I feel — I can’t — if I agree with you, I
don’t agree with you, I don’t have that luxury
of being able to say that here. All that I can say
is that every member of this board works very,
very hard to do what is best for this community.
You have your issues. Don’t assume because no
one has gotten up and said, wow, I agree with
you, oh boy; don’t assume that because we didn’t
do that that we don’t agree. We may or we may
not, but please give us the benefit of the doubt.
We have all been doing this — we work very
hard at what we do. We try and do what is best
for the community, but it’s our home.
“There are limitations under the law that
restrict what we can say and when we can say
it.”152
151. Id. 58:4-18 [TE-437].
152. Id. 58:20-59:13 [TE-437-38].

43a
Appendix A
Following the public hearing, the board brief ly
discussed the proposed changes to the draft law. Trustee
Lamer agreed with the point that dormitories were more
likely to have flat roofs and a 25-foot limit expressed the
view therefore would be appropriate.153 Trustee Banks
said he thought that the limit should be consistent with the
limit on accessory uses, which was then 20 feet.154 Deputy
Mayor Sanderson concluded that the limit should be kept
at 25 feet as in the draft law proposed on December 18,
2006.155 He stated also that the board should keep the
provision in the December 18 draft that provided for one,
not two, dining rooms.156 The board then adopted the 2007
Dormitory Law in the form originally prepared by Ulman
in 2006.157
9.

January 22, 2007 Public Hearing on the
Wetlands Law

Following a discussion of two items not subject to
public hearing nor transcribed, the board held a public
hearing on the proposed 2007 Wetlands Law on January
22.158 Savad objected to the law generally and on grounds
specific to the TRC property. He stated that the proposition
153. Id. 76:12-18 [TE-455].
154. Id. 76:23-77:6 [TE-455-56].
155. Id. 77:8-19 [TE-456].
156. Id.
157. Id. 78:18-80:20 [TE-457-59].
158. Id. 80:23-82:12 [TE-459-61].

44a
Appendix A
that the proposed wetlands law was designed to “fill a void
created by federal law is incorrect and false . . . because the
vast majority of wetlands are under the present, current
jurisdiction of the Army Corps of Engineers and the [New
York State Department of Environmental Conservation,
or] DEC.”159 Savad argued that the proposed law generally
would be “arbitrary and capricious,” “subjective,” 160
“insidious,” and “not constitutional,” at least insofar as it
would add an additional 10 acres of the property to the
37 acres already subject to DEC and federal wetlands
jurisdiction, thus targeting and preventing certain uses.161
A villager who spoke immediately afterward argued
that the draft 2007 Wetlands Law indeed was needed to
fill gaps in federal and state wetlands regulations and
provided an example of a developer who had damaged
wetlands on a property adjacent to Pomona. The developer
had gone unpunished and the damage unmitigated due to
the limited jurisdiction, failings, and resource constraints
of the federal and state authorities.162 Another villager
expressed concern that his property would be affected
negatively by the proposed law, which he believed was
“made specifically for, let’s just say, certain types of
institutions which I think is the reason for most of this.”163
159. Id. 84:24-85:7 [TE-463-64].
160. Id. 85:20-23 [TE-464].
161. Id. 86:12-87:7 [TE-465-66].
162. Id. 87:16-88:14 [TE-466-67].
163. Id. at 93:1-3 [TE-472].

45a
Appendix A
He suggested that large parcels should be treated
differently than single-family homes.164
10. 	February 12, 2007 Workshop Meeting
The public hearing on the draft 2007 Wetlands Law
was continued to February 26, 2007.165 On February
12, 2007, however, the board held a workshop to discuss
possible changes to the draft law. Each member of the
board (with the possible exception of Roman) had known
for at least six years that there were wetlands on the TRC
property.166
At the workshop, Ulman ran through a list of
recommendations from the county.167 Subsequently, the
board discussed the issue of what would happen under
the proposed law if a property owner wanted to extend
an existing deck that was within the buffer zone. Ulman
noted that the building inspector in that event would
need to go to the property to determine if there were
any wetlands that would trigger the permit procedure in
164. Id. 93:4-6 [TE-472].
165. Id. 97:1-8 [TE-476].
166. Village of Pomona Board of Trustees Meeting Minutes,
Oct. 22, 2001 [TE-273-74].
167. Tr., Village of Pomona Planning Board Workshop Meeting,
Feb. 12, 2007, 4:8-6:3 [TE-492-94]. New York’s General Municipal
Law mandates a county-level review for certain municipal land use
actions, particularly those that may impact other municipalities or
the county more generally. See N.Y. General Municipal Law §§ 239l, 239-m, and 239-n.

46a
Appendix A
the law. Sanderson explained to Ulman that the process
would not work that way:
“[The building inspector] doesn’t have the time
or the money, budget wise, to go out and look
at the site for somebody that wants to rebuild
their deck with three extra square feet in it. . . .
“He has to get a building permit to do it and
the guy will look at the site plan or the existing
— the existing file and he’ll say, have you got a
proper — does the deck meet all of our codes?
Yes. You got a building permit.”168
Banks explained that the issue was a “problem of
identifying and mapping the existing wetlands or small
wetlands all over the village.”169
Marshall noted that the law accomplished such
mapping only for new developments.170 After further back
and forth, the board decided that it would address at the
next public hearing the issue of whether to apply the law
to “new additions and structures on existing developed
property.”171

168. Id. 19:22-20:10 [TE-507-08].
169. Id. 20:19-22 [TE-508].
170. Id. 20:23-21:3 [TE-508-09].
171. Id. 21:7-22, 27:4-15 [TE-509, 515].

47a
Appendix A
11. Village Elections
The public hearing scheduled for February 26, 2007
was adjourned until March 26, 2007.172 But on March
20, the Village held elections for the board of trustees.
Nick Sanderson, Brett Yagel, and Rita Louie ran as a
slate.173 They campaigned on a promise to stand up to
the threat posed by TRC’s “huge development that will
include housing for thousands of adult students and their
families” that would “have real environmental and safety
problems.”174 They promised to fight TRC’s anticipated use
of RLUIPA. They called RLUIPA “fundamentally unfair”
and its deployment “a hammer against our village.”175
And they won: Sanderson became mayor, and Yagel and
Louie each became a trustee.176 At the time they took up
consideration of the draft 2007 Wetlands Law, at least
Sanderson177 and Yagel178 were aware of the presence of
some wetlands on the TRC property.
172. Village of Pomona Board of Trustees Meeting Minutes,
Feb. 26, 2007 at 3 [TE-1361].
173. PX 41, Sanderson, Louie, Yagel Campaign Flyer [TE-25].
Sanderson at the time was deputy mayor. Id. Louie and Yagel had no
previous experience serving on the board of trustees. Id.
174. Id.
175. Id.
176. Id.; Joint Pretrial Order Stipulations of Fact ¶ 22 [A-734].
177. Village of Pomona Board of Trustees Meeting Minutes,
Oct. 22, 2001 [TE-273-74].
178. PX 69, Email, Jan. 11, 2007 at 1 [TE-168].

48a
Appendix A
12. 	The Village Adopts the 2007 Wetlands Law
The Village adopted the 2007 Wetlands Law on April
23, 2007.179 It exempted existing single-family homes.180
III.	Procedural History
TRC never applied for a permit to build a rabbinical
college on its property. But Tartikov filed this action
on July 10, 2007181 challenging the four Pomona laws
described above. It argued that the laws, facially and as
applied, violated (1) the First and Fourteenth Amendments
and their New York constitutional counterparts, (2) the
substantial burden, nondiscrimination, equal terms, and
exclusions and limits provisions of RLUIPA, (3) the Fair
Housing Act (“FHA”), and (4) New York statutory and
common law.182
Pomona moved to dismiss on the grounds that
Tartikov lacked standing, its claims were not ripe,
and it failed to state a claim for relief.183 The district
court granted the motion with respect to the as-applied
challenges, concluding that they were not ripe because
179. Joint Pretrial Order Stipulations of Fact ¶ 26 [A-734].
180. Local Law No. 5 of 2007 at 3 [TE-1496]. The exemption
had no practical effect on existing homes, but may or may not have
had implications for additions or modifications.
181. Complaint [07-cv-6304, DI 1].
182. Second Amended Complaint [07-cv-6304, DI 27].
183. Def. Mem. Motion to Dismiss [07-cv-6304, DI 37].

49a
Appendix A
TRC had not presented formally its actual plans for the
proposed rabbinical college nor made any application for
a special use permit, use variance, zoning amendment, or
zone change.184 The court concluded also that Tartikov’s
claims under New York Civil Rights Law Section 40
were unripe.185 It denied the motion in all other respects
relevant here.186
Tartikov moved, and Pomona cross-moved, for
summary judgment. The district court granted summary
judgment in favor of Pomona dismissing the free speech
claims.187 It otherwise denied the motions in all relevant
respects.
After a ten-day bench trial, the district court ruled
in favor of Tartikov on the majority of its claims.188
Beginning with the Fourteenth Amendment claims, the
court found that the Village enacted each of the four
challenged laws with a discriminatory purpose against
Tartikov based on its religious character and a desire to
prevent the growth of a Hasidic community in Pomona.189
184. Congregation Rabbinical Coll. of Tartikov, Inc. v. Vill. of
Pomona, 915 F. Supp. 2d 574, 596-607 (S.D.N.Y. 2013).
185. Id. at 638.
186. Id.
187. Congregation Rabbinical Coll. of Tartikov, Inc. v. Vill. of
Pomona, 138 F. Supp. 3d 352 (S.D.N.Y. 2015).
188. Tartikov, 280 F. Supp. 3d 426.
189. Id. at 449-50.

50a
Appendix A
Among other evidence, the court focused on the timing
of the laws, the Village’s litigation opposing the Town of
Ramapo’s comprehensive plan, the comments of villagers
and board members during the 2007 hearings, and several
statements from Village officials it regarded as indicating
their prejudice against Tartikov.190 The court found also
that the zoning law amendments had a discriminatory
effect because they prevented Tartikov from constructing
the proposed rabbinical college.191 Thus determining that
the laws were subject to strict scrutiny, the court held that
the Village lacked a compelling state interest in enacting
them and, in any case, the laws were not narrowly tailored
to serve any such interests.192 Based on these findings,
the court held also that the Village enacted the laws to
discriminate against Tartikov’s sincerely held religious
beliefs and its associational rights.193
Treating the RLUIPA nondiscrimination claims as
overlapping with the equal protection claims, the court
found for Tartikov on these claims, as well.194 It found
for Tartikov also on the claims under RLUIPA that
the zoning law amendments substantially burdened
Tartikov’s religious exercise. The court held that Tartikov
demonstrated that its desire to build college facilities
190. Id. at 449-53.
191. Id. at 455.
192. Id. at 455, 465.
193. Id. at 484-86.
194. Id. at 488.

51a
Appendix A
and multi-family housing was motivated by its religious
character, and that the zoning law amendments would
burden its planned construction substantially.195 However,
the court found for Pomona on the RLUIPA exclusions and
limits and equal terms claims. For the former, it found that
while the amendments would exclude Tartikov’s proposed
religious use of its land, they would not, as an exclusions
and limits claim requires, totally exclude or unreasonably
limit all religious assemblies, institutions, or structures
within the Village.196 As to the equal terms claims, the
court found that the zoning law amendments did not,
as they must for the claim to succeed, treat religious
institutions differently than nonreligious institutions.197
The court held further that Pomona violated the
FHA’s prohibition against discriminatory housing policies
and New York’s constitutional right to freedom of worship
largely in the same respects that it violated the U.S.
Constitution and RLUIPA.198 The court found for Pomona,
however, on the New York common law claims that the
Village improperly had excluded multifamily housing.199
The district court entered judgment and a mandatory
injunction on March 1, 2018. Among other things, the
195. Id. at 468-82.
196. Id. at 486-88.
197. Id. at 488-91.
198. Id. at 491-93.
199. Id. at 493-94.

52a
Appendix A
court: (1) declared the four laws facially invalid under the
First and Fourteenth Amendments, (2) enjoined Pomona
from applying any of the provisions in those laws to the
TRC property, (3) ordered Pomona to “process any and
all applications” filed by Tartikov without reference to the
provisions in the four laws and without “undue delay or
religious discrimination,” (4) directed Pomona to consider
any proposed Tartikov nonaccredited rabbinical college
as a permitted use rather than one subject to any special
permit requirement, and any proposed Tartikov rabbinical
college with student-family-housing as a permitted
use in the R-40 zoning district (one acre, single-family
residential), and (5) prohibited Pomona from enacting
in the future any provisions similar to those in the four
challenged laws. 200
Pomona appealed. Tartikov cross-appealed, asserting
that the district court erred in dismissing the as-applied
challenges and in ruling for Pomona on the RLUIPA equal
terms and exclusions claims.
DISCUSSION
I. 	Standing
A federal court’s authority to adjudicate depends on
whether the plaintiff has standing to pursue its claims. 201
200. Judgment and Mandatory Injunction [07-cv-6304, DI 356].
201. MacDonald v. Safir, 206 F.3d 183, 188 (2d Cir. 2000); see
also Melito v. Experian Marketing Solutions, Inc., 923 F.3d 85,
92 (2d Cir. 2019) (“It is fundamental that we have an independent

53a
Appendix A
The Supreme Court has construed Article III to mean
that a plaintiff must “have (1) suffered an injury in fact,
(2) that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” 202 An injury in fact sufficient
to confer standing is “an invasion of a legally protected
interest” that is “concrete and particularized” and “actual
or imminent, not conjectural or hypothetical.” 203 “[A]
plaintiff must demonstrate standing for each claim he
seeks to press and for each form of relief that is sought.” 204
Where an action involves multiple plaintiffs, Article III
is satisfied so long as at least one plaintiff — and not
necessarily the same one — has standing with respect to
each claim. 205
Tartikov’s claims fall into two distinct groups, each
of which asserts a different alleged injury.
Tartikov’s equal protection claims under the federal
and New York constitutions and its nondiscrimination and
equal terms claims under RLUIPA all are based on the
obligation to satisfy ourselves of the jurisdiction of this court and
the court below.”) (quotation marks and citation omitted).

202. Melito, 923 F.3d at 92 (quoting Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1547, 194 L. Ed. 2d 635 (2016)).
203. Lujan v. Defenders of Wildlife, 504 U.S. 555, 560, 112 S. Ct.
2130, 119 L. Ed. 2d 351 (1992) (quotation marks and citations omitted).
204. Town of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct.
1645, 1650, 198 L. Ed. 2d 64 (2017).
205. Id. at 1650-51. We therefore continue to treat TRC and
its future students as a single entity for the purpose of our analysis.

54a
Appendix A
alleged invasion of Tartikov’s right to be free from state
discrimination or unequal treatment under the law on the
basis of religion. Its First Amendment free exercise, free
speech, and free association claims under the federal and
New York constitutions, RLUIPA substantial burden and
exclusion and limits claims, FHA claims, and common
law claims related to the Berenson doctrine206 all rest on
alleged infringement of the free exercise of its religion by
regulation of the use of its property. Whether Tartikov
has standing to pursue each group of claims turns on
whether the alleged injury is an injury in fact for Article
III purposes. 207
The first group of claims is that the Village adopted
the four challenged laws at least in part for the purpose
of discriminating against Tartikov on the basis of religion
and that those laws stigmatized the plaintiffs. “[S]
tigmatizing members of [a] disfavored group as innately
inferior and therefore as less worthy participants in
the political community” — i.e., discrimination — is an
actual and concrete injury sufficient to confer standing. 208
206. This doctrine requires that “a zoning ordinance . . . [1]
provide a properly balanced and well-ordered plan for the community,
and . . . [2] adequately consider regional needs and requirements.”
Cont’l Bldg. Co. v. Town of N. Salem, 211 A.D.2d 88, 625 N.Y.S.2d
700, 703 (1995) (citing Berenson v. Town of New Castle, 38 N.Y.2d
102, 110, 341 N.E.2d 236, 378 N.Y.S.2d 672 (1975)).
207. Tartikov pled also claims under New York Civil Rights
Law Sections 40-c(1) and (2). The district court dismissed these
claims as unripe prior to trial. See Tartikov, 915 F. Supp. 2d at 607.
We therefore do not consider them here.
208. Heckler v. Mathews, 465 U.S. 728, 739-40, 104 S. Ct. 1387,
79 L. Ed. 2d 646 (1984) (quotation marks omitted).

55a
Appendix A
The “’right invoked is that of equal treatment,’ [and] the
appropriate remedy is a mandate of equal treatment.” 209
Tartikov thus has standing to pursue equal protection
claims under the Fourteenth Amendment of the federal
and New York constitutions as well as nondiscrimination
and equal terms claims under RLUIPA.
But Tartikov’s second group of claims is different.
It alleges that the four challenged laws prevent it from
building and operating a rabbinical college on the property
and thus interfere with its religious freedom. Tartikov,
however, never submitted a formal proposal for the
building project, applied for a permit, or engaged in any
other conduct that would implicate or invoke the operation
of the challenged zoning laws. Whatever harm may arise
from the application of the zoning laws to TRC’s property
is merely conjectural at this time. “[C]onjectural” injuries
do not suffice under Article III. 210 We therefore lack
jurisdiction over Tartikov’s free exercise, free speech, and
free association claims under the federal and New York
constitutions, RLUIPA substantial burden and exclusion
and limits claims, FHA claims, and common law claims
related to the Berenson doctrine. We vacate the judgment
with respect to these claims and remand with instructions
for the district court to dismiss them.
We now turn to the remaining claims.
209. Id. at 740 (emphasis in original) (quoting Iowa-Des Moines
Nat’l Bank v. Bennett, 284 U.S. 239, 247, 52 S. Ct. 133, 76 L. Ed.
265 (1931)).
210. Lujan, 504 U.S. at 560.

56a
Appendix A
II. 	Equal Protection Claims211
“This Court has generally recognized three types of
equal protection violations: (1) a facially discriminatory
law; (2) a facially neutral statute that was adopted with a
discriminatory intent and applied with a discriminatory
effect . . . ; and (3) a facially neutral law that is enforced in
a discriminatory manner.” 212 With respect to each of the
challenged laws, Tartikov focused, and the district court
based its holding, on the second theory. 213
D i s c r i m i n at or y p u r p o s e “ i mpl ie s t h at t he
decisionmaker . . . selected or reaffirmed a particular
course of action at least in part ‘because of,’ not merely ‘in
spite of,’ its adverse effects upon an identifiable group.” 214
211. The equal protection guarantees under the New York
Constitution are coextensive with those under the U.S. Constitution.
See, e.g., People v. Kern, 75 N.Y.2d 638, 649, 554 N.E.2d 1235, 555
N.Y.S.2d 647 (1990). Consequently, the analysis that follows applies to
Tartikov’s equal protection claims under the New York Constitution.
We need not address separately Tartikov’s RLUIPA
nondiscrimination claim. RLUIPA’s nondiscrimination provision
codifies the equal protection guarantees of the Fourteenth
Amendment. Chabad Lubavitch of Litchfield County, Inc. v.
Litchfield Historic Dist. Comm’n, 768 F.3d 183, 198 (2d Cir. 2014).
Thus, our holdings with respect to the equal protection claims
apply also to those claims.
212. Chabad Lubavitch, 768 F.3d at 199.
213. Tartikov, 280 F. Supp. 3d 426.
214. Pers. Adm’r of Mass. v. Feeney, 442 U.S. 256, 279, 99 S.
Ct. 2282, 60 L. Ed. 2d 870 (1979); see also, e.g., Hayden v. Paterson,
594 F.3d 150, 162 (2d Cir. 2010) (same).

57a
Appendix A
“Determining whether invidious discriminatory purpose
was a motivating factor demands a sensitive inquiry into
such circumstantial and direct evidence of intent as may
be available.” 215 This evidence may include “the series
of events leading up to a land use decision, the context
in which the decision was made, whether the decision
or decisionmaking process departed from established
norms, statements made by the decisionmaking body
and community members, repor ts issued by the
decisionmaking body, whether a discriminatory impact
was foreseeable, and whether less discriminatory avenues
were available.” 216
“In reviewing a district court’s decision in a bench
trial, we review [its] findings of fact for clear error[,]
. . . its conclusions of law de novo,” and mixed questions
of law and fact de novo. 217 Of particular relevance here,
“[w]e review a district court’s finding of discrimination
after a bench trial for clear error.” 218 “[T]here is a strong
presumption in favor of a trial court’s findings of fact if
supported by substantial evidence,” and “[w]e will not
upset a factual finding unless we are left with the definite

215. Vill. of Arlington Heights v. Metro. Hous. Dev. Corp., 429
U.S. 252, 266, 97 S. Ct. 555, 50 L. Ed. 2d 450 (1977).
216. Chabad Lubavitch, 768 F.3d at 199.
217. White v. White Rose Food, a Div. of DiGiorgio Corp., 237
F.3d 174, 178 (2d Cir. 2001).
218. Mhany Mgmt., Inc. v. Cty. of Nassau, 819 F.3d 581, 606
(2d Cir. 2016).

58a
Appendix A
and firm conviction that a mistake has been committed.”219
That said, “we have not hesitated to find clear error ‘where
the court has failed to synthesize the evidence in a manner
that accounts for conflicting evidence or the gaps in a
party’s evidentiary presentation.’” 220
We consider the challenged laws in turn.
A. 	Local Law No. 1 of 2001
The district court found that the 2001 Law was
motivated at least in part by discriminatory animus
based on: (1) the timing of the law in relation to YSV’s
informal proposal to build a yeshiva on the property and
the fact that there were no schools in the Village at that
time, (2) a comment made by FPC in a memorandum (that
specifically referenced YSV) stating that the zoning laws
regarding schools were “scant” and FPC’s comment at a
planning board meeting that those laws “really stink,” (3)
a comment by Mayor Marshall during the same meeting
that the Village would be “caught with [its] pants down,”
and (4) the Village’s supposed reaction to earlier proposed
projects — specifically, its opposition to the expansion of
an Orthodox Hasidic yeshiva, Bais Yaakov, in Ramapo
in 1996 and its support for an assisted-living facility.
219. White, 237 F.3d at 178 (quoting Travellers Int’l, A.G. v.
Trans World Airlines, Inc., 41 F.3d 1570, 1574 (2d Cir. 1994)); see
also Anderson v. City of Bessemer, 470 U.S. 564, 573, 105 S. Ct. 1504,
84 L. Ed. 2d 518 (1985) (same).
220. Locurto v. Giuliani, 447 F.3d 159, 181 (2d Cir. 2006)
(quoting Doe v. Menefee, 391 F.3d 147, 164 (2d Cir. 2004)).

59a
Appendix A
Reviewing as we must for clear error, these facts —
whether individually or taken together — are insufficient
to support an inference that the 2001 Law was enacted to
discriminate against YSV in particular or Hasidic Jews
in general.
We agree with the district court that the timing of
the 2001 Law was “in direct response to YSV’s desire to
build an Orthodox yeshiva on the Subject Property.” 221
But the Village’s choice to act in response to YSV’s
informal proposal says nothing of whether that choice was
motivated by a positive, negative, or neutral reaction to
YSV, its religious character, or its project.
YSV first approached the Village in 1999, through
the informal presentation described above, about
building a yeshiva on the property. During the meeting,
its representative noted, in response to questions from
Village representatives, that YSV had conducted a traffic
study, did not plan to build any dormitories, and had no
further development plans in mind. Mark Healey, the
FPC representative present at the meeting, then made
the following comment:
“I took a look at the zoning for schools in the
Village and they really stink, to put it straight.
The[] only requirement is that they have to
have five acres of land and the setbacks have
to be twice what is ordinarily required. So that
leaves an open question of issues that several
221. Tartikov, 280 F. Supp. 3d at 449.

60a
Appendix A
members of the Board brought up. What can
happen in the future?” 222
He went on to recommend that the Village “seriously
consider looking at it[s] requirements for schools and
address such issues as perhaps, more detailed or more
tailored lot area requirements.” 223 He stated also that the
Village could craft requirements that “wouldn’t restrict
[YSV] from doing what they want to do but . . . would
assure the Village that they’re not going to go down the
road and develop a lot more in the future.” 224
The district court relied on the two comments from
Healey in finding discriminatory animus. But these
comments demonstrate an acceptance of YSV and its
proposal rather than any religious animus. The only
negative implication, if there was any, concerned the
possibility of more intensive development in the future,
regardless of its nature or the identity of any future
developer.
Of course, it theoretically is possible that Healey made
these comments to cover up discriminatory intent and that
the board so understood them. If that were so, the board’s
receptiveness and responsiveness to Healey’s statements
would render the 2001 Law a violation of the Fourteenth
222. Village of Pomona Planning Board Meeting Minutes, Dec.
15, 1999 [TE-592].
223. Id.
224. Id. (emphasis added).

61a
Appendix A
Amendment. Moreover, if discriminatory intent lurks
within the background of a facially neutral decision, courts
are obliged to smoke it out. 225 But there is no evidence on
this record that Healey harbored any relevant animus
or intended the recommendations to serve as cover for
discriminatory goals. Nor is there evidence that the board
understood his comments to promote a forbidden end.
Without evidence of discriminatory intent, we must look
to the effects of the changes that FPC recommended to
the Village to determine how, if at all, they would have
affected a formal YSV proposal, which was the impetus
for the board’s actions in this time period.
In its January 24, 2000 memorandum addressed to the
Village board of trustees, FPC recommended: (1) adding
preschools to the list of authorized uses, (2) subjecting
schools to special permit approval, and (3) revising
minimum lot size requirements. The Village declined to
adopt the first recommendation, as is evident from the
definition of “school” and “educational institution” in the
2001 Law. It incorporated the second and third.
The record is devoid of evidence that could support an
inference of discriminatory intent in the Village’s decision
not to move forward with the first recommendation.
Nothing in record suggests the Village had an invidious
purpose behind continuing to exclude preschools from the
list of authorized uses. 226 Nor would the recommendation
225. Arlington Heights, 429 U.S. at 267.
226. See Village of Pomona Board of Trustees Meeting
Minutes, Dec. 18, 2000 [TE-290-98].

62a
Appendix A
have had a discriminatory effect given that its definition
of “educational institution” applied to all schools equally.
While YSV was the only school at the time that owned
property and intended to build in Pomona, the 2001 Law
would not have prevented YSV from applying for a special
permit, nor would it have excluded YSV from the Village.
In fact, YSV itself indicated that its proposed preschool
was a smaller, subsidiary aspect of the project rather than
its focus. 227
The second and third recommendations require more
analysis. To begin, neither recommendation facially
evidences discriminatory intent. In Bagnardi, the New
York Court of Appeals described the requirement of a
special permit application as “beneficial in that it affords
zoning boards an opportunity to weigh the proposed use
in relation to neighboring land uses and to cushion any
adverse effects by the imposition of conditions designed
to mitigate them.” 228 An apt example is a minimum lot
size requirement, which can control “the effect the use
would have on . . . the general plan for development of the
community.”229 The two amendments under discussion thus
were addressed to legitimate planning concerns. And that
is exactly what the evidence suggests the Village sought to
do here. Indeed, the FPC memorandum noted at the outset
that “the current standards for schools [in the Village
227. Village of Pomona Planning Board Meeting Minutes, Dec.
15, 1999 at 33, 38 [TE-584, 589].
228. Bagnardi, 68 N.Y.2d at 596.
229. Id.

63a
Appendix A
code] are rather scant and would not adequately control
the total/future development of a school property.” 230
We must address also the statement Mayor Marshall
made during the December 18, 2000 board meeting.
During that meeting, the Village attorney noted that the
draft 2001 Law under discussion was just that — a draft.
Mayor Marshall responded:
“Well, it’s a starting point, we want to work on
it. This thing’s going to come in. They’re going
to come in and we’re going to be caught with
our pants down if we don’t move. That’s why I
want to make sure that we’re moving ahead. If
you miss a meeting, no problem, you’re going to
be involved in the discussion any way, so. Okay,
next item . . . .” 231
From this statement and, in particular, the reference
to the Village being caught with its pants down, the
district court attributed animus at least to Marshall. But
as so often is the case, context is everything. The starting
point is Healey’s recommendations and the reasons for
them. He pointed out — and no one disputes — that the
Village had virtually no land use standards of any kind

230. Frederick P. Clark Associates, Inc., Memorandum re
Proposed Primary School and Pre-School (YSV-Pomona) and the
Village’s Zoning Regulations Regarding Schools, Jan. 24, 2000
[TE-283].
231. Id. at 69 [TE-298].

64a
Appendix A
applicable to schools.232 It had merely a minimum lot size of
5 acres and required setbacks of only twice those required
for a single family house. But it was confronted with a
likelihood of near term development of a small part of a
100 acre parcel perhaps followed in the future by efforts
to develop the remainder of the property in possibly more
intensive ways. So the planning consultant recommended
preparing more detailed plans, doing a traffic study, and
“seriously . . . looking at . . . requirements for schools
and address[ing] such issues as perhaps, more detailed
or more tailored lot area requirements.” 233 He followed
up with recommendations that “wouldn’t restrict them
[i.e., YSV] from doing what they want to do” but would
take appropriate account of possible later development
especially in light of “the constrained nature of the site
and also the constrained nature of the surrounding road
ways, in terms of traffic.” 234
Against that background, Marshall’s comment that
“[t]his thing’s [YSV’s proposal] is going to come in. They’re
going to come in and we’re going to be caught with our
pants down if we don’t move” is not reasonably construed
as betraying religious animus. In light of the fact that the
recommended legislation before the board at that point,
as Healey had pointed out, “wouldn’t restrict” YSV “from
doing what they want to do,” it reflected agreement that
action was appropriate to protect against being “caught
232. Village of Pomona Planning Board Meeting Minutes, Dec.
15, 1999 at 41 [TE-592].
233. Id.
234. Id.

65a
Appendix A
with our pants down” as respects future development of
the portion of the 100 acres that would not be developed
under the informal YSV proposal. It did not manifest
religious animus toward YSV in particular or Hasidic or
others of the Jewish faith.
The district court relied also on the Village’s prior
opposition to the expansion of the Bais Yaakov yeshiva in
1996. But this evidence does not support its finding either.
According to the minutes of a May 20, 1996 board of
trustees meeting discussing the yeshiva expansion:
“Mayor Klingher[] wrote the Town stating that
too much of the property was being utilized, the
building was 50’ instead of 35’. The approved
Negative Declaration was rescinded. They
plan to cover 55% of the land instead of 25%.
Parking requested was for fifty (50) spaces, 150
are needed. The Plan needs to be revised and
changed again.” 235
Later in the meeting, a member of the public “asked what
she can do” about the Bais Yaakov expansion plan. 236 The
mayor at the time responded “to get as many people as she
can to come out to the meetings. Also, they should retain
an [a]ttorney to represent them as a group.” 237
235. Village of Pomona Board of Trustees Meeting Minutes,
May 20, 1996 at 7 [TE-348].
236. Id. at 8 [TE-349].
237. Id.

66a
Appendix A
This evidence does not support a finding of discriminatory
animus. Unlike TRC, the Bais Yaakov yeshiva already
existed. Nothing in the record suggests that the Village
opposed its initial construction. As to the expansion
proposal, the evidence of record, according full appropriate
deference to the district court’s fact finding, does not support
a conclusion that the Village was against expanding the
yeshiva, either entirely or in part, on religious grounds. The
evidence suggests only that the building was larger than
the Village thought it should have been,238 that the proposed
land coverage would have been excessive, and that the
proposed parking was insufficient. These all are permissible
factors for municipal regulators to consider. Likewise, the
townsperson’s comment coupled with the mayor’s response
is too vague to permit an inference of animus.
The district court premised its animus holding also
on the Village’s lack of opposition in 1999 to an assistedliving facility to be built on the “Anna Mann” Property.
However, the record contains no evidence as to the size,
resident population, or scope of the proposed facility.
Without such evidence, there is no basis for comparing
the yeshiva proposal with the assisted living facility. 239
238. It is unclear exactly what the reference to 50 feet rather
than 35 feet actually meant. One possibility is that at some previous
step in the process, Bais Yaakov had sought or obtained approval for
a 35-foot building but that the yeshiva had switched to 50 feet. Of
course, it is subject to a different interpretation as well — namely,
that the building was simply too large of an expansion. As the latter is
the view most favorable to plaintiffs, we accept it as fact for purposes
of analysis. But it is insufficient evidence of prohibited animus.
239. On cross-examination, Ulman testified that the yeshiva
would have included “housing and a huge amount of development.”

67a
Appendix A
Having concluded that the evidence does not permit
a finding of discriminatory intent in the adoption of Local
No. 1 of 2001, we must ask whether the zoning law changes
brought about by the 2001 Law have discriminatory effect.
The record does not support such a conclusion. The special
permit requirement and related conditions apply with
equal force to any educational institution, religious or
secular, that might seek to build in Pomona. The fact that
YSV was the only school that hoped to build when the 2001
Law was passed does not render the recommendations
discriminatory because nothing in the record contradicts
the appropriateness of special permit and minimum lot
size requirements to protect against “traffic congestion,”
overburdening “municipal services,” or damaging the
“general plan for development of the community.” 240
Nor is there any evidence that the recommendations, if
adopted, would have prevented YSV from applying for a
special permit, caused the denial of such an application
for any reason other than unwillingness to comply with
appropriate and reasonable conditions, or otherwise
thwart or exclude YSV from the Village.
We give great deference to the district court’s findings
of fact. And we are mindful that municipalities of Rockland
County have faced significant development pressure from
Tr., Ulman Trial Testimony, 809:25-810:3 [A-1320-21]. This statement
is in apparent contradiction to Rabbi Fromowitz’s assertions that the
yeshiva would not include dormitories. Village of Pomona Planning
Board Meeting Minutes, Dec. 15, 1999 at 37 [TE-588]. Whatever
the case may be, these scant details provide no basis for comparing
the projects.

240. Bagnardi, 68 N.Y.2d at 596.

68a
Appendix A
Hasidic people in recent years. It is easy to see how bias
could play a role in influencing a municipality’s decision
whether to allow a religious institution to undertake a
large construction project. But we must be cognizant also
that municipalities may resist development pressures for
legitimate reasons unrelated to discriminatory animus.
Without direct evidence of intent, as is the case here,
divining a legislature’s motive is a difficult task — and one
made more difficult by the fact that bias may be implicit
and decisions are supported often by multiple rationales.
B. 	Local Law No. 5 of 2004
The district court relied on the following facts in
finding that the 2004 Law was motivated by discriminatory
animus: (1) the board of trustees passed a resolution in
January 2004 opposing any public officials who “abdicate
their responsibility of office by placing the politics of
special interest groups and individual developers ahead
of the best interest of the people,” (2) the Village joined
others in a lawsuit against the Town of Ramapo in
May 2004, which sought to strike down Ramapo’s new
comprehensive plan for failing to comply with SEQRA, (3)
following Ramapo’s adoption of an adult-student-housing
law in June 2004, the Village joined others in a separate
action against Ramapo to strike down that new law, (4)
in opposing the Ramapo law, Mayor Marshall stated that
Ramapo officials were “pandering to the special interest
groups able to deliver the critically important block vote,”
(5) YSV’s tax exempt status was denied for the first time
in 2004, and (6) the Village did not oppose an earlier Barr
Laboratories project to construct an office building.

69a
Appendix A
As detailed above, the 2004 Law, which was based
on Ulman’s recommendations, in fact liberalized several
features of the then existing zoning law. 241 It allowed
dormitories, which had not been permitted under the
2001 Law. It loosened accreditation requirements and
added college, graduate, and postgraduate schools to the
definition of “educational institution[s]” — a change that
could have been made as an accommodation or response
to YSV’s request in June 2001 to build an adult-education
center on the property. And it eased some restrictions
related to acreage and road access. The 2004 Law added
no new restrictions and did nothing to tighten existing
restrictions or requirements.
In other words, the 2004 Law would not have prevented
YSV from developing the Subject Property.
Nothing in the content or effect of the 2004 Law
permits the inference that it was motivated by animus. The
district court found discriminatory animus in the events
leading up to the passage of the 2004 Law to support
the inference that it was motivated by bias against the
Hasidim. It found that the 2004 Law was intended to shore
up the 2001 Law — possibly in danger of invalidation
under Bagnardi due to its exclusion of dormitories — in
order to “prevent the spread of [the Hasidim] into the
Village.” 242

241. Local Law No. 5 of 2004, Sept. 27, 2004 [TE-1488-91].
242. Tartikov, 280 F. Supp. 3d at 450.

70a
Appendix A
As detailed above, in January 2004, the Town of
Ramapo — which contains part of the Village of Pomona
— adopted a new comprehensive plan. The Ramapo plan
proposed a zoning change that would permit certain
residential development on the Patrick Farm Property,
which is located across the street from the YSV property.
These changes had been under consideration since
September 2002. In the interim, rumors had circulated
that the Patrick Farm property would be developed
with hundreds if not thousands of units. Pomona and
several other villages petitioned a court to set aside
the comprehensive plan as unlawful under SEQRA.
The villages’ arguments were based generally on the
idea that the plan failed adequately to consider the
environmental and other impacts of the vastly increased
density of development projects it would authorize. The
petition mentioned the Hasidim only as an explanation of
a source of the development pressure: “[b]eginning in the
1990[s], the Town has attracted a burgeoning Hassidic
community . . . [that] has caused development and political
pressures in the Town to increase its housing stock and
infrastructure.” 243
In June of the same year, Ramapo enacted Local
Law No. 9-2004, which, subject to issuance of a special
permit, authorized adult-married-student housing at
postsecondary educational institutions. In October,
before becoming aware that TRC purchased the Subject
Property, Pomona, three other villages, and a number
243. In re Application of Village of Airmont, Verified Petition
¶¶ 31-32, May 27, 2004 [TE-853].

71a
Appendix A
of individuals sued Ramapo and others to invalidate the
law as a violation of SEQRA and municipal law. 244 They
argued also that the law violated the Establishment
Clauses of the federal and New York constitutions based
on certain events prior to the enactment of the law. 245
Specifically, Ramapo received a comment from Yeshiva
Chofetz Chaim of Radin that asked it to provide adultstudent housing for married students and their families
while the married students continued their postsecondary
education. This allegedly was the only comment on this
topic. 246 Ramapo eventually asserted that it would comply
with the request. 247 In addition, Ramapo provided in
the final legislation a carve-out from a 500-foot buffer
requirement for adult-student-housing developments, a
carve-out that was uniquely applicable to one parcel in the
Town of Ramapo — a parcel owned by Yeshiva Chofetz
Chaim. 248 Consequently, in making their Establishment
Clause claims, Pomona and its co-plaintiffs stated that the
adult-student-housing law was passed “to secure for one
religious community [the Orthodox Jewish community] a
unique and significant zoning benefit.” 249
244. Village of Chestnut Ridge v. Town of Ramapo, Verified
Petition and Complaint, Oct. 12, 2004 [TE-887-926].
245. Id. at 36 [TE-922].
246. Id. ¶ 57 [TE-897].
247. Id. ¶ 60 [TE-898].
248. Id. ¶¶ 114-16 [TE-907-08]; Affidavit of Jay B. Rosenstein
¶ 39 [TE-953-54].
249. Village of Chestnut Ridge v. Town of Ramapo, Verified
Petition and Complaint ¶ 215, Oct. 12, 2004 [TE-922].

72a
Appendix A
We note at the outset that, in order to state an
Establishment Clause claim, the Village and its coplaintiffs had no choice but to reference the religion of
the group that stood to benefit from the challenged law.
This and other references to the Hasidim thus contain no
suggestion of animus on their face.
The issue then is whether the district court clearly
erred by inferring religious-based animus toward the
Hasidim from the Village’s opposition to the proposed
Ramapo law that would have benefitted members of
the Hasidic community. Such opposition is related to
legitimate land use concerns, free of any religion-based
hostility. Specifically, Tartikov was obliged to show that
Pomona’s opposition to the Ramapo legislation rested
in significant part on religious animus rather than
permissible development concerns. The mere facts that
(1) the development was proposed by a Hasidic group and
(2) Pomona opposed the development are insufficient to
support an inference of discriminatory intent.
The same is true for the district court’s finding
with respect to the January 2004 board resolution. The
resolution expressed opposition toward politicians who
favored certain groups or developers. That those groups
or developers might have shared a common religious
orientation does not, by itself, suggest that religious
animus was a “significant factor” in Pomona’s position. It
was clearly erroneous for the district court to conclude
otherwise.

73a
Appendix A
Mayor Marshall’s comment is subject to similar
reasoning. The district court clearly erred in relying on
the “block vote” in finding animus because this single
instance of rhetoric made by one member of the board,
completely divorced from any discussion or proceeding
related to the challenged 2004 Law, is insufficient to
support a finding that animus was a significant factor
that motivated the board’s decision to pass the 2004 Law.
We again find insufficient evidence to support the district
court’s contrary conclusion.
That YSV was denied tax exempt status for the
first time in 2004 is similarly unconvincing. There is no
indication that YSV lost its tax exempt status because
the Village harbored any religion-based animus.
Furthermore, after TRC purchased the Subject Property,
the Village approved its tax exemption applications in 2005
and 2006. The district court’s finding of discriminatory
animus on this fact was therefore clearly erroneous.
We turn finally to the evidence that Barr Laboratories,
in proposing a purportedly similar building project,
received more favorable treatment than YSV. In the years
prior to the enactment of the 2004 law, Barr became
interested in buying a parcel in Pomona on which to
build an office building and parking lot. The record does
not reveal the size of either. The Village board discussed
the matter in May 2002. The minutes show that none of
the trustees was “opposed . . . in concept” to the proposal
except Sanderson. 250 But, as with the Anna Mann
250. Village of Pomona Board of Trustees Meeting Minutes,
May 6, 2002 at 3 [TE-329].

74a
Appendix A
property, the record lacks sufficient information about
Barr’s proposal for us to compare it to YSV’s proposed
yeshiva. Thus, the district court had no record basis for
inferring disparate treatment based on religion.
***
This Court is entirely mindful of the broader context
of this case.
On the one hand, we know that residents of suburban,
exurban, and urban communities often resist development
pressure for a long list of considerations. Some do not want
change, population increases, more traffic, new buildings,
elimination of open green space, tall buildings blocking
light, and a host of other alterations of the patterns and
circumstances of their lives. And citizens have a perfect
right to those views, to express them before boards
and legislatures, and to seek through the democratic
and judicial processes results that accord with their
preferences as long as they do so honestly and without
using the mechanisms of government for the purpose of
disadvantaging others for religious reasons.
The courts’ task is to view the evidence and come to
a conclusion whether religious bias played a significant
role in the adoption of these laws.
The district court, which tried the case, has the
predominant role in that process. We have no doubt that
it reached its conclusions after a careful and conscientious
review of the record. Insofar as the 2001 and 2004 Local

75a
Appendix A
Laws are concerned, however, we have come to the “definite
and firm conviction that a mistake has been committed.”251
The record in this case reflects a simple story. YSV
explored with Pomona its plan to build a school on the
Camp Dora property. There was virtually no opposition
to YSV’s plan. But its emergence, coupled with the advice
of the Village’s planning consultant, led to the realization
that the Village’s zoning laws did not adequately address
permissible development for educational purposes. Thus,
the Village, after due consideration and before it knew that
TRC had purchased the Subject Property, passed the 2001
and 2004 local laws to address that need. Those measures
would not have impeded YSV’s planned project. They
looked to the future, to other as yet unknown educational
developments, whether on the unused portion of YSV’s
property or elsewhere in the Village.
There simply is not enough evidence to permit a
finding by a preponderance of the evidence that the Village
acted with discriminatory intent in adopting the 2001
and 2004 local laws. Instead, the evidence suggests that
legitimate land use concerns precipitated the passage of
these laws. We therefore find that the district court clearly
erred with respect to the 2001 Law and the 2004 Law. As
will appear, we reach a different conclusion with respect
to the other laws at issue here. 252
251. Anderson, 470 U.S. at 573.
252. Our conclusion that the district court erroneously found
discriminatory intent suffices for reversal. See Arlington Heights,
429 U.S. at 265 (“Proof of racially discriminatory intent or purpose
is required to show a violation of the Equal Protection Clause.”). We

76a
Appendix A
C. 	Local Laws Nos. 1 and 5 of 2007
By 2007, the situation had changed drastically. There
was public outcry over the TRC proposal following news
reports in January 2007 noting that the rabbinical college
would serve 1,000 students and the construction would
include multiple apartment buildings up to six stories
high to house 4,500 residents. After board elections in
March 2007, Sanderson rose from deputy mayor to mayor
and Louie and Yagel, who had not previously served on
the board, became trustees. All three ran on a platform
opposing the TRC project.
It is on this record, with these and still other
significant facts not present in 2001 and 2004, that the
district court held that the board of trustees enacted the
2007 Dormitory and Wetlands Laws with discriminatory
purpose.
1. 	Discriminatory Purpose
The district court held that the 2007 Dormitory and
Wetlands Laws were motivated by discriminatory animus
based on the following evidence: (1) villager comments
made at a January 22, 2007 public hearing on the draft
2007 Dormitory Law, (2) the absence of studies indicating
the necessity or utility of the 2007 Wetlands Law combined
with the Village’s knowledge that there were wetlands on
the property and the timing of the law’s adoption, (3) the
therefore need not, and do not, address the court’s finding that the
law had a discriminatory effect on Tartikov.

77a
Appendix A
exception for single-family homes in the 2007 Wetlands
Law, (4) the campaign promise of Sanderson and Yagel
and Louie to stop the threat of the TRC development,
(5) statements made by Sanderson, Louie, and Yagel
“indicative of [Pomona’s] prejudice against Tartikov
and Orthodox/Hasidic Jews,” 253 (6) statements made by
members of the community “express[ing] animus against
Orthodox/Hasidic Jews,” 254 (7) the board’s rejection of
proposals to increase the maximum height of dormitories
and number of dining facilities allowed in the 2007
Dormitory Law, and (8) the Village’s “behavior with
respect to other proposed projects.” 255
As these facts make plain, the 2007 Dormitory and
Wetlands Laws were enacted in a significantly different
context than were the 2001 and 2004 Laws. These
differences are highly significant.
We begin with the laws themselves. The 2007
Dormitory Law and the 2007 Wetlands Law differ from
the 2004 Law in that both 2007 Laws tightened, rather
than loosened, restrictions on building schools in the
Village. For example, it prohibited dormitories from
occupying more than 20 percent of the total square
footage of all buildings on a lot. And it set a maximum
height of 25 feet for any dormitory building. The Wetlands
Law prohibited building any structure within 100 feet
253. Tartikov, 280 F. Supp. 3d at 452.
254. Id. at 453.
255. Id. at 454.

78a
Appendix A
of the boundary of any wetland without a permit. And
it restricted the persons who could apply for a permit to
those who were deprived of all reasonable use of their
property, a sharp restriction of the trustees’ previous
special permit authority.
It is clear also that the board knew what TRC intended
to do with the property when it enacted the 2007 laws.
True, there is scant evidence that the public or the board
knew any significant details about TRC’s plans or what its
rabbinical college might look like when the draft versions
of the Dormitory and Wetlands Laws were discussed
at a public hearing on December 18, 2006. But that
ignorance dissolved on January 9, 2007 when Preserve
Ramapo published an article describing TRC’s plans for
a rabbinical college that included housing for 4,500 adult
students and their families in buildings up to six stories
high.
This context is crucial to understanding the board
members’ thinking when they enacted the laws. Having
learned about the TRC project, many villagers attended
the extension of the December 18 hearing that took place
on January 22, 2007. The purpose of this hearing, as Mayor
Marshall repeatedly reminded attendees, was to discuss
the two proposed amendments to the Village zoning law,
and not whether the Village should or should not allow
TRC to build the rabbinical college that had not yet been
proposed. 256 But villager after villager spoke out against
256. See, e.g., Tr., Village of Pomona Public Hearings on Local
Law Amendment: Dormitories (continued), Local Law Amendment:
Wetlands, Jan. 22, 2007, 13:10-14:2 [TE-392].

79a
Appendix A
the TRC project, and the hearing was characterized by
“outbursts,” “shouts,” and frequent interruptions. 257 One
villager complained that “there is no denying . . . what is
going on here tonight is that there is a group who wants
to take over this [V]illage,” and that the rabbinical college
would “totally change[] the entire concept of the [V]
illage,” forcing current villagers to “pay[] the expenses
of somebody else’s lifestyle.” 258 Another found it “really
funny how we’re talking about law, when you have a group
[the Hasidic community] that breaks every law there is.”259
Another proclaimed that “[t]his is a disgrace. It is an
absolute[] disgrace. You are in the wrong town, and the
wrong [V]illage. . . . If you allow this school to be brought
to this [V]illage, you’re going to destroy everything that
everybody here worked for all their life and I will never,
ever, let that happen.” 260 And yet another explained that
“in America, we have the sense of community. That’s our
face. We’re going to be another Kiryas Joel. That’s why
we are emotional.” 261
The villagers are not the only individuals who
understood the connection between TRC and the
2007 Dormitory and Wetlands Laws. The evidence
demonstrates that one board member hinted strongly
257. See, e.g., id. 20:12-20 [TE-399]; id. 21:9-22 [TE-400].
258. Id. 18:4-19:14 [TE-397-98].
259. Id. 47:2-5 [TE-426].
260. Id. 14:10-15:13 [TE-393-94].
261. Id. 56:18-20 [TE-435].

80a
Appendix A
to frustrated villagers that the laws under consideration
would prevent the TRC project or at least burden it
significantly. One villager asked Ulman bluntly whether
she “feel[s] the new law would make it more difficult for
a project like this [i.e., TRC] anywhere in the area to go
through, or [whether she] feel[s] it would be less difficult
for the project to go through with the new laws.” 262 The
villager then asserted: “I think what everybody is trying
to say is we would like to make it tougher for these
project[s] to go on, rather than easier so if you can tell us
how we can vote for that.”263 Ulman deflected the question,
but Trustee Lamer interjected: “You may have heard at
the very beginning [of the hearing] that Mr. Savad [TRC’s
counsel] was complaining that these amendments unfairly
restrict some theoretical project that doesn’t exist, as far
as the [V]illage is concerned.” 264 Lamer then reasserted:
“Mr. Savad may believe that these amendments unfairly
restrict some theoretical project” before explaining that
the proposed amendments were “necessary to promote
the public health, safety, and welfare of the [V]illage
. . . [a]nd that’s the reason why this proposal is before us
today.”265 It is reasonable to conclude that Trustee Lamer’s
reminder that TRC opposed the amendments permitted
an inference, supported by the other evidence we have
cited, that the board was using facially neutral laws to
discriminate against the one entity it knew was hoping
to build a school in Pomona
262. Id. 35:10-14 [TE-414].
263. Id. 35:18-21 [TE-414].
264. Id. 36:18-22 [TE-415].
265. Id. 37:5-14 [TE-416].

81a
Appendix A
The board members were present for the hearing
and heard the villagers’ comments. And their private
discussion following the conclusion of the hearing
demonstrates that those comments were on their minds.
When discussing the 2007 Dormitory Law, Trustee
Lamer reasoned that the height restriction should not be
increased due to the differences between buildings with
flat roofs such as dormitories and buildings with pitched
roofs such as single-family homes. He stated also that one
communal dining room “would be sufficient.” 266 Trustee
Banks suggested reducing the maximum height to 20
feet to “be consistent with our law, accessory use height
is twenty feet.” 267 Deputy Mayor Sanderson then said:
“Well, I think that based on the input from
the public this evening, I think it’s very clear
that there is a great deal of concern about the
additional changes from the amendments that
were first proposed on December 18th. It’s my
opinion that we should go back to the December
18th amendments. We should cut out the two
dining rooms and go back to one. We should
go back from 35 feet to 25 feet, which is clearly
more acceptable, and if we’re going to do that,
we should probably go back to 20 percent
coverage instead of 25 percent, and keep it the
way it was at the first public hearing.” 268
266. Id. 76:18-22 [TE-455].
267. Id. 76:23-77:6 [TE-455-56].
268. Id. 77:8-19 [TE-456].

82a
Appendix A
The board then voted to reject the proposed changes and
adopted the 2007 Dormitory Law as it had been proposed
at the December 18, 2006 meeting.
It is impossible for us to glean precisely how the
board weighed the villagers’ comments. But that is not
our task on appeal. It is clear from Sanderson’s statement
that the comments influenced at least his decisionmaking
process. Some of those comments were susceptible to
an inference of religious animus and hostility toward
the group that would be affected negatively by the 2007
Dormitory Law. Viewing the record as a whole, including
“the series of events” leading up to the adoption of the
2007 Dormitory Law, the “context in which the decision[s]”
regarding the law were made, and “statements made by
the decisionmaking body and community members,” 269
we cannot say that the district court clearly erred in
finding that religious animus was a “significant factor
in the position taken by . . . those to whom the decisionmakers were knowingly responsive.” 270 And this is so
notwithstanding that a proposal to add 4,500 new residents
and multiple apartment buildings to a small village of
single family houses with a population of 3,200 almost
certainly would have provoked opposition regardless of
any religious element.
We reach the same conclusion with respect to the
2007 Wetlands Law. In finding discriminatory purpose,
269. Chabad Lubavitch, 768 F.3d at 199.
270. Tartikov, 280 F. Supp. 3d at 453 (quoting LeBlancSternberg v. Fletcher, 67 F.3d 412, 425 (2d Cir. 1995)).

83a
Appendix A
the district court relied on facts related to the board’s
decisionmaking process. These facts included the absence
of any studies conducted to determine the need for or most
appropriate means of enacting wetlands protection. The
court relied also on comments made by villagers at the
January 22, 2007 hearing. We have concluded already that
the board members, who were present for that hearing
and discussed the comments afterwards, were responsive
to those comments and the animus they embodied.
To be sure, there is little or no direct evidence of any
personal religious bias on the part of the trustees who
passed these laws. But viewing the evidence in the holistic
manner counseled by our precedent, 271 we see no clear
error in the district court’s findings with respect to the
2007 Dormitory and Wetlands Laws.
2. 	Discriminatory Effect
The next and final question with regard to the 2007
Dormitory and Wetlands laws is whether the district court
clearly erred in holding that the laws had a discriminatory
effect on Tartikov.
For the 2007 Dormitory Law, the court based its
discriminatory effect finding on a finding that three
provisions of the law would burden TRC’s planned
construction of dormitories unlawfully. The first two
provisions were the exclusion of multifamily dwelling units
from the definition of “dormitory” and the prohibition
271. See Chabad Lubavitch, 768 F.3d at 199.

84a
Appendix A
on separate cooking and dining areas. The court found
that both restrictions prohibited the types of residences
TRC intended to build, which included “kitchens in each
residence so that students can diligently study . . . while
also meeting their religious obligations to their families.”272
The other offending provision was the 20 percent floor
space restriction, which would limit dormitories to just
20,000 square feet based on TRC’s planned 100,000 square
feet of construction. 273 Dormitories of that size, the court
calculated, could accommodate roughly 30 students and
their families — a number far short of what TRC had
planned. 274
Pomona appears to concede that Tartikov would
face these burdens because it advances no argument
challenging the district court’s findings.275 It does, however,
fleetingly argue that the court erred by finding the 2007
Dormitory Law would have had an effect sufficient for
Tartikov to prevail on its RLUIPA “substantial burden”
claim. 276 In that portion of its brief, it argues that the
272. Tartikov, 280 F. Supp. 3d at 456.
273. Id.
274. Id.
275. Pomona Br. 52 n.18.
276. Id. (“As [Tartikov] failed to [show discriminatory purpose],
evidence on . . . discriminatory effect[] does not matter. Further,
[Tartikov] failed to prove a substantial effect.”). We decline to draw
any lines here for how much discriminatory effect suffices for an
equal protection claim because that question is not close with respect
to the 2007 Dormitory and Wetlands Laws.

85a
Appendix A
burdens identified by the district court are insubstantial
because students could live off campus, TRC could buy
more land, and living on campus was not essential to TRC’s
proposed Torah community.
Even if we were to credit these arguments, they
would not persuade us that the finding of discriminatory
effect was clearly erroneous. There is sufficient basis
in the record to conclude, as the district court did, that
on campus housing of the nature Tartikov sought was
important to the exercise of Tartikov’s faith because
it would allow students to be near their families while
maintaining a diligent study schedule. Further, Pomona
has presented no evidence suggesting that the Village
and surrounding community had sufficient housing for
1,000 students and 3,500 additional family members to
live within walking or even driving distance of the TRC
site without additional construction.
With regard to the 2007 Wetlands Law, the district
court found that two provisions working in tandem
prevented construction of a TRC-like project anywhere in
Pomona. The 10 net acre minimum lot size for educational
institutions ensured that TRC’s lot was the only site in
Pomona large enough for the proposed college. 277 And the
required 100-foot buffer between constructed features and
wetlands guaranteed TRC could not build on the property,
because the only suitable location for a driveway fell within
100 feet of wetlands. 278 While the 2007 Wetlands Law
277. Id. at 456-57.
278. Id. at 457.

86a
Appendix A
allowed landowners who were deprived of all reasonable
use of their property to apply for a permit, the parties’
stipulated to the district court that TRC did not qualify for
a permit because its property could be put to reasonable
use — though not the use it desired. 279
We find no error in the district court’s reasoning.
Again in the context of challenging the RLUIPA
substantial burden finding, Pomona faults the district
court for not determining whether TRC could have
regraded the property to comply with the wetlands law
without facing a substantial burden. Pomona points to
no facts suggesting that TRC could have constructed a
driveway consistent with the 2007 Wetlands Law with
or without regrading. Nor does it point to any evidence
that TRC could have constructed its proposed rabbinical
college elsewhere in the Village. Moreover, forcing TRC
to regrade the property or buy new land — even if doing
so could have brought it into compliance with the 2007
Wetlands Law — would have been a discriminatory effect
of the law.
While the burden of showing discriminatory effect
was on Tartikov below, the burden of showing clear error
here is on Pomona. It has not met this burden. We find
no error in the district court’s conclusion that the 2007
Dormitory and Wetlands Laws had a discriminatory effect
on Tartikov.

279. Id.

87a
Appendix A
D. 	Remedy
The district court enjoined the Village from enforcing
the offending provisions of the four challenged laws
against Tartikov. But its injunction went much further
than this. The court below prescribed how the Village
must process and review a possible application from TRC
concerning its proposed rabbinical college. 280 Among other
things, the injunction required the Village to exempt TRC
from any special permit or variance requirements, process
its application expeditiously, and perform “segmented
review” 281 of the application because “such a review will
be more protective of the environment.” 282 The court also
prohibited the Village from enacting laws similar to the
four challenged laws and retained jurisdiction over “any
and all additional remedies sought by [Tartikov] consistent
with” the judgment and injunctions. 283 This relief goes
too far.
Parts of the injunction conflict with state law. The
requirement that the agency tasked with reviewing
any TRC application engage in segmented review takes
280. Special App. at 2-5.
281. “Segmentation means the division of the environmental
review of an action such that various activities or stages are
addressed under [state regulatory law] as though they were
independent, unrelated activities, needing individual determinations
of significance.” 6 N.Y. Comp. Codes R. & Regs. § 617.2(ah).
282. Special App. at 4.
283. Id. at 5-6.

88a
Appendix A
away authority that New York delegates to the reviewing
agency. 284 In addition, the court’s requirement that the
Village hold a public hearing within 62 days of receiving
an application conflicts with the statutory time limit that,
the parties agree and we assume to be true, initiates the
62-day clock once an application is complete. 285
Moreover, much of the injunctive relief is speculative.
TRC has not submitted an application for its rabbinical
college, and the Village has not taken any action
suggesting it would fail to follow the law in processing
its application. 286 The injunction goes much further than
is needed to remedy the injuries that Tartikov actually
suffered and that are the subject of this lawsuit.
We affirm insofar as the district court enjoined
Tartikov from enforcing the 2007 Wetlands and Dormitory
284. See 6 N.Y. Comp. Codes R. & Regs. § 617.6(b); see also
Arthur Ientilucci, Seqra: Downthe Garden Path or Detour for
Development, 6 A lb. L. Envtl. Outlook J. 102, 119-20 (2002) (noting
an agency charged with reviewing an application determines whether
segmented review is appropriate).
285. See Pomona Br. 52-53.
286. Cf., e.g., Sterling Drug, Inc. v. Bayer AG, 14 F.3d 733, 750
(2d Cir. 1994) (finding it unnecessary to “fence in” a defendant with
“a broad injunction” in light of its past activities when there was
“no reason to believe” the defendant would fail to follow its legal
obligations going forward); Galella v. Onassis, 487 F.2d 986, 993,
998 (2d Cir. 1973) (modifying, among other things, a portion of an
injunction prohibiting the plaintiff from coming within 50 yards of the
defendant by reducing the distance to 25 feet, because the original
injunction was “broader than is required to protect the defendant”).

89a
Appendix A
Laws, 287 but we vacate the majority of the additional
relief. 288
III.	Tartikov’s Cross-Appeal
Tartikov challenges on cross-appeal the district
court’s order dismissing the as-applied challenges as
unripe for consideration and the summary judgment order
in favor of Pomona on the RLUIPA equal terms and total
exclusion provisions. We address each in turn.
A.

As-Applied Challenges

Having ruled on the scope of Tartikov’s standing to
sue and affirmed the judgment of the district court with
respect to the 2007 Dormitory and Wetlands Laws, the
only question that remains is whether the court erred
in holding that Tartikov could not assert as-applied
challenges to the 2001 and 2004 Laws under the Equal
Protection Clause or RLUIPA’s nondiscrimination
or equal terms provisions. To prove any as-applied
claims under the Equal Protection Clause or RLUIPA’s
nondiscrimination and equal terms provisions, Tartikov
would need to rely on the same evidence of animus that
purportedly supports its facial challenges. This evidence,
we have held, is insufficient with respect to the 2001 and
287. The district court’s injunction focused on two specific
provisions of the 2007 Dormitory Law. See Special App. 3. Our
holding enjoins the Village from enforcing the entire law.
288. Specifically, we vacate decretal paragraphs 3-6, 7A-7I,
8-16, and 18-20. Special App. 1-6.

90a
Appendix A
2004 Laws. The as-applied claims therefore fail here for
the same reason as the facial challenges. 289
B. 	RLUIPA Equal Terms and Exclusion Claims
To prevail on an equal terms claim, a plaintiff must
show that the challenged law — by its terms or operation
— actually differentiates between religious and secular
groups, not merely that it was enacted with the intent
to adversely affect the religious group. 290 Here, the
challenged laws are facially neutral and treat religious
and secular institutions equally. Tartikov has failed to
make the necessary showing.
The exclusion provision of RLUIPA forbids the total
exclusion of religious assemblies from a jurisdiction. 291
The challenged laws do not totally exclude all religious
assemblies from Pomona. The district court correctly
dismissed these claims.

289. One additional issue is lurking in the background. TRC
purchased the property years after the 2001 Law was enacted. And
while its purchase predates the 2004 Law, that law is effectively a
more permissive version of the 2001 Law. Under these circumstances,
buying into an injury in fact does not suffice for Article III standing.
As we rest our holding on evidentiary grounds, however, we need
not and do not rest our holding on this ground.
290. Chabad Lubavitch, 768 F.3d at 196-97.
291. 42 U.S.C. § 2000cc(b)(3)(A); see also Vision Church v.
Village of Long Grove, 468 F.3d 975, 989-90 (7th Cir. 2006).

91a
Appendix A
CONCLUSION
We AFFIRM the judgment insofar as it enjoins
the Village from enforcing the unconstitutional 2007
Dormitory and Wetlands Laws, but we REVERSE
with respect to 2001 and 2004 Laws and VACATE the
relief that goes beyond enjoining enforcement of the two
unconstitutional laws. 292 In addition, we VACATE the
portions of the judgment premised on claims for which
Tartikov lacks standing and REMAND for the district
court to dismiss those claims. 293 Lastly, we AFFIRM the
portions of the judgment challenged on cross-appeal. 294

292. See note 288, supra.
293. Specifically, we refer here to the First Amendment free
exercise, free speech, and free association claims under the federal
and New York constitutions, RLUIPA substantial burden and
exclusion and limits claims, FHA claims, and common law claims
related to the Berenson doctrine.
294. Specifically, we refer here to the as-applied challenges
dismissed at the pleading stage and the RLUIPA equal terms and
total exclusion claims resolved in the summary judgment order.

92a
Appendix B
Appendix B — OPINION
& ORDER of the
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK,
FILED DECEMBER 7, 2017
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
No. 07-CV-6304 (KMK)
CONGREGATION RABBINICAL COLLEGE
OF TARTIKOV, INC., RABBI MORDECHAI
BABAD, RABBI WOLF BRIEF, RABBI
HERMEN KAHANA, RABBI MEIR MARGULIS,
RABBI MEILECH MENCZER, RABBI JACOB
HERSHKOWITZ, RABBI CHAIM ROSENBERG,
and RABBI DAVID A. MENCZER,
Plaintiffs,
-vVILLAGE OF POMONA, NY, BOARD OF
TRUSTEES OF THE VILLAGE OF POMONA,
NY, NICHOLAS SANDERSON, as Mayor,
IAN BANKS, ALMA SANDERS-ROMAN, RITA
LOUIE, and BRETT YAGEL, as Trustees
and in their official capacities,
Defendants.
December 7, 2017, Decided;
December 7, 2017, Filed

93a
Appendix B
OPINION & ORDER
KENNETH M. KARAS, District Judge:
Plaintiff Rabbinical College of Tartikov, Inc.
(“Tartikov”) is the owner of an approximately 100-acre
parcel of land (the “Subject Property”) located within the
Village of Pomona (the “Village”), upon which it seeks to
build a rabbinical college that, in addition to providing
all of the facilities necessary to train rabbinical judges,
will include housing for its students and their families.
Plaintiffs, which include Tartikov and its future students
and faculty, challenge certain zoning and environmental
ordinances enacted by the Village, alleging that they are
unlawful under the First and Fourteenth Amendments of
the United States Constitution, the Religious Land Use
and Institutionalized Persons Act of 2000 (“RLUIPA”), 42
U.S.C. § 2000cc et seq., the Fair Housing Act (“FHA”), 42
U.S.C. § 3601 et seq., §§ 3, 9, and 11 of the New York State
Constitution, and New York common law. Specifically,
Plaintiffs seek to enjoin the enforcement of portions of the
Village of Pomona, New York Code (“Village Code”) §§ 1304 (defining educational institutions and dormitories) (the
“Accreditation Law”), § 130-10(F)(12) (limiting the size of
dormitories) (together with the definition of “dormitory”
in § 130-4, the “Dormitory Law”), and § 126 (establishing
wetlands protections) (the “Wetlands Law,” and together,
the “Challenged Laws”).1 Beginning in May and ending in
1. Full versions of the Challenged Laws can be found online.
See Village of Pomona, NY, Chapter 126: Wetlands Protection, http://
www.ecode360.com/12718511 (last visited Nov. 20, 2017) (Wetlands
Law); Village of Pomona, NY, Chapter 130: Zoning, http://www.

94a
Appendix B
June 2017, the Court conducted a 10-day bench trial. On
September 7, 2017, the Court heard closing statements.
(See Dkt. (entry for September 7, 2017).) What follows are
the Court’s findings of fact and conclusions of law.
I. Background
A. 	Factual Background
The facts leading up to the passage of the Challenged
Laws are largely undisputed. The dispute lies in whether
the reasons given for their adoption are lawful.
1. 	The Parties
Plaintiffs are a corporation and individuals affiliated
with the Orthodox Jewish community, including various
sects of the Hasidic community, all of whom allege
an interest in the construction of a rabbinical college
on the Subject Property. Plaintiffs Rabbi Mordechai
Babad, Rabbi Wolf Brief, Rabbi Hermen Kahana, Rabbi
Meir Margulis, Rabbi Meilech Menczer, Rabbi Jacob
Hershkowitz, Rabbi Chaim Rosenberg, and Rabbi David
A. Menczer (with Chaim Rosenberg, Jacob Hershkowitz,
and Meilech Menczer defined as the “Students”) are rabbis
who seek to live, teach, and/or study at Tartikov’s proposed
rabbinical college. 2
ecode360.com/12718574 (last visited Nov. 20, 2017) (Accreditation
Law and Dormitory Law).

2. Rabbi Gergely Neuman, Rabbi Aryeh Royde, and Kolel Belz
of Monsey are no longer parties to this Action.

95a
Appendix B
Tartikov was formed in 2004. (See Pl.’s Ex. 1, at
RC_00002809.) At the time of incorporation, Tartikov’s
trustees included Chaim Babad, who indirectly financed
Tartikov, Michael Tauber (“Tauber”), and four other
individuals. (See id. at RC_00002810.) The corporation was
formed, among other reasons, “[t]o promote the religious,
intellectual, moral, and social welfare among its members
and their families,” “[t]o establish, maintain and conduct
a school for the [study] of the holy Torah and to maintain
classes for the teachings of the customs, traditions and
mode of worship of the Jewish Orthodox faith,” and “[t]o
aid and assist worthy indigent members of the corporation
with loans and housing.” (Id. at RC_00002807-08.) Tauber
explained that Tartikov was formed to “establish[] a
rabbinical college in Rockland County, New York in order
to provide a religious learning and living community to
train [a] new generation of students to become full-time
rabbinical judges.” (Pl.’s Ex. 1500 (“Tauber Decl.”) ¶ 11;
see also Pl.’s Ex. 1506 ¶ 10).) In August 2004, Tartikov
purchased the Subject Property for approximately $13
million dollars. (See Trial Tr. 364, 896.) The Subject
Property is the only parcel of land owned by Tartikov, (see
Tauber Decl. ¶ 40), but a related entity owns an additional
30 acres of property within the Village, all of which abut
the Subject Property, (see Trial Tr. 128.)
Defendants consist of the Village, its Board of
Trustees (or “Board”), its current Mayor Brett Yagel
(“Yagel”), (see Trial Tr. 707), its former mayor and Trustee
Nicholas Sanderson (“Sanderson”), and other current and
former members of its Board of Trustees—Ian Banks
(“Banks”), Alma Sanders Roman (“Roman”), and Rita

96a
Appendix B
Louie (“Louie”)—each sued in his or her official capacity. 3
Each of the individual Defendants voted to amend or adopt
one or more of the Challenged Laws.
2. 	Individual Plaintiffs’ Religious Beliefs &
Tartikov’s Proposed College
According to Orthodox Jewish belief, Orthodox Jews
are not permitted to resolve conflicts in the secular court
system, but rather must have their conflicts adjudicated
in rabbinical courts (bais din) before rabbinical judges
(dayanim or dayan) applying Jewish law. (See Pls.’ PostTrial Proposed Findings of Fact (“Pls.’ FOF”) ¶¶ 31, 33,
34 (Dkt. No. 326).) Presently, however, Plaintiffs have
observed that the rabbinical courts in the United States
are overburdened because there are not enough qualified
rabbinical judges, forcing Orthodox/Hasidic Jews to go to
secular courts to resolve their disputes. (See id. ¶¶ 38, 40.)
To help alleviate this backlog, the Students are seeking
to become full-time rabbinical judges trained in all four
books of the Shulchan Aruch, a compilation of Jewish
laws of the Orthodox Hasidic tradition, also known as the
Code of Jewish Law. (See id. ¶¶ 20, 42.) They currently
are enrolled at Kollel Belz in Monsey, New York, (see
id. ¶¶ 21-23), but Kollel Belz does not offer a “complete”
3. Sanderson served as a member of the Board of Trustees from
1998-2007, and was mayor from 2007-2011. (See Trial Tr. 460.) Banks
has served on the Board since 1997 and remains a member to this
day. (See id. at 562.) Roman served on the Board for approximately
16 years, some period of which is relevant to this Action. (See id.
at 569.) Louie served on the Board from approximately 2007-2012.
(See id. at 676-77.)

97a
Appendix B
program on the Shulchan Aruch, (Pl.’s Ex. 1503 (“Jacob
Hershkowitz Decl.”) ¶ 38), leading to their desire to enroll
at Tartikov’s rabbinical college.
Tartikov’s rabbinical program will focus specifically
on all four books of the Shulchan Aruch, (see Pls.’ FOF
¶ 41), which means that Tartikov will be considered a
“specialized kollel,” (id. ¶ 44 (internal quotation marks
omitted)). Compared to a regular kollel, where students
spend their time studying anything related to Jewish
law, students at Tartikov will specialize in a “directed
and intense study” of the Shulchan Aruch. (Pls.’ Ex. 1502
(“Mordechai Babad Decl.”) ¶ 49.) Tartikov estimates
that its proposed program will take approximately 13 to
15 years to complete because its students must master
thousands of religious texts and commentaries, and
certain aspects of secular law. (See Pls.’ FOF ¶¶ 48, 53,
57.) During this period of study, the students will be
required to “spend their days from about 6 a.m. until
about 10 p.m. . . . in study, in observation of judges, [and]
in collegial examination of the issues that are presented
by their studies.” (Tauber Decl. ¶ 69.) Students will break
from their studies only “as is required to fulfill the other
religious obligations in daily life for an Orthodox Jew.”
(See id.) No other rabbinical college in the United States
offers this type of program, (see Pls.’ FOF ¶ 51), but one
institution in Israel offers one similar to it, (see id. ¶ 52).
Admission to the program will be based on interviews
conducted by Tartikov’s future dean, Mordechai Babad,
who will review the applicants’ backgrounds and assess
their knowledge of Jewish law. (See id. ¶ 94; Tauber Decl.

98a
Appendix B
¶ 60.) Admission will also be conditioned on completing
a high school level program in the Talmud. (See Tauber
Decl. ¶ 60.) The Students and David Menczer have satisfied
these conditions and will be admitted into the college when
it opens. (See Mordechai Babad Decl. ¶ 50.)
Student progress will be measured by regular
testing. (See Tauber Decl. ¶ 51.) Some students also may
undergo an oral examination to determine whether they
are qualified to serve as rabbinical judges. (See id.) If a
student passed that examination, the rabbi conducting it
will give the student a smicha, which signifies that the
student has accomplished proficiency in an area of Jewish
law. ( See Pls.’ FOF ¶¶ 88, 91.) The smicha is not a degree
recognized by the New York State Board of Regents (the
“Board of Regents”), (see id. ¶ 90), and Tartikov does not
plan on offering any degree recognized by that body, (see
Pls.’ Ex. 1507 (“Kinser Decl.”) ¶ 29).
As part of the program, Tartikov plans to construct
and foster the development of a Torah community, i.e.,
on-campus housing where its students and their families
can live, so that the students can study from 6 a.m. until
10 p.m., (see Tauber Decl. ¶ 69), and also meet their
religious obligations to their families. (See id. ¶ 19; Pls.’
Ex. 1501 (“Chaim Rosenberg Decl.”) ¶ 52; Pls.’ FOF
¶ 62.) Jewish law requires that Tartikov’s students live
with their families, (see Chaim Rosenberg Decl. ¶ 55;
Jacob Hershkowitz Decl. ¶ 86(n); Pls.’ Ex. 1504 (“Meilech
Menczer Decl.”) ¶ 38(n)), and teach their children the
Torah, (see Trial Tr. 197). Jewish law also requires men to
marry at a young age and have large families, and imposes

99a
Appendix B
conjugal duties upon a husband and wife while forbidding
them from engaging in any family planning or using birth
control. (See Pls.’ FOF ¶¶ 24, 25.)
The purpose of a Torah community is to isolate
the students from the distractions of the outside world,
permitting them to devote themselves to the study of
Jewish law. (See Pls.’ FOF ¶ 69.) The Students have
professed that they are motivated by their religious
beliefs to live in such a community. (See Chaim Rosenberg
Decl. ¶ 54 (“My religious beliefs motivate me to be part
of such a Torah community.”); Jacob Hershkowitz Decl.
¶ 49 (“To become a rabbinical judge, I must participate
in a program that teaches Shulchan Aruch, and do so in a
community of like-minded students and teachers, what we
refer to as a Torah community.”); Meilech Menczer Decl.
¶ 46 (“My religious beliefs motivate me to become part of
this Torah Community’s living, learning, and worshipping
environment as proposed by the Congregation Rabbinical
College of Tartikov.”).) Their belief is grounded in religious
texts that, for example, direct Jews to “[e]xile yourself to
a place of Torah.” (Pls.’ Ex. 1508 (“Resnicoff Decl.”) ¶ 70
(internal quotation marks omitted).) Without on-campus
housing, Tartikov believes that its program will fail,
(see Pls.’ FOF ¶ 66), in part because two other kollels in
the area that do not have on-campus housing or a Torah
community—Kollel Belz and Mechon L’Hoyora—have
been unsuccessful in producing rabbinical judges trained
in all four books of the Shulchan Aruch, (see id. ¶ 70).
In addition to housing, Tartikov’s facilities will include
classrooms, study halls, courtrooms, a library, one or more
shuls, and a facility to house a mikvah. (See Tauber Decl.

100a
Appendix B
¶ 61.) The library will hold the “[t]housands of studies and
commentaries” that discuss and explain the Shulchan
Aruch. (Id. ¶ 65.) The mikvahs, or ritual baths, will be
provided out of religious necessity. (See Pls.’ FOF ¶ 85.)
One or more shuls will be constructed so that everyone on
campus can pray together. (See Tauber Decl. ¶ 22.)
As proposed, Tartikov’s rabbinical college cannot
be accredited by the Board of Regents or any other
accrediting body. It cannot be accredited by the Board of
Regents because it will not offer a degree recognized by
that body and educational institutions cannot be accredited
by the Board of Regents until they are fully operational.
(See Kinser Decl. ¶¶ 29, 41; Trial Tr. 446.) The college
cannot be accredited by the Association of Advanced
Rabbinical and Talmudic Schools, the accrediting agency
for Jewish educational institutions, because it plans to
admit students without an admissions test, will not offer
a broad enough curriculum, and must be in existence for
at least two years before it can be accredited. (See Pls.’
Ex. 2; Trial Tr. 447-49.)
Little else is known about the structures, curriculum,
or features of Tartikov’s rabbinical college because it has
not provided a formal plan for, or submitted an application
to the Village seeking to construct, their proposed
rabbinical college.
3.

Chronology of the Challenged Laws

The Village, incorporated in 1967, adopted a Master
Plan in 1974 which it updated in 1997. (See Joint Pretrial

101a
Appendix B
Order Stipulations of Fact ¶ 8 (Dkt. No. 257).) It first
adopted zoning laws in 1968, (see Defs.’ Ex. 2000 (“Ulman
Aff.”) ¶ 6), which were designed to preserve and enhance
the rural residential character of the Village, (see id.).
Since its inception, the Village has been designated as
an R-40 residential zoning district. (See id. ¶ 5; Defs.’
Proposed Post-Trial Findings of Fact (“Defs.’ FOF”) ¶ 1
(Dkt. No. 324).) The R-40 designation requires that there
be a minimum of 40,000 square feet per lot. (See Ulman
Aff. ¶ 5.) One-family residences, public utilities rights-ofway, libraries and museums, public parks and playground,
and agricultural pursuits are permitted land uses as of
right. (See Joint Pretrial Order Stipulations of Fact ¶ 6.)4
On December 15, 1999, Yeshiva Spring Valley (“YSV”)
made an informal appearance before the Village’s Planning
Board regarding its desire to build a yeshiva on the Subject
Property. (See Pls.’ FOF ¶ 127.) During the meeting, a
representative from Frederick P. Clark Associates Inc.
(“FPC”), the Village’s planner, noted that the Village’s
zoning laws for schools “really stink” and recommended
that the laws be updated. (See id. ¶ 128; Trial Tr. 799.) One
month later, FPC circulated memoranda entitled “YSVPomona (Primary School and Pre-School),” and “Proposed
Primary School and Pre-School (YSV Pomona) and the
Village’s Zoning Regulations regarding schools,” both
of which noted the existence of only “scant” regulations
4. The Parties originally stipulated that “houses of worship”
are also permitted as of right within the Village, (see Joint Pretrial
Order Stipulations of Fact ¶ 6), but agreed at oral argument that
this stipulation was incorrect. House of worship are special permit
uses. See Village Code § 130-10(G).

102a
Appendix B
for schools and recommended that the Village amend the
pertinent laws. (Pls.’ Exs. 111, 130; see also Pls.’ FOF
¶ 129.) 5 These recommendations spurred the creation
of Local Law No. 1 of 2001, a law designed to regulate
educational institutions. While discussing a rough draft
of the law, the Mayor of the Village at the time, Herbert
Marshall (“Marshall”), stated: “This thing’s going to come
in. They’re going to come in and we’re going to be caught
with our pants down if we don’t move. That’s why I want to
make sure that we’re moving ahead.” (Pls.’ Ex. 114, at 69.)6
On January 22, 2001, following a public hearing, the
Board of Trustees adopted Local Law No. 1 of 2001. (See
Pls.’ FOF ¶ 130; Defs.’ FOF ¶ 114.) As relevant here,
the law defined “educational institution,” for the first
time, as “[a]ny school or other organization or institution
conducting a reg ularly scheduled comprehensive
curriculum of academic and/or alternative vocational
instruction similar to that furnished by kindergartens,
primary[,] or secondary schools and operating under the
Education Law of New York State, and duly licensed by
the State of New York,” and subjected such institutions
to certain restrictions under the special permit approval
process, including minimum net lot area, maximum
development intensity, frontage, access, set back, parking,
and noise guidelines. (See Defs.’ Ex. 1010 (“Local Law No.
1 of 2001”), as codified at Village Code §§ 130-4, 130-10.)
5. There were no schools in the Village in 2001. (See Joint
Pretrial Order Stipulations of Fact ¶ 11.)
6. Marshall served as mayor from 1998 until 2007. (See Trial
Tr. 586.)

103a
Appendix B
For example, the law imposed a minimum net lot area
of 10 acres, “plus an additional 0.05 acres for each pupil
enrolled.” (Id. § 4(F)(1)(a).) The Board of Trustees passed
the law because it sought to have educational institutions
as special permit uses rather than uses as of right and
to set standards by which such uses would be regulated.
(See Ulman Aff. ¶ 25.) Following the passage of Local Law
No. 1 of 2001, YSV determined that it was impossible for
it to build the yeshiva it wanted on the Subject Property,
(see Nathan Fromowitz Dep. 60), and eventually built the
yeshiva outside of the Village, (see id. at 14-15).
In December 2002, Marshall spoke on behalf of the
Village at a community meeting to support the formation
of the Village of Ladentown. (See generally Pls.’ Ex. 94.)
The Village of Ladentown was proposed in opposition to
the Town of Ramapo’s (“Ramapo”) September 2002 Draft
Comprehensive Plan, which sought to re-zone a 200-acre
parcel of land known as the Patrick Farm Property.
(See id. at 1.) The plan specifically contemplated the
development of multi-family housing for adult students on
the property. (See id.; Trial Tr. 729.) Marshall stated that
Ramapo’s plan reflected its decision to “support the special
agenda of a small but vocal group of citizens who would
prefer replacing our trees with apartment buildings, our
wetlands with asphalt, and our wildlife with traffic.” (Pls.’
Ex. 94, at 1.)
In May 2004, the Village filed a lawsuit against
Ramapo seeking to set aside Ramapo’s Comprehensive
Plan for failing to comply with the New York State
Environmental Quality Review Act (“SEQRA”). (See

104a
Appendix B
generally Pls.’ Ex. 155.) The petition noted that Ramapo
“attracted a burgeoning Hassidic community,” which
“caused development and political pressures in the Town
to increase its housing stock and infrastructure.” (Id.
¶¶ 31-32.)
On June 15, 2004, Ramapo adopted the Adult Student
Housing Law (“ASHL”) which permitted married adult
student multi-family housing for Orthodox/Hasidic Jews
in residential zones throughout the unincorporated portion
of Ramapo. (See Pls.’ Ex. 156 ¶¶ 7, 133.)7 On June 28, 2004,
the Board of Trustees voted to challenge the ASHL. (See
id. ¶ 27.) The petition, which was filed in October 2004,
noted that the law was passed “to secure for one religious
community a unique and significant zoning benefit.” (Id.
¶ 215.) Marshall strongly opposed the ASHL, stating that
Ramapo officials “were pandering to the special interest
groups able to deliver the critically important block vote.”
(Pls.’ Ex. 109, at POM0013281.) The “block vote” Marshall
was referring to was the Orthodox Jewish vote out of New
Square, New York. (See Trial Tr. 619.)
During the summer of 2004, the Board of Trustees
discussed amending the laws relating to educational
institutions. (See Ulman Aff. ¶ 42.)8 On September 7, 2004,
7. The ASHL “permits married, adult, student, multi-family,
high-density housing in single-family residential zones . . . in the
unincorporated portion of Ramapo.” Village of Chestnut Ridge v.
Town of Ramapo, No. 07-CV-9278, 2008 U.S. Dist. LEXIS 76881,
2008 WL 4525753, at *1 (S.D.N.Y. Sept. 30, 2008).
8. There were no schools or institutions of higher education
located in the Village in 2004. (See Joint Pretrial Order Stipulations
of Fact ¶ 14.)

105a
Appendix B
Village Attorney Doris Ulman (“Ulman”) provided formal
recommendations to the Board regarding which provisions
should be amended. (See id.; Defs.’ Ex. 1016.) Ulman
recommended removing the .05 acre-per-student lot area
requirement, adding a provision allowing dormitories,
clarifying the definition of educational institution, and
removing the requirement that educational institutions
be on a state or county road. (See Defs.’ Ex. 1016.) These
recommendations served as the bases for Local Law
No. 5 of 2004. As relevant here, Local Law No. 5 of 2004
re-defined “educational institution” as “[a]ny private or
religious elementary, junior high or high school, college,
graduate[,] or post-graduate school conducting a fulltime curriculum of instruction . . . accredited by the New
York State Education Department or similar recognized
accrediting agency,” and amended the minimum lot area,
frontage, access, setback, and screening guidelines. (Defs.’
Ex. 1011 (“Local Law No. 5 of 2004”) §§ 1, 4-5, as codified
at Village Code §§ 130-4, 130-10 (emphasis added).) The
minimum lot area was changed to 10 acres—omitting
the “net lot” requirement—and the .05 acre-per-student
requirement was eliminated. (See id. § 4.) The law also
included a provision permitting the development of
dormitories:
A building that is operated by a school located
on the same lot and which contains private or
semi-private rooms which open to a common
hallway, which rooms are sleeping quarters
for administrative staff, faculty or students.
Communal dining, cooking, laundry, lounge
and recreation facilities may be provided.

106a
Appendix B
Dormitory rooms shall not contain separate
cooking, dining or housekeeping facilities
except that one dwelling unit with complete
housekeeping facilities may be provided for
use of a Superintendent or supervisory staff
for every fifty dormitory rooms. Not more than
one communal dining room shall be provided
in any building used for dormitory purposes.
Single family, two-family and/or multi-family
dwelling units other than as described above
shall not be considered to be dormitories or
part of dormitories.
(Id. § 2.) Ulman based this definition on the laws in
Chestnut Ridge and Ramapo, (see Ulman Aff. ¶ 46), both of
which provide that dormitories “shall not contain separate
cooking” facilities, (Defs.’ Ex. 1017, at 2; Defs.’ Ex. 1018,
at XVIII-12.)9 The Board of Trustees adopted Local Law
No. 5 of 2004 on September 27, 2004. (See Joint Pretrial
Order Stipulations of Fact ¶ 24.)
Prior to the adoption of Local Law No. 5 of 2004,
dormitories were not permitted in the Village. (See Ulman

9. There also is some confusion as to who drafted Chestnut
Ridge’s definition for “dormitory.” The definition dates back to
1987, (see Ulman Aff. ¶ 47), but Ulman testified at trial that that she
“probably” wrote “Local Law 6 of 2001 in Chestnut Ridge limiting
student housing to define dormitories,” (Trial Tr. 871). It is unclear
what this means. In any event, even if Chestnut Ridge’s “dormitory”
definition dates back to 1987, Ulman served as a consultant to
Chestnut Ridge when it was drafted. (See Trial Tr. 827.)

107a
Appendix B
Aff. ¶ 38.)10 Ulman said she drafted the law to authorize
schools to build dormitories to house their students on
campus, (see id. ¶ 39), to comply with “recent case law
developments in New York State,” (id. ¶ 48), and to fix
“inconsistencies and vagueness” in the existing laws,
(see id. ¶ 52). For example, the code provided different
accreditation requirements for “schools” and “educational
institutions.” (See id.) Schools had to be approved by the
Board of Regents or the New York State Department of
Education. (See id.) Educational institutions were required
to be licensed by the State of New York. (See id.) The
Village Code was amended to remove the definition for
“school” and clarify that educational institutions could be
approved by the New York State Education Department
or similar accrediting body. (See id.) The accreditation
requirement was not completely eliminated from the
Village Code because Ulman wanted to prevent certain
institutions that might call themselves schools from
building in the Village. (See id. ¶ 51.) Ulman believed
that these changes would make it easier for applicants
and Village officials to understand the laws applicable to
educational institutions. (See id. ¶ 52.)
The Village learned that Tartikov had purchased the
Subject Property at least as early as November 2004. (See
Joint Pretrial Order Stipulations of Fact ¶ 15.) In 2005
and 2006, the Village approved Tartikov’s tax exemption
applications. (See id. ¶ 16.) Ten board meeting agendas
from July 2006 through December 2006 reflect that the
10. However, Ulman admitted that it is unconstitutional to
prohibit educational institutions from building dormitories. (See
Trial Tr. 836.)

108a
Appendix B
Board planned to discuss Tartikov in executive session.
(See Pls.’ Exs. 80, 83, 85, 87, 89-92, 119-20.)11 The agendas
do not provide the basis upon which the Board determined
that executive session was necessary, but minutes from
the September 25 and December 18, 2016 Board meetings
reveal that the Board closed the meeting to the public to
discuss “matters of litigation.” (See Pls.’ Ex. 105, at 12; see
also Pls.’ Ex. 121, at 6.) During some of these same Board
meetings, certain of the Challenged Laws were discussed.
(See Pls.’ Ex. 115, at 5 (Board of Trustees minutes from
November 27, 2006, noting that Ulman distributed
proposed laws relating to dormitory buildings and houses
of worship); Pls.’ Ex. 121, at 5 (Board of Trustees minutes
from September 25, 2006, noting that Ulman was working
on a “local law revision for wetlands”).)
As Village Counsel, Ulman regularly reviewed the
Village Code and made recommendations to the Board
of Trustees regarding additions and amendments. (See
Defs.’ FOF ¶¶ 132, 134.) In 2006, Ulman determined that
the code provisions relating to dormitories needed to be
amended, so she drafted Local Law No. 1 of 2007. (Id.)
As relevant here, the law: (1) requires an educational
institution to have a net lot area of 10 acres; (2) removes
certain slopes from net lot area calculations; (3) provides
that “[a] dormitory building shall not occupy more than
twenty (20) percent of the total square footage of all
buildings on the lot”; and (4) provides that the maximum
11. The meeting agendas reflect that “Camp Dora” was to be
discussed in executive session. Camp Dora was the owner of the
Subject Property prior to YSV. (See Joint Pretrial Order Stipulations
of Fact ¶ 17.)

109a
Appendix B
height for a dormitory building is 25 feet. (Defs.’ Ex. 1012
(“Local Law No. 1 of 2007”), as codified at Village Code
§ 130-10(F).) Ulman testified that the law was designed
to make clear that a dormitory use is an accessory use
to a principal educational use, to clarify that Local Law
No. 5 of 2004 imposed “net” lot area requirements rather
than “lot area” requirements, and to remove references to
“school” that had inadvertently been left in the code after
the definition for school was deleted in 2004. (See Ulman
Aff. ¶ 54; Local Law No. 5 of 2004.)
On December 18, 2006, the Board of Trustees held a
public hearing on Local Law No. 1 of 2007. (See Ulman
Aff. ¶ 55; Defs.’ Ex. 1041, at 4.)12 During the hearing, an
attorney for Tartikov, Paul Savad (“Savad”), asked the
Board of Trustees to delay voting on the law until the next
Board meeting. (See Defs.’ FOF ¶ 135.) The Board agreed
to continue discussing the law at the Board meeting
scheduled for January 22, 2007. (See id.)
Before the Board held its next meeting, on January
9, 2007, Preserve Ramapo, a political action group in the
region, leaked tentative plans for Tartikov’s proposed
rabbinical college to the public. (See Pls.’ Ex. 65.) The
leaked information stated that Tartikov was planning
to build “1,800 square feet” residences that would house
4,500 people. (Id. at POM0013256.) Shortly thereafter, The
Journal News published an article referencing Preserve
12. There were no educational institutions in the Village
at this time. (See Joint Pretrial Order Stipulations of Fact ¶ 20.)
Additionally, the Village denied Tartikov’s tax exemption application
for 2007. (See Pls.’ Ex. 146 ¶ 91.)

110a
Appendix B
Ramapo’s disclosure and adding additional information.
(See Pls.’ Ex. 157.) Savad is quoted in the article as stating
that the rabbinical college would house 1,000 rabbis and
their families. (See id. at RC_1634.) Ulman learned about
Tartikov’s plan for the Subject Property from reading the
article in The Journal News. (See Ulman Aff. ¶ 57.)
On January 22, 2007, the Board of Trustees held a
public hearing on Local Law No. 1 of 2007, during which
it passed the law. (See Pls.’ FOF ¶¶ 148-49; Defs.’ FOF
¶¶ 138, 148.) The turnout was overwhelming, (see Pls.’
FOF ¶ 235), likely because of the information that was
leaked by Preserve Ramapo and contained in The Journal
News article. During the hearing, the Board considered
changing the height limitation for dormitories from 25
feet to 35 feet. Ulman stated that the proposed change
would make dormitories consistent with all other uses in
the Village Code. (See Joint Pretrial Order Stipulations
of Fact ¶ 18.) The Board also considered increasing the
number of permitted dining halls from one to two. (See
Pls.’ Ex. 137, at 45.) After receiving input from the largely
hostile audience, the Board decided to keep the height
limitation at 25 feet and declined to increase the number of
dining halls. (See Joint Pretrial Order Stipulations of Fact
¶ 19; Pls.’ Ex. 137, at 77 (Sanderson stating that “based
on the input from the public this evening, I think . . . [w]e
should cut out the two dining rooms and go back to one”);
Trial Tr. 633 (Marshall testifying that increasing the
height limit “was rejected based on the comments from
the—from the citizenry who attended”); Local Law No.
1 of 2007 § 3.)

111a
Appendix B
Many of the people who spoke during the hearing
expressed opposition to Tartikov’s proposal, as they
understood it based on the rumors that were circulating.
Many of the comments focused on the size of the project
and its effect on the Village, rather than the fact that it
was being proposed by Orthodox/Hasidic Jews. (See, e.g.,
Pls.’ Ex. 137, at 10-11 (“I urge you not to allow that type
of housing that’s being discussed in that law. I don’t think
the area calls for it. The village is too small, and I don’t
think that we should have that kind of housing anywhere
in the village.”).) However, comments related to the
religious nature of Tartikov’s proposal and its proposed
student body. (See, e.g., id. at 47 (“You know, let me ask
you one thing, it’s really funny how we’re talking about
law, when you have a group that breaks every law there
is, and we are talking about law.”); id. at 56 (“You know
in America, we have the sense of community. That’s our
face. We’re going to be another Kiryas Joel [a Hasidic
community]. That’s why we are emotional. You can get into
the environmental impact and all that. That’s all I have to
say.”).) Approximately half-way through the meeting, in
an attempt to calm the audience, Marshall stated:
Ladies and gentlemen, let me say something.
We sitting at this table have limitations that are
placed on us as to what we can say, and what we
can’t say, because our attorney tells us what we
can say and what we can’t say. I can’t say what I
feel—I can’t—if I agree with you, I don’t agree
with you, I don’t have that luxury of being able
to say that here. All that I can say is that every
member of this board works very, very hard to

112a
Appendix B
do what is best for this community. You you’re
your issues. Don’t assume because no one has
gotten up and said, wow, I agree with you, oh
boy; don’t assume that because we didn’t do that
that we don’t agree. We may or we may not,
but please give us the benefit of the doubt. We
have all been doing this—we work very hard at
what we do. We try and do what is best for the
community, but it’s our home.
(Id. at 58-59.)
Around this same time, the Board of Trustees was
considering whether to adopt a wetlands protection law.
The Village had considered adopting a similar law in 1998,
but ultimately decided against it. (See Ulman Aff. ¶ 92.) In
December 2006, Ulman created a first draft and circulated
it to the Board. (See Pls.’ Ex. 123.) As originally proposed,
the law prohibited certain development activities from
occurring on all properties in the Village within 100 feet of
the boundary of any wetland, water body, or watercourse,
unless a permit was issued by the Board of Trustees.
(See id. §§ 126-3, 126-5.) Ulman claims that the law was
drafted because the Board was concerned about wetlands
in the Village that were not regulated by the state or
federal governments. (See Ulman Aff. ¶ 68.) Ulman
drafted the law after reviewing wetlands laws from other
villages and a wetlands study prepared for Westchester
County, New York. (See id. ¶ 71.) The idea for the 100-foot
buffer zone was taken directly from the New York State
Environmental Conservation Law, which requires a permit
from the New York State Department of Environmental

113a
Appendix B
Conservation for any proposed disturbance within 100
feet of regulated wetlands. (See id. ¶ 68.) Ulman believed
that the law would protect the health, safety, and welfare
of Village residents. (See id. ¶ 69.)
Before the Board voted on the proposed wetlands law,
Village residents began campaigning to become or remain
members of the Board. Sanderson, Yagel, and Louie ran
together on a slate in the March 2007 Village election.
(See Pls.’ FOF ¶ 275.) A major piece of their platform
was opposition to Tartikov’s development of the Subject
Property. (Id. ¶ 276.) One campaign flier stated:
This year it is imperative that all village
residents vote for leadership that have an
unwavering long-term commitment to the
Village.
We are, according to the lawyers for the
Rabbinical College of Tartikoff who have
purchased land on Route 306 in the village,
going to be faced with a proposal for a huge
development that will include housing for
thousands of adult students and their families.
Their lawyers have not been shy to point out
that they will use every legal avenue to pursue
their plans, including the federal statute
RLUIPA.
From what we know of the plan as it has
been leaked to the public, it will have real
environmental and safety problems; compelling

114a
Appendix B
interests that will allow the village to fight
this plan, if and when presented to the Village
Board.
You need to vote for a team that is prepared to
stand up to this threat of using the fundamentally
unfair RLUIPA statute as a hammer against
our village. A team that is in it for the long term,
and one that has already prepared themselves
with a strategy to fight for Pomona.
(Pls.’ Ex. 41.) This same flier states that “[t]he single most
important issue facing the Village is clearly the Tartikoff
development.” (Id.) Sanderson, Yagel, and Louie vowed
to “vigorously defend [the Village’s] land use codes and
regulations.” (Id.) A second flier reiterated these same
concerns and made the same promises. (See Pls.’ Ex. 42,
at 2.) In a campaign video, Sanderson stated that Tartikov
“could completely change the village and the make-up of
the village.” (Pls.’ Ex. 47, at 1.) Shortly before the election,
Yagel and Louie drafted a submission for The Journal
News editorial page, (see Pls.’ FOF ¶ 286), stating their
opposition to Tartikov’s proposal and noting that “a virtual
mini-city within the village[] that will house thousands of
homogenous individuals” was not a “‘natural’ progression”
for the Village. (Pls.’ Ex. 17.) Yagel was also quoted in
the New York Times describing Plaintiff’s plans for the
Subject Property as “disgusting.” (Pls.’ Ex. 169, at 1
(internal quotation marks omitted).)13 Sanderson, Yagel,
13. The full quote from the New York Times is as follows: “‘The
attorney who represents the developer and owner of the property
appears ready to file a lawsuit without knowing what the codes for

115a
Appendix B
and Louie won the March 2007 election. (Joint Pretrial
Order Stipulations of Fact ¶ 22.)
The wetlands protection law that ultimately was
adopted by the Board on April 23, 2007—Local Law No.
5 of 2007—includes an exemption for lots improved with
single family homes. (See Defs.’ Ex. 1013 (“Local Law No.
5 of 2007”), as codified at Village Code § 126-3(D) (“The
aforesaid 100 foot buffer in which regulated activities are
not permitted to take place shall not apply to lots that are
improved with single family residences.”).) As relevant
here, the law prohibits certain activities within “100 feet of
the boundary of any wetland, water body or watercourse
unless a permit is issued therefor by the Board of Trustees
or the Planning Board.” (Village Code § 126-3.) To obtain
a permit, the landowner must show that the law “results in
a deprivation of the reasonable use of a property so as to
constitute a de facto taking of such property.” (Id. § 1265.) Prior to its passage, the Village and members of the
Board of Trustees knew that there were wetlands located
on the Subject Property. (See Trial Tr. 670 (Marshall
stating that he knew there were wetlands on the Subject
Property prior to 2007); Pls.’ Ex. 69, at 1 (email from
Yagel discussing the presence of wetlands on the Subject
Property); Pls.’ Ex. 104, at 1 (Marshall noting, in January
2002, that there are wetlands on the Subject Property);
Pls.’ Ex. 107, at 2 (October 22, 2001 Board meeting minutes
noting that Marshall “stressed” that YSV needed to
the village are,’ said one resident, Brett Yagel. ‘It’s pretty disgusting.
They’re trying to create this minicity in our village, and push out
people who’ve put their heart and soul into the community for years.’”
(Pls.’ Ex. 169, at 1.)

116a
Appendix B
protect the wetlands located on the Subject Property);
Pls.’ Ex. 141, at 20 (1997 Update to the Village’s Master
Plan noting that the Subject Property contains “part of
a large State-regulated wetland”).
4. 	The Impact of the Challenged Laws
Collectively, the Challenged Laws prevent the
construction of Tartikov’s rabbinical college in the Village.
Because the entire Village is zoned R-40, the Village
Code permits only a limited number of land uses in the
normal course, namely houses, libraries, museums, public
parks, and playgrounds, see Village Code § 130-9, and, by
special use permit, some other developments, including
educational institutions, see Village Code § 130-10(F),
and houses of worship, see Village Code §130-10(G).
The Accreditation Law bars the construction of the
rabbinical college because Tartikov, as proposed, cannot
be accredited by any accrediting body. (See Kinser Decl.
¶ 29; Trial Tr. 446-51.) The Dormitory Law also presents
several challenges for Tartikov’s proposed development.
The prohibitions on student family housing and separate
cooking, housekeeping, and dining facilities preclude the
rabbinical college from being built in the Village. Limiting
housing to 20% of the total square footage of other
buildings on the Subject Property is also problematic
because Tartikov seeks to provide housing in excess of
this limitation. The Wetlands Law restricts Tartikov’s
use of the Subject Property because the location of the
driveway onto the property falls within the 100-foot
buffer mandated by that law. (See Trial Tr. 1018.) An
access road cannot be built in any other location because

117a
Appendix B
of the presence of wetlands and steep slopes, which would
require significant regrading. (See id. at 781, 1017-18; Pls.’
Ex. 1510 (“Beall Decl.”) ¶¶ 264-65.)
Moreover, Tartikov cannot obtain a variance to
develop its rabbinical college because “State law requires
an applicant who applies for a use variance to prove
that there is no other economic use for the property”
and this would be “impossible” for Tartikov to prove.
(Ulman Aff. ¶ 80.) Another possible way for Tartikov to
build its rabbinical college would be for it to apply for an
amendment to the zoning laws. (See id. ¶ 87.)14 However,
the Board of Trustees is not required to consider a petition
for a text amendment, (see Trial Tr. 783), and any such
amendment would be subject to the full SEQRA review
process, (see Trial Tr. 877).
B. 	Procedural Background
Plaintiffs filed their first Complaint on July 10, 2007,
(see Dkt. No. 1), and then filed an Amended Complaint on
July 30, 2007, (see Dkt. No. 12). Plaintiffs filed a Second
Amended Complaint on November 19, 2007. (See Dkt. No.
27).15 Defendants filed a Motion to Dismiss, (Dkt. No. 36),
which the Court granted in part in an Opinion and Order
14. Ulman has suggested that Tartikov can apply for a “zone
change,” (Ulman Aff. ¶ 87), but a zone change would require an
amendment to the zoning law, (see Trial Tr. 786).
15. Plaintiffs appear to have filed an identical version of their
Second Amendment Complaint on two occasions. (See Dkt. Nos. 27,
28.)

118a
Appendix B
dated January 4, 2013. See Congregation Rabbinical
College of Tartikov, Inc. v. Village of Pomona, 915 F. Supp.
2d 574 (S.D.N.Y. 2013) (“Tartikov I”).
Following the close of discovery, Plaintiffs filed a
Motion for Partial Summary Judgment, (see Dkt. No. 137),
and Defendants filed a Motion for Summary Judgment,
(see Dkt. No. 140), on January 22, 2015. The Court granted
in part and denied in part both motions. See Congregation
Rabbinical College of Tartikov, Inc. v. Village of Pomona,
138 F. Supp. 3d 352 (S.D.N.Y. 2015) (“Tartikov II”).
On May 15, 2017, the Court held the final pretrial
conference and the bench trial commenced. The trial
lasted 10 days and the Court heard testimony from 23
witnesses.16 Pursuant to the Court’s direction at the
conclusion of the trial, the Parties submitted their posttrial memoranda and accompanying papers on August
7, 2017. (See Dkt. Nos. 323-29.) The Court heard closing
statements on September 7, 2017.
II. Discussion
The issue before the Court is whether Tartikov’s
permit application to build its rabbinical college should be
governed by the standards set forth in the Challenged Laws.
Plaintiffs argue that the Court should enjoin Defendants
from enforcing the Challenged Laws because they are
discriminatory and substantially burden their religious
16. At the Court’s direction, the direct testimony of each party’s
witnesses was done by way of affidavit.

119a
Appendix B
exercise. Defendants assert that the laws were passed for
legitimate reasons and do not burden the creation of a runof-the-mill rabbinical college. Any burden, Defendants
claim, results from the fact that Tartikov seeks to build
a “rabbinical college extraordinaire.” The primary source
of Defendants’ opposition to Tartikov’s proposed use
is that it will include housing for its students and their
families. Indeed, it appears that they challenge little else
about Tartikov’s proposal. Defendants are particularly
concerned that providing housing for students and their
families will overburden the Village’s infrastructure and
detract from its rural character. A secondary source
of Defendants’ opposition rests in their severe distrust
of Plaintiffs’ motives. Defendants are adamant that
Plaintiffs’ primary wish is not to build a rabbinical college,
but rather a housing complex for Orthodox/Hasidic Jews
and their families dressed as a college. Although the Court
finds no support for Defendants’ mistrust of Plaintiffs’
motives, the Court is sympathetic to Defendants’
concerns about the size and scope of Tartikov’s proposed
development. Ultimately, however, the Court concludes
that Defendants enacted the Challenged Laws to prevent
the spread of the Orthodox/Hasidic community into the
Village, and in certain respects, to specifically target the
Subject Property and Tartikov. This holding is based
on the context in which the laws were adopted and the
unsatisfactory and incredible reasons presented for their
adoption. The Court takes no position on what Plaintiffs
may build upon the Subject Property. The Court’s ruling
is limited only to the fact that Tartikov’s putative permit
application need not comport with the requirements
imposed by the Challenged Laws.

120a
Appendix B
A. 	The Standard Applicable to Facial Challenges
Because Tartikov has not applied for a permit to build
a rabbinical college on the Subject Property, Plaintiffs
are limited to challenging only the facial validity of the
Challenged Laws. See Tartikov I, 915 F. Supp. 2d at
596-607 (dismissing the plaintiffs’ as applied challenge
because they failed to submit a single proposal). “Facial
invalidation is, manifestly, strong medicine that has been
employed by [courts] sparingly and only as a last resort,”
wherein a plaintiff has a “heavy burden in advancing [his
or her] claim.” Nat’l Endowment for the Arts v. Finley,
524 U.S. 569, 580, 118 S. Ct. 2168, 141 L. Ed. 2d 500 (1998)
(internal quotation marks omitted); see also Cranley
v. Nat’l Life Ins. Co. of Vt., 318 F.3d 105, 110 (2d Cir.
2003) (“A plaintiff making a facial claim faces an uphill
battle because it is difficult to demonstrate that the mere
enactment of a piece of legislation violates the plaintiff’s
constitutional rights.” (internal quotation marks omitted)).
The oft-cited standard for facial challenges is derived from
dicta in United States v. Salerno, 481 U.S. 739, 107 S. Ct.
2095, 95 L. Ed. 2d 697 (1987), wherein then-Chief Justice
Rehnquist wrote that “the challenger must establish that
no set of circumstances exists under which the [challenged
law] would be valid.” Id. at 745. In Tartikov II, the Court
determined that this standard is inapplicable to Plaintiffs’
claims. See 138 F. Supp. 3d at 403-07. The Court provided
several reasons for this holding.
First, the Court concluded that Salerno does not
apply to First Amendment claims. See id. at 404; see also
Finley, 524 U.S. at 580 (“To prevail [on a facial challenge],

121a
Appendix B
respondents must demonstrate a substantial risk that
application of the provision will lead to the suppression of
speech.”); United States v. Farhane, 634 F.3d 127, 138-39
(2d Cir. 2011) (acknowledging that the Salerno standard is
not applicable to First Amendment claims); Lerman v. Bd.
of Elections in City of N.Y., 232 F.3d 135, 144 (2d Cir. 2000)
(“Salerno, however, does not apply to this case, in which
the plaintiffs assert the violation of rights protected by the
First Amendment.”). Second, relying on rulings made in
Tartikov I, the Court echoed that the Salerno line of cases
was “distinguishable from the instant case because no case
in the Salerno line involved allegations of discriminatory
animus grounded in race or religion.” Tartikov II, 138
F. Supp. 3d at 404 (internal quotation marks omitted).
Thus, the Court reiterated that “the Salerno test would
be met if the Challenged Laws violate Plaintiffs’ Equal
Protection or Free Exercise rights because ‘a law that
violates the Equal Protection Clause or the Free Exercise
Clause will be invalid when applied under any conceivable
circumstance, even if it can be justified by a conceivably
benign motive.’” Id. (quoting Tartikov I, 915 F. Supp. 2d
at 613 n.18). Third, the Court held that, in the context of
the Free Exercise Clause, Church of the Lukumi Babalu
Aye, Inc. v. City of Hialeah, 508 U.S. 520, 113 S. Ct. 2217,
124 L. Ed. 2d 472 (1993), offered an alternate and directly
applicable standard to apply. Tartikov II, 138 F. Supp. 3d.
at 406. Lukumi provides that “government, in pursuit of
legitimate interests, cannot in a selective manner impose
burdens only on conduct motivated by religious belief.”
508 U.S. at 543; see also Trinity Lutheran Church of
Columbia, Inc. v. Comer, 137 S. Ct. 2012, 2019, 198 L.
Ed. 2d 551 (2017) (“The Free Exercise Clause ‘protect[s]

122a
Appendix B
religious observers against unequal treatment’ and
subjects to the strictest scrutiny laws that target the
religious for ‘special disabilities’ based on their ‘religious
status’” (quoting Lukumi, 508 U.S. at 533, 542)); Cent.
Rabbinical Congress v. N.Y.C. Dep’t of Health & Mental
Hygiene, 763 F.3d 183, 196 (2d Cir. 2014) (“[W]here
some purposeful and exclusive regulation exists—where
the object of the law is itself the regulation of religious
conduct—the law is subject to heightened scrutiny, and not
to rational basis review.”); id. (noting that the “burdens”
of the challenged regulation fell “on only a particular
religious group—and in fact exclusively on members of
one particular subset of that religious group”); Commack
Self-Serv. Kosher Meats, Inc. v. Hooker, 680 F.3d 194, 210
(2d Cir. 2012) (applying this standard to a facial challenge
under the Free Exercise Clause).
In reliance on this body of law, the Court concluded
that the “effect of the Challenged Laws on Plaintiffs is
relevant to determining whether the Challenged Laws
were discriminatory under the Equal Protection Clause
and/or targeted at religious practice under Lukumi (and
the Free Exercise Clause), and may be suggestive of the
effect they have on other religious groups.” Tartikov II,
138 F. Supp. 3d at 406. The Court will adhere to this ruling
because Plaintiffs’ experience serves as an important
source of evidence on the question of the constitutionality of
the Challenged Laws. See Doe v. City of Albuquerque, 667
F.3d 1111, 1123-24 (10th Cir. 2012) (rejecting application of
Salerno and analyzing, in the context of a facial challenge,
the particular circumstances of the plaintiffs, and noting
that it is proper to “appl[y] the appropriate constitutional

123a
Appendix B
test to the restriction at issue,” rather than “conjur[ing] up
whether or not there is a hypothetical situation in which
application of the statute might be valid”); Cty. Concrete
Corp. v. Township of Roxbury, 442 F.3d 159, 167 (3d Cir.
2006) (finding allegations that the defendant township
“knew exactly how [the] appellants intended to use their
land and passed [an] [o]rdinance specifically tailored to
prevent that use” to constitute a ripe facial challenge to
that ordinance); Dibbs v. Hillsborough Cty., 67 F. Supp. 3d
1340, 1349-50 (M.D. Fla. 2014) (“A property owner makes
a facial challenge by claiming that a municipality knew
exactly how he intended to use his property and passed
an ordinance specifically tailored to prevent that use.”
(internal quotation marks omitted)); Cornell Cos., Inc., v.
Borough of New Morgan, 512 F. Supp. 2d 238, 258 (E.D.
Pa. 2007) (“The basis of an EPC facial challenge is that
the mere enactment of the ordinance violates the EPC
because it treats the plaintiff’s property differently than
other similarly situated landowners.”).
B. Substantive Liability
Plaintiffs assert that the Challenged Laws violate the
First and Fourteenth Amendments of the United States
Constitution, RLUIPA, the FHA, §§ 3, 9, and 11 of the
New York State Constitution, and New York common
law. Although there is substantial overlap between many
of Plaintiffs’ claims, the Court will address each of them
in turn.

124a
Appendix B
1. 	Equal Protection—Fourteenth Amendment
The Equal Protection Clause of the Fourteenth
Amendment “is essentially a direction that all persons
similarly situated should be treated alike.” City of
Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 439, 105 S.
Ct. 3249, 87 L. Ed. 2d 313 (1985); see also Harlen Assocs.
v. Inc. Vill. of Mineola, 273 F.3d 494, 499 (2d Cir. 2001)
(same).17 “Plaintiffs challenging . . . facially neutral laws
on equal protection grounds bear the burden of making
out a prima facie case of discriminatory purpose.” Pyke
v. Cuomo, 567 F.3d 74, 78 (2d Cir. 2009) (“Pyke II”)
(internal quotation marks omitted); see also Tartikov
I, 915 F. Supp. 2d at 615 (“To prove an equal protection
violation, claimants must prove purposeful discrimination
by a government actor, directed at a suspect class, such
as a racial group, or a religion.” (citations and internal
quotation marks omitted)). If Plaintiffs make such a
showing, the government action at issue is “subject to
strict judicial scrutiny,” such that the law may be upheld
only if it “further[s] a compelling state interest and [is]
narrowly tailored to accomplish [that] purpose.” Pyke II,
567 F.3d at 77.
17. Because the equal protection provisions of the New
York Constitution are interpreted consistently with the corollary
provisions in the federal Constitution, see People v. Kern, 75
N.Y.2d 638, 554 N.E.2d 1235, 1240, 555 N.Y.S.2d 647 (N.Y. 1990)
(holding that the guarantee of equal protection under the New York
Constitution is co-extensive with that of the federal Constitution);
People v. McCray, 57 N.Y.2d 542, 443 N.E.2d 915, 919, 457 N.Y.S.2d
441 (N.Y. 1982) (“[O]ur State constitutional equal protection clause
is no more broad in coverage than its Federal prototype.” (citation
omitted)), the Court addresses both challenges here.

125a
Appendix B
Plaintiffs may establish an equal protection violation
by identifying (1) “a law that expressly classifies on the
basis of race,” (2) “a facially neutral law or policy that has
been applied in an unlawfully discriminatory manner,” or
(3) “a facially neutral [law or] policy that has an adverse
effect and that was motivated by discriminatory animus.”
Id. at 76 (internal quotation marks omitted); see also JanaRock Constr., Inc. v. N.Y.S. Dep’t of Econ. Dev., 438 F.3d
195, 204 (2d Cir. 2006) (noting that the Equal Protection
Clause is violated, unless justified by strict scrutiny,
when government action is “motivated by discriminatory
animus and its application results in discriminatory
effect” (internal quotation marks omitted)). As the Court
previously held, Plaintiffs rely on the third method here.
See Tartikov I, 915 F. Supp. 2d at 615.
a. 	Discriminatory Purpose
“ D i s c r i m i n at or y p u r p o s e i mpl i e s t h at t he
decisionmaker . . . selected or reaffirmed a particular
course of action at least in part because of, not merely in
spite of, its adverse effects upon an identifiable group.”
Hayden v. County of Nassau, 180 F.3d 42, 50 (2d Cir.
1999) (internal quotation marks and emphasis omitted).
Though the desire to discriminate need not be the sole
motivating factor, see Village of Arlington Heights v.
Metro. Hous. Dev. Corp., 429 U.S. 252, 265, 97 S. Ct.
555, 50 L. Ed. 2d 450 (1977) (“Rarely can it be said that
a legislature or administrative body operating under a
broad mandate made a decision motivated solely by a
single concern, or even that a particular purpose was the
‘dominant’ or ‘primary’ one.”), it must be “a significant

126a
Appendix B
reason for a public body’s actions,” Cine SK8, Inc. v.
Town of Henrietta, 507 F.3d 778, 786 (2d Cir. 2007).
“Determining whether invidious discriminatory purpose
was a motivating factor demands a sensitive inquiry into
such circumstantial and direct evidence of intent as may
be available.” Arlington Heights, 429 U.S. at 266 (internal
quotation marks omitted). In assessing discriminatory
intent in the land use context, courts consider “the series
of events leading up to a land use decision, the context
in which the decision was made, whether the decision
or decisionmaking process departed from established
norms, statements made by the decisionmaking body
and community members, repor ts issued by the
decisionmaking body, whether a discriminatory impact
was foreseeable, and whether less discriminatory avenues
were available.” Chabad Lubavitch of Litchfield Cty., Inc.
v. Litchfield Historic Dist. Comm’n, 768 F.3d 183, 199
(2d Cir. 2014); see also LeBlanc-Sternberg v. Fletcher,
67 F.3d 412, 425 (2d Cir. 1995) (“Discriminatory intent
may be inferred from the totality of the circumstances,”
including “historical background” and “contemporary
statements by members of the decision-making body,” or
“by showing that animus against the protected group was
a significant factor in the position taken by the municipal
decision-makers themselves or by those to whom the
decision-makers were knowingly responsive.” (internal
quotation marks omitted)); United States v. Yonkers Bd.
of Educ., 837 F.2d 1181, 1221 (2d Cir. 1987) (explaining
that “[i]ntent to discriminate may be established in a
number of ways,” and may be “inferred from the totality
of the relevant facts,” including “historical background . . .
particularly if it reveals a series of official actions taken for

127a
Appendix B
invidious purposes; [and] the specific sequence of events
leading up to the challenged decision, such as zoning
changes for a given site enacted upon . . . learning of [the
plaintiff’s] plans for . . . construction” (alterations and
internal quotation marks omitted)).
Judged against this standard, the evidence and
testimony presented during trial proves that Defendants
passed the Challenged Laws with a discriminatory
purpose. First, the timing of each of the Challenged
Laws is suspect, to say the least. The Accreditation
Law, the relevant provisions of which were adopted in
January 2001 (Local Law No. of 2001) and amended in
September 2004 (Local Law No. 5 of 2004), was enacted
in direct response to YSV’s desire to build an Orthodox
yeshiva on the Subject Property. During an informal
presentation made by YSV to the Village’s Planning
Board on December 15, 1999, FPC advised the Village
that its zoning laws for schools “really stink.” (Pls.’ FOF
¶¶ 127-28.) One month later, FPC circulated memoranda
entitled “YSV-Pomona (Primary School and Pre-School),”
and “Proposed Primary School and Pre-School (YSV
Pomona) and the Village Zoning Regulations regarding
schools,” both of which noted the existence of only “scant”
regulations on schools and recommended that the Village
amend the pertinent laws. (Pls.’ Exs. 111, 130; see also
Pls.’ FOF ¶ 129.) Both memoranda specifically mention
YSV and make reference to YSV’s development plans. (See
Pls.’ Ex. 111, at 1 (“As the Village Board may know, the
Planning Board has recently been approached regarding a
proposed 100,000 square foot, 2-story primary school and
a 35,000 square foot, 1-story pre-school on the 100-acre

128a
Appendix B
Camp Dora Golding property.”); Ex. 130, at POM0004316
(“We have reviewed the Narrative Summary and the
Preliminary Master Plan Study . . . in connection
with the [YSV-Pomona] project.”).) The timing of these
recommendations is significant because there were no
other schools located in the Village in 2001. (See Joint
Pretrial Order Stipulations of Fact ¶ 11.) At the time,
Marshall noted that the Board need to move quickly
because “[t]hey[],” meaning YSV, “[are] going to come in”
and the Board of Trustees was “going to be caught with
[its] pants down.” (Pls.’ Ex. 114, at 69.)
Then, in 2004, the year in which Local Law No. 5 of
2004 was passed, Defendants took a number of actions
which are indicative of discriminatory purpose. In
January 2004, the Village passed a resolution noting that
the Board of Trustees “opposes in the strongest possible
terms any public officials who abdicate their responsibility
of office by placing the politics of special interest groups
and individual developers ahead of the best interest of
the people they are committed to serve.” (Pls.’ Ex. 126,
at 7.) The “block vote of the Orthodox Hasidic Jews” is
such a special interest group. (Trial Tr. 820.) In May
2004, the Village filed a lawsuit against Ramapo seeking
to set aside Ramapo’s Comprehensive Plan for failing
to comply with SEQRA. (See generally Pls.’ Ex. 155.)
Of particular note, the petition asserted that Ramapo
“attracted a burgeoning Hassidic community,” which
“caused development and political pressures in the Town
to increase its housing stock and infrastructure.” (Id.
¶¶ 31-32 .) After Ramapo adopted the ASHL in June 2004,
the Village voted to challenge that law. (See Pls.’ Ex. 156

129a
Appendix B
¶ 27.) The petition stated that the ASHL was passed “to
secure for one religious community a unique and significant
zoning benefit.” (Id. ¶ 215.) Although this petition does not
specifically name this “religious community,” it is clear the
petition is referring to Orthodox/Hasidic Jews. (See id.
¶ 38 (alleging that Yeshiva Chofetz Chaim of Radin was
the owner of two of the properties on which adult student
housing was proposed); id. ¶ 141 (noting that the ASHL
“was proposed specifically in response to the request from
a religious group for multi-family housing . . . to house
married adult students and their families”).) Marshall
strongly opposed the ASHL, stating that Ramapo officials
“were pandering to the special interest groups able to
deliver the critically important block vote,” (Pls.’ Ex. 109,
at POM0013281), i.e., the Orthodox Jewish vote out of New
Square, New York, (see Trial Tr. 619). Also during 2004,
YSV had its tax-exempt status denied for the first time,
(see Joint Pretrial Order Stipulations of Fact ¶ 12), and
Tartikov purchased the Subject Property, (see Defs.’ Ex.
1057). Although there is no evidence that Defendants were
aware that Tartikov purchased the Subject Property until
November 2004, (see Joint Pretrial Order Stipulations of
Fact ¶ 15), Defendants were aware of the growth of the
Orthodox/Hasidic community in Ramapo and sought to
prevent the spread of that community into the Village.
Significantly, as noted, there were no schools within the
Village in 2004. (See id. ¶ 14.)
With regard to the Dormitory Law, the relevant
provisions of which were adopted in September 2004
(Local Law No. 5 of 2004) and January 2007 (Local Law
No. 1 of 2007), the evidence of discriminatory purpose

130a
Appendix B
is even stronger. The Village opposed Ramapo’s ASHL,
and then, to prevent the spread of Orthodox/Hasidic adult
student housing into the Village, the Board of Trustees
adopted Local Law No. 5 of 2004, which prohibits “[s]
ingle family, two-family and/or multi-family dwelling
units,” (Local Law No. 5 of 2004 § 2), housing similar to
that permitted under the ASHL. Moreover, Local Law
No. 1 of 2007, which amended provisions of the Dormitory
Law, was passed during a contentious Board of Trustees
meeting. Village residents were vehemently opposed to
what they believed to be Tartikov’s development, although
the information they learned came from Preserve Ramapo.
(See Pls.’ Ex. 65.) Many of the attendees’ comments focused
on the nature and size of the development, but some of the
attendees were opposed to the development because it was
proposed by Orthodox/Hasidic Jews. One attendee noted
that he or she had heard that Tartikov’s proposal was
for “rabbinical students and their families,” and sought
a way to prevent institutions from being “flooded with
family members and children, and all of that sort.” (Pls.’
Ex. 137, at 70 (emphasis added).)18 Marshall indicated,
in response, that the “[a]ccessory use” provision of the
Dormitory Law “addresses that to some degree.” (Id. at
71.) Another attendee stated, in reference to Tartikov’s
apparent plan, that “[e]veryone should understand that
this is not going to happen, and we’re not going to let it
happen. Let’s stop it now. [Multiple shouts of ‘Stop it now’]
Their counsel is here to protect their interests. We’re here,
the people who live in this village, to protect our interests,
okay.” (Id. at 21.) Yet another attendee was fearful that the
18. The transcript does not identify the gender of the attendee.

131a
Appendix B
Village would turn into another “Kiryas Joel,” a Hasidic
community located in the Town of Monroe. (Id. at 56.) The
Village’s actions and the statements made by the attendees
at the Board meeting reveal a fear that Tartikov, and its
students, were going to take over the Village and change
its “character” and “politics.” (Id. at 10.) Although the
opposition from the public was not overtly discriminatory,
these statements support a finding of discriminatory
animus. See Mhany Mgmt., Inc. v. County of Nassau,
819 F.3d 581, 608-09 (2d Cir. 2016) (noting that comments
about the “flavor” and “character” of a village, although
“not overtly race-based” could be “code words for racial
animus” (internal quotation marks omitted)).
The Wetlands Law, the relevant provisions of which
were adopted in April 2007 (Local Law No. 5 of 2007),
was enacted despite the fact that there is no evidence that
the Village conducted any studies prior to the adoption
of the law to determine where the Village’s wetlands
were, what threats they faced, or how best to protect
them. Village officials did, however, know there were
wetlands located on the Subject Property before the law
was adopted, (see Trial Tr. 670 (Marshall stating that he
knew there were wetlands on the Subject Property prior
to 2007); Pls.’ Ex. 69, at 1 (email from Yagel discussing
the presence of wetlands on the Subject Property); Pls.’
Ex. 104, at 1 (Marshall noting, in January 2002, that
there are wetlands on the Subject Property); Pls.’ Ex.
107, at 2 (October 22, 2001 Board meeting minutes noting
that Marshall “stressed” that YSV needed to protect the
wetlands located on the Subject Property); Pls.’ Ex. 141,
at 20 (1997 Update to the Village’s Master Plan noting

132a
Appendix B
that the Subject Property contains “part of a large Stateregulated wetland”)), indicating that this law was designed
to prevent Tartikov from building its proposed rabbinical
college. Further evidence that the Village passed the
Wetlands Law to target Tartikov is found in the scope of
the law’s provisions. The law exempts from its coverage
residences improved with single family residences. See
Village Code § 126-3(D) (“The aforesaid [100] foot buffer
in which regulated activities are not permitted to take
place shall not apply to lots that are improved with singlefamily residences.”) In the Village, there are 1,156 parcels
of land, with 285 of them located within 100 feet of mapped
wetlands. (See Beall Decl. ¶ 180.) Of those 285 parcels,
240 of them are improved with single family residences,
leaving a maximum of 45 parcels subject to regulation.
(See id. ¶¶ 180-81.) The fact that the Subject Property just
so happens to be one of the 45 parcels subject to regulation
is telling. Also troubling is the Village’s decision to adopt
a law relating to wetlands in 2007, after it learned of
Tartikov’s proposed use, despite the fact that it considered
passing a similar law in the 1990s. (See Ulman Aff. ¶ 92.)
It was not until Tartikov came along that such a law
became “necessary” to prevent the unidentified risks to
the Village’s unidentified wetlands.
The Court need not rely solely on this circumstantial
evidence to conclude that the Wetlands Law was
conceived of and passed with a discriminatory purpose.
Village officials explicitly stated their intent to thwart
Tartikov’s plans. Between the time the Wetlands Law
was first proposed and the time that it was adopted,
Sanderson, Louie, and Yagel indicated in campaign

133a
Appendix B
materials that voters needed to “stand up to the threat”
that Tartikov posed, further stating “[y]ou need to vote
for a team that is prepared to stand up to this threat of
using the fundamentally unfair RLUIPA statute as a
hammer against our village.” (Pls.’ Ex. 41.) Sanderson
also specifically indicated in a campaign video that the
rabbinical college “could completely change the village and
the make-up of the village.” (Pls.’ Ex. 47, at 1 (emphasis
added).) The campaign materials for all three candidates
indicated that “the single most important issue facing the
village [was] clearly the Tartiko[v] development.” (Pls.’ Ex.
41.) Sanderson, Louie, and Yagel won the election in March
2007, (see Joint Pretrial Order Stipulations of Fact ¶ 22),
and, at least, Yagel and Louie voted in favor of passing
the Wetlands Law, (see Defs.’ Post-Trial Brief (“Defs.’
Mem.”) 19 (Dkt. No. 323)). In addition to these comments,
Plaintiffs have identified a number of other statements
by Village officials indicative of Defendants’ prejudice
against Tartikov and Orthodox/Hasidic Jews, see Yeshiva
Chofetz Chaim Radin, Inc. v. Village of New Hempstead,
98 F. Supp. 2d 347, 355 (S.D.N.Y. 2000) (holding that
“discriminatory comments by the [m]ayor . . . present
grounds for allowing a jury to judge the credibility, and
motivation, of the [m]ayor . . . as well as the motivation
that can be attributed to the [v]illage itself in passing the
disputed provisions”), including:
• In February 2007, Yagel and Louie authored
a letter to The Journal News stating that
“a virtual mini-city within the village . . .
that will house thousands of homogenous
individuals” was not a “natural” progression

134a
Appendix B
for the Village. (Pls.’ Ex. 17 (internal
quotation marks omitted).) Yagel was also
quoted in the New York Times stating that it
was “disgusting” that Tartikov was “trying
to create [a] mini city in our village.” (Pls.’
Ex. 169, at 1 (internal quotation marks
omitted).)19
• Sanderson has publicly stated that the
Village should “maintain[] its cultural
and religious diversity.” (Pls.’ Ex. 146
¶ 106 (internal quotation marks omitted).)
However, Sanderson is unaware whether
any Hasidic Jews live in the Village. (See
Trial Tr. 559.)
• Leslie Sanderson, who served as Village
Clerk, testified that she was worried
Tartikov would “usurp” the Village and
Board of Trustees. (Trial Tr. 543.)
• Louie made a Facebook post which indicated
d i sc r i m i nat or y a n i mus t owa rds t he
Orthodox/Hasidic Jewish population. (See
Pls.’ Ex. 72.) See Tartikov II, 138 F. Supp.
3d at 392-93.
19. Defendants take solace in the fact that these statements
were admitted as exhibits, but not for the truth of the matters
asserted. However, these statements were offered, and admitted, not
for their truth, but because they reveal Yagel’s and Louie’s animus
toward Tartikov and Orthodox/Hasidic Jews.

135a
Appendix B
Significantly, these statements were made despite
Defendants’ efforts to refrain from publicly making
disparaging or discriminatory comments. (See Pls.’ Ex. 13,
at 1 (email from Yagel to Louie and Sanderson noting that
they “[m]ust be very careful about what we say” because
they “[d]on’t know who is in the audience”); Pls.’ Ex. 146
¶¶ 110-11 (admitting that Louie and Yagel told “everyone”
at a Pomona Civic Association meeting that they “must
be careful about their statements”).)
Members of the community also expressed animus
against Orthodox/Hasidic Jews. Mel Cook, a Village
resident who served on the Village’s Planning Board from
1998-2003, (Melvin Cook Dep. (“Cook Dep.”) 17), wrote
to The Journal News and corresponded with Village
officials about his views on Tartikov and Orthodox/Hasidic
Jews, (see Pls.’ FOF ¶ 306; Pls.’ Exs. 38, 54). With specific
reference to Tartikov, Cook stated that “[i]f it looks like
a duck, walks like a duck and quacks like a duck, it’s an
ultra-Orthodox housing project,” (Cook Dep. 99 (internal
quotation marks omitted)), that he saw the rabbinical
college as “another restricted religious community similar
to New Square,” (id. at 102 (internal quotation marks
omitted)), and described New Square as a “tribal ghetto,”
(see id. at 89-90). Robert Prol, another Village resident,
made similarly disparaging comments about Tartikov.
Prol stated that Tartikov would be a “slum,” (Robert Prol
Dep. (“Prol Dep.”) 92 (internal quotation marks omitted)),
referred to the Babad family as the “baBad” family, (Pls.’
Ex. 20), and sent emails to Village officials stating that
the Village should fight Tartikov’s proposal, (see Prol Dep.
31-32; Pls.’ Ex. 20). In spite of his expressed opposition to

136a
Appendix B
Tartikov’s development, Sanderson appointed Prol to the
Village’s Planning Board in May 2008. (See Prol Dep. 13.)
Prol’s and Cook’s comments are in addition to the negative
sentiment expressed by village residents. 20 During his
campaign, Sanderson met with hundreds of residents who
were opposed to Tartikov’s project. (See Trial Tr. 472.)
Of course, statements by Village residents can be
attributed to the Board of Trustees only if the Board
was aware of these sentiments and was responsive to
the displayed animus. See Tsombanidis v. West Haven
Fire Dep’t, 352 F.3d 565, 580 (2d Cir. 2003) (noting that
the “hostility [of neighborhood residents] motivated the
[municipality] in initiating and continuing its enforcement
efforts”); LeBlanc-Sternberg, 67 F.3d at 425 (explaining
that discriminatory intent may be demonstrated “by
showing that animus against the protected group was a
significant factor in the position taken by . . . those to whom
the decision-makers were knowingly responsive.” (internal
quotation marks omitted)). The evidence adduced at trial
reveals that Defendants were aware of the residents’
animus and acted on that animus. In one instance, based
on public comments made during the January 22, 2007
meeting—the meeting during which Local Law No. 1
of 2007 was passed—the Board voted to impose a 25foot height restriction on dormitories, even though no
other building in the Village is subject to a 25-foot height
20. Plaintiffs have identified a number of anonymous comments
posted on the Internet in support of their claim that the community
opposed Orthodox/Hasidic developments. (See Pls.’ FOF ¶ 300.)
These comments do reveal a bias against the Orthodox/Hasidic
community, but the Court places little reliance on them because they
are not attributed to Village residents or officials.

137a
Appendix B
limitation. (See Trial Tr. 633 (Marshall testifying that
increasing the height limitation “was rejected based on the
comments from the—from the citizenry who attended”).)
Based on comments made during that same meeting, the
Board rejected a proposal to increase the number of dining
halls permitted in dormitories from one to two. (See Pls.’
Ex. 137, at 77 (Sanderson stating that “based on the input
from the public this evening, I think . . . [w]e should cut
out the two dining rooms and go back to one”).) Marshall
also strongly implied his agreement with the sentiment
expressed during this meeting. (See id. at 58-59 (“We
sitting at this table have limitations that are placed on
us as to what we can say, and what we can’t say, because
our attorney tells us what we can say and what we can’t
say. I can’t say what I feel—I can’t—if I agree with you,
I don’t agree with you, I don’t have that luxury of being
able to say that here.”).) Aside from the January 22, 2007
meeting, the members of the Board testified that they
take into consideration residents’ opinions when voting
on laws, (see Pls.’ FOF ¶ 326), and Sanderson, Yagel, and
Louie created their campaign literature and platform to
be responsive to the public’s concerns, i.e., by stating that
they would “fight” against Tartikov, (Pls.’ Ex. 41). They
carried through on this promise by voting in favor of Local
Law No. 5 of 2007. Additionally, certain Trustees aligned
themselves with Preserve Ramapo, the group that opposed
Tartikov’s development and leaked its plans to the public.
(See, e.g., Trial Tr. 499-500 (Sanderson testifying that his
campaign slate had close ties to Preserve Ramapo).)
Finally, Defendants’ behavior with respect to other
proposed projects is indicative of their intent to thwart

138a
Appendix B
the expansion of the Orthodox/Hasidic community. The
Village has a demonstrated history of opposing various
Orthodox/Hasidic Jewish land uses near the Village. As
early as 1996, the Village opposed the expansion of Bais
Yaakov, an Orthodox Hasidic yeshiva in Ramapo. (See
Pls.’ Ex. 125, at 7.) The Village wrote a letter in opposition
to the expansion, attended a Ramapo meeting and read
an opposition statement, challenged the expansion in
court, and encouraged Village residents to object to the
expansion. (See id. at 7-8; see also Trial Tr. 808 (Ulman
affirming that the Village encouraged opposition to the
expansion of Bais Yaakov).) In 1999, the Village did not
object to the “Anna Mann” property becoming an assisted
living facility, but then when it was later proposed that the
property be used for a yeshiva, the Village did oppose the
development. (See Trial Tr. 802.) In 2004, as noted above,
the Village opposed Ramapo’s Comprehensive Plan and
the ASHL. (See Pls.’ FOF ¶¶ 136-38, 141.) The Village also
expressed opposition to the development of three yeshivot
outside of the Village. (See Trial Tr. 808-11.)
The Village does not, however, have this same history
of opposition when it comes to non-Orthodox/Hasidic land
uses. In 2001, Marshall informed residents that they had
to accept group homes within the Village because such
land uses were protected under the FHA. (See Trial
Tr. 614.)21 In May 2002, the Board, with the exception
of one Trustee, informally approved Barr Laboratories’
purchase of land within the Village to erect an office
21. The Village did not provide similar instructions with regard
to RLUIPA. Instead, it passed a resolution in February 2007 asking
Congress to revisit the law. (See Pls.’ Ex. 58.)

139a
Appendix B
building, even though the land was zoned residential. (See
Pls.’ Ex. 124, at POM0002022.) Furthermore, on the same
day it adopted Local Law No. 1 of 2007, the Board voted in
favor of applying for funds to create a senior citizen center
within the Village. (See Pls.’s Ex. 75, at POM0016278.)
Ulman testified that the Village has “consistently opposed
high-intensity development,” (Ulman Aff. ¶ 16), as a means
of showing that the Village opposes large developments
regardless of who proposes them, but the fact remains
that the Village has consistently opposed proposals by
Orthodox/Hasidic Jews.
Not all of the evidence, however, points in favor of
finding that Defendants acted with a discriminatory
purpose. Some of the outrage directed toward Tartikov
was premised on the size and scope of its proposed
development. Based on what is currently known, which
is very little because Tartikov has not revealed the full
plan for the Subject Property, Tartikov’s proposal has the
potential to add thousands of residents to a village that has
a current population of approximately 3,000. See Village
of Pomona, About The Village, http://www.pomonavillage.
com/about.html (last visited Nov. 11, 2017). Nonetheless,
given the totality of the credible evidence, the Court
concludes that discriminatory purpose was “a significant
reason for [Defendants’] actions,” Cine SK8, 507 F.3d at
786. There is no escaping the fact that the events leading
up to the enactment of the Challenged Laws, the context
in which they were adopted, the Village’s specific focus on
opposing Orthodox/Hasidic development in and around
the Village, and the public statements of Village officials
and residents, to which the officials were responsive,

140a
Appendix B
all reveal that Defendants passed the Challenged Laws
to thwart the spread of the Orthodox/Hasidic Jewish
community into the Village.
b. 	Discriminatory Effect
In establishing discriminatory effect, Plaintiffs are
not “obligated to show a better treated, similarly situated
group of individuals.” Pyke v. Cuomo, 258 F.3d 107, 110 (2d
Cir. 2001) (“Pyke I”) (holding that a plaintiff who alleges
“that a facially neutral statute or policy with an adverse
effect was motivated by discriminatory animus . . . is not
obligated to show a better treated, similarly situated
group of individuals of a different race in order to
establish a claim of denial of equal protection”). Indeed,
the courts “recognize[] that a government that sets out
to discriminate intentionally in its enforcement of some
neutral law or policy will rarely if ever fail to achieve its
purpose.” Doe v. Vill. of Mamaroneck, 462 F. Supp. 2d
520, 546 (S.D.N.Y. 2006).
At trial, Plaintiffs demonstrated that Defendants’
animus hit its mark; the Challenged Laws prohibit
Plaintiffs from constructing the type of rabbinical
college they seek to obtain. First, with respect to the
Accreditation Law, educational institutions are, in general,
permitted in the Village, provided that those who wish
to build an educational institution first obtain a special
use permit. See Village Code § 130-10(F). Unaccredited
educational institutions, however, are not permitted under
any circumstances, because “educational institution”
is defined by Village law as one that is “accredited by

141a
Appendix B
the New York State Education Department or similar
recognized accrediting agency.” Village Code § 130-4.
There is no dispute that Tartikov’s proposed rabbinical
college cannot be accredited by any accrediting body. (See
Kinser Decl. ¶ 29; Trial Tr. 446-51.) Indeed, Defendants’
expert witness on accreditation requirements, Preston
Green, focused on the steps Tartikov could take to modify
its plan so as to qualify for accreditation. (See id. 452.)
The proposed modifications were painted as easy fixes,
but fail to resolve the largest impediment to Plaintiffs’
proposal—the rabbinical college cannot be accredited
until it is operational, (see id. (“So the first step it would
have to do is to be in the position where it could be
operational . . . .”)), but it cannot become operational under
the Accreditation Law until it is accredited. At the end of
the day, no matter what Tartikov does to its curriculum
or admissions standards, it cannot be accredited without
first being operational. Thus, the Accreditation Law
blocks Tartikov from building a rabbinical college within
the Village.
Second, with regard to the Dormitory Law, the
Village Code explicitly provides that “[s]ingle-family, twofamily[,] and/or multifamily dwelling units . . . shall not
be considered to be dormitories or part of dormitories.”
Village Code § 130-4 (defining “dormitory”). Dormitories
likewise cannot “contain separate cooking, dining or
housekeeping facilities” and cannot “occupy more than
20% of the total square footage of all buildings on the lot.”
Village Code §§ 130-4, 130-10(F)(12). These provisions
were designed to prevent the spread of Orthodox /
Hasidic adult student housing into the Village and they

142a
Appendix B
achieve their desired effect. Tartikov seeks to erect
family housing on the Subject Property with kitchens
in each residence so that students can diligently study
the Shulchan Aruch while also meeting their religious
obligations to their families. (See Pls.’ FOF ¶¶ 24-25, 69.)
The definition for “dormitory” prohibits these types of
residences because separate cooking and dining facilities
are prohibited. See Village Code § 130-4. The 20% floor
space limitation on dormitories is similarly problematic
because, to comply with the Property Maintenance Code
of New York, Plaintiffs would have to construct residences
that are at least 700 square feet. (See Pls.’ Ex. 1512
(“Weinstein Decl.”) ¶ 30.) Thus, even if Plaintiffs were to
build a campus consisting of academic buildings totaling
100,000 square feet, the Dormitory Law’s 20% floor space
restriction would permit a dormitory only 20,000 square
feet in size—enough to accommodate roughly 30 students
and their families. On its face, the Dormitory Law does
not prohibit student housing within the Village—reflecting
the ingenuity of Defendants’ actions—but when one digs
deeper, it is evident that the law was designed to block the
exact type of housing Tartikov seeks to construct.
Finally, with regard to the Wetlands Law, two
provisions, working together, bar construction of the
rabbinical college in the Village. First, Village law
provides that “[t]he minimum lot area for an educational
institution” is “a net lot area of 10 acres.” Village Code
§ 130-10(F)(1)(a). The only non-government-owned
property available in the Village that can accommodate
an educational institution is the Subject Property. (See
Trial Tr. 310 (“Well, I knew [the] Tartikov site was the only

143a
Appendix B
100-acre site or only site large enough to build an actual
campus based on the zoning. I think you need a 10-acre
site, it’s the only site available.”).)22 Second, the Wetlands
Law itself defines wetlands as “all lands and waters of the
Village of Pomona . . . which have a contiguous area of at
least 2,000 square feet” which contain, or are enclosed
by, certain submerged vegetation, or that otherwise
contain “poorly drained soils.” Village Code § 126-2.
“[W]ithin 100 feet of the boundary” of such lands, or of
any watercourse or “water body,” defined as a “body of
standing water which is not dry more than three months
of the year . . . and which, when wet, is customarily more
than 500 square feet in water surface area,” it is unlawful
to, in relevant part, “[e]rect[] any building or structure
of any kind,” including “roads [or] driveways,” without a
permit. Id. § 126-3(A)(3), (B). Exempted from the permit
requirement, however, are properties improved by single
family homes, see id. § 126-3(D), meaning that only
approximately 45 parcels are subject to regulation. (See
Beall Decl. ¶¶ 180-81.) And of those regulated parcels, 20
of them are vacant lots. (See id. ¶ 181.)
The 100 -foot buffer imposed on the regulated
parcels, of which the Subject Property is one, prevents
the construction of the rabbinical college because the
only suitable location for the driveway onto the property
falls within 100 feet of regulated wetlands. (See Trial Tr.
22. Defendants “do not agree that the [Subject] Property is the
only” property suitable in the Village for an educational intuition,
(Defs.’ Mem. 35), but have not cited any evidence to support this
assertion. If another property exists in the Village that meets the
minimum “net lot area of 10 acres,” Defendants have not identified it.

144a
Appendix B
1017-18 (Barbara Beall (“Beall”) confirming that there are
wetlands located within 100 feet of the current driveway).)
No other location is feasible because of the existence of
other wetlands and steep slopes on the property. (See
Trial Tr. 781 (Ulman confirming the existence of “steep
slopes” on the “easterly side of the property”); Beall Decl.
¶ 250 (“The existing driveway, and any new driveway
providing access to Route 306 on the west side of the
[Subject] Property would be within the WPL’s 100 foot
wetland buffer.”); id. ¶ 265 (“Any driveway access to Route
202 would require significant regrading of the slopes.”).)
Of course, Plaintiffs could apply for a permit to modify
the existing driveway, but Plaintiffs would need to show
that the Wetlands Law “results in a deprivation of the
reasonable use of [the] property so as to constitute a de
facto taking.” Village Code § 126-5. Tartikov cannot meet
this standard; the Parties have stipulated that “Tartikov
cannot establish that the Challenged Laws have deprived
it of economically reasonable use or value of the Subject
Property, as it may be developed with single family
residences.” (Joint Pretrial Order Stipulations of Law ¶ 18
(Dkt. No. 257); see also Ulman Aff. ¶ 80 (stating that it
would be “impossible” for Plaintiffs to prove “that there
is no other economic use for the property”).)
Accordingly, Plaintiffs have carried their burden and
established by a preponderance of the evidence that the
Challenged Laws “ha[ve] an adverse effect and . . . [were]
motivated by discriminatory animus.” Pyke II, 567 F.3d
at 77 (internal quotation marks omitted).

145a
Appendix B
c.

Strict Scrutiny—Compelling Interest

Because Plaintiffs have carried their burden of
establishing a prima facie case, strict scrutiny applies to
the Challenged Laws. See United States v. Bannister, 786
F. Supp. 2d 617, 664 (E.D.N.Y. 2011) (“In cases involving
alleged racial discrimination, once a discriminatory
purpose and a discriminatory effect are shown, the law
is subject to strict scrutiny.”). Thus, Defendants bear the
burden of proving that the Challenged Laws are “narrowly
tailored measures that further compelling governmental
interests.” Johnson v. California, 543 U.S. 499, 505, 125
S. Ct. 1141, 160 L. Ed. 2d 949 (2005) (internal quotation
marks omitted). A compelling state interest involves
“some substantial threat to public safety, peace[,] or
order,” Sherbert v. Verner, 374 U.S. 398, 403, 83 S. Ct.
1790, 10 L. Ed. 2d 965 (1963), and includes only “interests
of the highest order,” Westchester Day Sch. v. Village of
Mamaroneck, 504 F.3d 338, 353 (2d Cir. 2007) (“WDS
II”) (internal quotation marks omitted), and the “gravest
abuses,” Sherbert, 374 U.S. at 406.
At summary judgment, the Court concluded that the
Challenged Laws do not survive strict scrutiny because
the interests Defendants have offered justifying their
adoption are not compelling. See Tartikov II, 138 F. Supp.
3d at 418 (“While the Challenged Laws may be justifiable
under a rational basis test, they do not survive strict
scrutiny.”); see also id. at 420 (“[T]he stated aesthetic
and community character rationales are generally not
compelling state interests, and Defendants have not
demonstrated that these interests are so overwhelming

146a
Appendix B
or gravely threatened by the institutions such as the
proposed rabbinical college to render them compelling.”);
id. (“[W]ith regard to the Dormitory Law, while certain
aspects of the law may be justified by a need to comply
with other laws, Defendants offer no defense of the scope
of the restrictions it contains . . . .”); id. (“[W]ith regard
to the Wetlands Law, while there is some evidence to
suggest a need for a wetlands law, . . . Defendants offer
no evidence beyond Ulman’s testimony . . . .”). Defendants
have not presented any evidence or made any argument
regarding whether the Challenged Laws can survive strict
scrutiny. (See generally Defs.’ Mem.) Their arguments
focus entirely on whether Plaintiffs have established
a prima facie case of discrimination. Defendants do,
however, offer several justifications for the Challenged
Laws. Although none of these justifications rises to the
level of a compelling governmental interest, the Court
will address each of them in turn. Before doing that, the
Court notes that Defendants commissioned no studies
or experts when examining the compelling need for the
Challenged Laws, suggesting that any proffered interests
are an “afterthought effort to bolster a flimsily supported
decision,” Westchester Day Sch. v. Village of Mamaroneck,
417 F. Supp. 2d 477, 554 (S.D.N.Y. 2006), or “contrived for
the sole purpose of rationalizing the” Village’s decisions,
Fortress Bible Church v. Feiner, 734 F. Supp. 2d 409, 505
(S.D.N.Y. 2010) (“Fortress Bible I”), aff’d, 694 F.3d 208
(2d Cir. 2012).

147a
Appendix B
i.

Local Law No. 1 of 2001

Local Law No. 1 of 2001 was enacted because the
Board of Trustees “wanted to have educational institutions
as special permit uses rather than as of right, and to set
up standards by which density and impacts on adjoining
properties would be regulated.” (Ulman Aff. ¶ 25.) In
support of this justification, Marshall testified that he
was “very much in favor of . . . Yeshiva Spring Valley” and
thought that YSV’s proposal was “the best possible use
of” the Subject Property. (See Trial Tr. 650.) Defendants
further contend that Local Law No. 1 could not have been
designed to discriminate against YSV because “[h]ad YSV
filed an application and had a site plan approved prior to
the enactment of Local [Law No.] 1 of 2001, the previous
law, not Local Law [No.] 1 of 2001, would have applied to
YSV’s application.” (Ulman Aff. ¶ 31; see also Defs. Mem.
11 n.8 (citing Exeter Bldg. Corp. v. Town of Newburgh, 114
A.D.3d 774, 980 N.Y.S.2d 154 (App. Div. 2014)).)
The Court does not credit these justifications or the
testimony that was offered in support of them. As a general
matter, Defendants’ understanding of what law would have
applied to YSV’s application is incorrect. Their argument
is premised on a faulty understanding of the doctrine
of vested rights, which “is implicated when a property
owner seeks to . . . initiate the use of property . . . in a
way that was permissible before enactment of amendment
of a zoning ordinance but would not be permitted under
a new zoning law.” Exeter Bldg. Corp., 980 N.Y.S.2d at
158-59. “[A] vested right can be acquired when, pursuant
to a legally issued permit, the landowner demonstrates

148a
Appendix B
a commitment to the purpose for which the permit was
granted by effecting substantial changes and incurring
substantial expenses to further the development.” Id. at
159 (emphasis added) (internal quotation marks omitted).
The landowner’s reliance on the existing zoning law “must
be so substantial that the municipal action results in serious
loss rendering the improvements essentially valueless.”
Id. (internal quotation marks omitted). There is absolutely
no evidence in the record that YSV had made substantial
changes to the property or incurred substantial expenses
before Local Law No. 1 was adopted. In fact, the record
reveals the opposite. YSV had not even filed an application
before the law was adopted. (See Ulman Aff. ¶ 29.) Thus,
YSV’s application likely would have been subject to the
amended provisions of the Village’s laws.
A second reason the Court does not credit Defendants’
justifications is that they largely ignore the context in
which the law was passed. The only reason the Village
made educational institutions special permit uses was
because of YSV’s informal presentation to the Board in
December 1999. (See Pls.’ FOF ¶ 127.) That presentation
precipitated a series of events that culminated in the
adoption of Local Law No. 1 of 2001, a law which ultimately
prevented YSV from building a yeshiva in the Village. (See
Fromowitz Dep. 59-62.)23
23. Defendants argue that Fromowitz was unable to identify a
single instance in which a Village official opposed YSV’s proposal, but
Defendants overlook the obvious instance in which Village officials
did just that—the passage of Local Law No. 1 of 2001. YSV proposed
a school for 1,000 students. (See Fromowitz Dep. 59.) Local Law No.
1 imposed a minimum lot requirement of 10 acres, with an additional

149a
Appendix B
Thus, Defendants have failed to offer a credible, nondiscriminatory justification for enacting this local law.
ii.

Local Law No. 5 of 2004

Ulman, who became Village Attorney in July 2003,
(Ulman Aff. ¶ 1), drafted Local Law No. 5 of 2004, (see
id. ¶ 90). Ulman testified that the “purpose” of this law
was to: (1) remove the .05 acre-per-student requirement
for educational institutions imposed by Local Law No. 1 of
2001; (2) permit dormitories within the Village; (3) clarify
the definition of “educational institution” and remove the
definition for “school”; and (4) remove the requirement
that educational institutions be located on state or county
roads. (See id. ¶ 40.)24 Ulman explained that prior to the
enactment of this law, dormitories were prohibited in the
Village, (see id. ¶ 38), and that she copied the definition for
“dormitory” from laws passed in Ramapo and Chestnut
Ridge, (see id. ¶ 47), which similarly do not permit kitchens
in dormitories, (see id. ¶ 46; see also Defs.’ Ex. 1017, at 2
(Ramapo’s definition for “dormitory”); Defs.’ Ex. 1018, at

.05 acres per student, but subtracted from the total acreage steep
slopes and certain wetlands. (See Local Law No. 1 of 2001 § 4.) After
all of the excluded areas were subtracted from the total acreage of
the Subject Property, the law made it “impossible” for YSV to build
the proposed yeshiva. (See Fromowitz Dep. 60.)

24. Ulman described the acreage-per-student requirement
as a “half-acre requirement,” but this is incorrect. (Id. ¶ 40.) Local
Law No. 1 of 2001 mandated that educational institutions have a
minimum net lot area of 10 acres and additional “0.05 acre for each
pupil enrolled.” (Local Law No. 1 of 2001.)

150a
Appendix B
XVIII-12 (Chestnut Ridge’s definition for “dormitory”). 25
Ulman also claimed that the inclusion of provisions
regarding dormitories was motivated by “recent case law
developments in New York State.” (Ulman Aff. ¶ 48 (citing
Congregation Mischknois Lavier Yakov Inc. v. Board of
Trustees of Village of Airmont, No. 02-CV-5642 (S.D.N.Y.
filed July 19, 2002); Diocese of Rochester v. Planning Bd.
of the Town of Brighton, 1 N.Y.2d 508, 136 N.E.2d 827, 154
N.Y.S.2d 849 (N.Y. 1956); and Cornell Univ. v. Bagnardi,
68 N.Y.2d 583, 503 N.E.2d 509, 510 N.Y.S.2d 861 (N.Y.
1986)).) According to Ulman, these cases indicated that
the Village could not prohibit educational institutions from
constructing dormitories on campus. (See id.)
Local Law No. 5 of 2004 is also the law that amended
the accreditation requirements such that educational
institutions must be accredited by “the New York State
Education Department or similar recognized accrediting
agency.” (See Local Law No. 5 of 2004 § 1.) The purpose of
this amendment purportedly was to clarify an inconsistency
in the Village code, (see Ulman Aff. ¶ 52), which mandated
that “schools” be approved by the New York State Board
25. Ulman testified that “the laws in Chestnut Ridge, Ramapo
and Orangetown and many other municipalities do not permit
kitchens in dormitories.” (See Ulman Aff. ¶ 46.) Tellingly, Ulman has
identified only three other jurisdictions that do not permit kitchens
in dormitories. Also significant is the fact that Defendants have
admitted as exhibits only the code provisions for Chestnut Ridge
and Ramapo. The Court has independently reviewed the code for
Orangetown and finds no provision similar to that which the Village
adopted. Orangetown does have a provision regulating dormitories,
but that provision does not prohibit separate cooking or dining
facilities. See Town of Orangetown Code § 43-8.2.

151a
Appendix B
of Regents or the New York State Education Department,
while “educational institutions” had to be licensed by
New York State, (see Local Law No. 1 of 2001 §§ 1-2). By
eliminating the definition for “schools,” and broadening
the universe of accrediting agencies, Ulman believed that
she was making it easier for applicants to understand the
Village’s zoning requirements. (Ulman Aff. ¶ 52.)
The Court finds some of Ulman’s testimony on these
matters credible. For example, the Court has no reason
to doubt that removing the definition for “school,” and the
duplicative and inconsistent accreditation requirements
imposed by that definition, made the Village Code easier
to understand. In other respects, however, the Court
does not credit Ulman’s stated justifications for Local
Law No. 5 of 2004. First, Ulman testified that none of
the stated justifications required the Village to ban multifamily housing. (See Trial Tr. 835.) Second, by “recent”
developments in case law, Ulman refers to cases decided
in 1956 and 1986 and one filed in 2002. (See Ulman Aff.
¶ 48.) The case filed in 2002 would have been “recent,”
but Ulman’s inclusion of cases decided decades before
Local Law No. 5 of 2004 was under consideration shows
a willingness to stretch the truth and detracts from
her overall credibility. Third, although the amendment
to the accreditation provision expanded the universe
of accrediting bodies, the purpose of the accreditation
requirement was to regulate “commercial-type training
schools, . . . such as automotive . . . [and] driving schools,”
(Trial Tr. 898), which can be accredited, (see Kinser
Decl. ¶ 10). In any event, Ulman offered no testimony,
and Defendants have offered no evidence, that the

152a
Appendix B
Village was about to be besieged by such trade schools or
otherwise explained the timing of the promulgation of this
requirement. Finally, Ulman’s reliance on the similarities
between Local Law No. 5 and Ramapo’s laws relating
to dormitories is misplaced. Ramapo’s zoning laws do
prohibit individual kitchens within dormitories, (Defs.’
Ex. 1017, at 2), but Ramapo’s ASHL, which the Village
actually opposed, contemplates the existence of adult
student housing. See Village of Chestnut Ridge v. Town of
Ramapo, No. 07-CV-9278, 2008 U.S. Dist. LEXIS 76881,
2008 WL 4525753, at *1 (S.D.N.Y. Sept. 30, 2008) (noting
that the ASHL “permits married, adult, student, multifamily, high-density housing in single-family residential
zones . . . in the unincorporated portion of Ramapo.”).
The Village does not have a similar provision permitting
such housing.
Setting aside the testimony described above,
Defendants point to other evidence that they argue proves
that Local Law No. 5 of 2004 was passed for legitimate
reasons. (See Defs.’ Mem. 14-15.) The law was originally
discussed by the Board of Trustees during the summer
of 2004, (see Ulman Aff. ¶ 41), several months before
the Village learned in November 2004 that Tartikov
purchased the Subject Property, (see Joint Pretrial Order
Stipulations of Fact ¶ 15), and years before the Village
learned of Tartikov’s plans for the property, (see Ulman
Aff. ¶ 57). Furthermore, the Trustees who voted in favor
of the law—Marshall, Sanderson, Roman, and Alan Lamer
(“Lamer”), (see Pls.’ Ex. 131, at POM0000432)—testified
that they would not condone discriminatory behavior, (see
Trial Tr. 521 (Sanderson stating that he has “no animus

153a
Appendix B
towards [Orthodox/Hasidic Jews] at all”); id. at 574
(Roman, an African American woman, stating that her
community has been “fighting discrimination” since 1865
and that she would not engage in discriminatory behavior);
id. at 668 (Marshall testifying that he is Jewish and finds
“any allegation of anti-Semitism” to be “repugnant”); id.
at 736 (Lamer stating that his decision to vote in favor
of Local Law No. 1 of 2007 was not “motivated by any
desire to keep Tartikov from building a school within the
Village”)).
The flaw in Defendants’ reasoning is that Local Law
No. 5 of 2004 was not adopted in a vacuum; other events
that occurred around the time of adoption undercut
Defendants’ position. For example, the same Board
that voted in favor of Local Law No. 5 and disclaimed a
discriminatory purpose also voted to challenge Ramapo’s
ASHL because it was allegedly passed “to secure
for one religious community a unique and significant
zoning benefit.” (Pls.’ Ex. 156 ¶¶ 27, 215.) That religious
community was Orthodox/Hasidic Jews. It is unsurprising,
then, that Local Law No. 5 was designed to prohibit the
exact same type of multi-family housing permitted under
the Ramapo ASHL. Additionally, while Defendants have
highlighted favorable testimony from the Trustees that
voted in favor of Local Law No. 5, they overlook other
damaging testimony indicative of discriminatory animus.
For example, in June 2004, Marshall stated that officials
in Ramapo were “pandering to the special interest groups
able to deliver the critically important block vote,” (Pls.’
Ex. 109, at POM0013281), in reference to the Orthodox
Jewish community, (see Trial Tr. 619). In another example,

154a
Appendix B
during his campaign for mayor in 2007, Sanderson stated
that Tartikov “could completely change the village and
the make-up of the village.” (Pls.’ Ex. 47, at 1 (emphasis
added).) There is no evidence that Roman and Lamer
made similar statements, but they were Trustees when
the Board took concrete steps to prevent the spread of the
Orthodox/Hasidic community into the Village.
Thus, while Defendants’ proffered justifications
for enacting Local Law No. 5 of 2004 are not entirely
incredible, the Court finds that discriminatory purpose
was “a significant reason for [Defendants’] actions,” Cine
SK8, 507 F.3d at 786.
iii. Local Law No. 1 of 2007
Ulman drafted Local Law No. 1 of 2007 “to address
errors, inconsistencies and vagueness issues in relation
to the previously enacted educational institution and
dormitory laws.” (Ulman Aff. ¶ 53.) The law was originally
presented to the Board of Trustees in December 2006.
(See id. ¶ 55.) Ulman testified that she did not learn about
Tartikov’s proposal until January 2007, (see id. ¶ 57), and
thus Defendants contend that the law was not drafted to
discriminate against Plaintiffs.
The Court credits only part of Ulman’s testimony on
this matter. Ulman may not have been aware of Tartikov’s
specific plan, but Ulman and the Board of Trustees were
preparing to oppose Tartikov’s use of the Subject Property
before January 2007. Between July 2006 and December
2006, the Board of Trustees was scheduled to meet ten

155a
Appendix B
times in executive session to discuss Tartikov. (See Pls.’
Exs. 80, 83, 85, 87, 89-92, 119-20.) In New York, a public
body may conduct an executive session for the following
reasons:
a. matters which will imperil public safety if
disclosed;
b. any matter which may disclose the identity
of a law enforcement agent or informer;
c. information relating to current or future
investigation or prosecution of a criminal
offense which would imperil effective law
enforcement if disclosed;
d. discussions regarding proposed, pending or
current litigation;
e. collective negotiations pursuant to article
fourteen of the civil service law;
f. the medical, financial, credit or employment
history of a particular person or corporation,
or matters leading to the appointment,
e mploy me nt , p r o mot ion , de mot ion ,
discipline, suspension, dismissal or removal
of a particular person or corporation;
g. the preparation, grading or administration
of examinations; and

156a
Appendix B
h. the proposed acquisition, sale or lease of
real property or the proposed acquisition of
securities, or sale or exchange of securities
held by such public body, but only when
publicity would substantially affect the value
thereof.
N.Y. Public Officers Law § 105. When pressed during
oral argument about which exception is applicable here,
Defendants had no answer. The only exception that seems
plausible is the exception for litigation. However, Ulman
submitted an affidavit earlier in this Action stating that
she first sensed that the Village could have a dispute
with Tartikov in January 2007, (see Decl. of Doris F.
Ulman, Esq. ¶ 16 (Dkt. No. 203) (“At or around [January
2007], as Village Attorney, I sensed the possibility that
the Village may have a dispute with Plaintiffs in the
future regarding their stated intentions. I do not recall
discussing this feeling, which was nothing more than a
suspicion, with anyone in January 2007.”)), making that
exception inapplicable. Defendants’ fallback position is
that Plaintiffs have proffered only meeting agendas, which
only prove that the Board planned to discuss Tartikov, not
that it actually discussed Tartikov. Plaintiffs do not know
what was actually discussed during the executive sessions
because anything discussed during those portions of the
Board meetings is privileged. (See Trial Tr. 852.) The only
way for the Court to know for sure what happened is for
Defendants to waive the privilege. They have not done so,
as is their right. The Court can only draw one conclusion
from this refusal—Defendants discussed Tartikov and
the ways in which they could limit Tartikov’s use of the

157a
Appendix B
Subject Property during executive sessions from July
2006 through December 2006. Ulman’s testimony that
she did not know how Tartikov planned to use the Subject
Property until January 2007 is therefore unpersuasive.
Regardless of when Ulman learned of the specifics of
Tartikov’s plan, the Board was preparing to oppose
Plaintiff’s use of the property as early as July 2006.
Moreover, Ulman’s stated justifications also do not
explain why she added the provision mandating that a
“dormitory building shall not occupy more than 20% of
the total square footage of all buildings on the lot.” Village
Code § 130-10(F)(12). The addition of this provision goes
well beyond fixing errors and inconsistencies, but instead
imposed substantial restrictions on Tartikov’s ability to
build student housing sufficient to support the rabbinical
college.
Defendants spend little time addressing these issues.
Instead, they contend that Plaintiffs worked behind the
scenes to incite an atmosphere of hostility to make it
appear as though Defendants were targeting Plaintiffs.
(See Defs.’ Mem. 17.) Specifically, Defendants focus on the
events leading up to the January 22, 2007 Board meeting.
The Board was initially scheduled to vote on Local Law
No. 1 of 2007 on December 18, 2006, but Savad asked that
the hearing on the law be adjourned. (See Defs.’ Ex. 1041,
at 4.) Then, on January 12, 2007, The Journal News ran the
article describing the size and scope of Tartikov’s proposal.
(See Pls. Ex. 157.) The article, attributing the figures to
Savad, stated that the rabbinical college would house 1,000
rabbis and their families. (See id. at RC1634.) Defendants

158a
Appendix B
imply that Plaintiffs, with the help of Savad, leaked the
plans to the public to incite opposition to Tartikov’s
proposal. As evidence of this scheme, Defendants point to
the fact that Savad hired a stenographer and videographer
to attend the January 22, 2007 meeting. (See Ulman Aff.
¶ 60.) Defendants construct an interesting theory, but
that is all that it is. They have no evidence to back it up.
In any event, none of this theorizing changes in any way
the overwhelming evidence of discriminatory animus, or
the fact that this law served no compelling interests.
iv.

Local Law No. 5 of 2007

Ulman drafted Local Law No. 5 of 2007 because “the
Board was concerned about wetlands in the Village that
were not regulated by the State or federal government.”
(Id. ¶ 68.) She copied “the 100 foot buffer requirement in
th[is] . . . [l]aw from the New York State Environmental
Conservation Law, which requires a permit from the
NYDEC for any proposed disturbance within 100 feet
of any NYDEC regulated wetlands.” (Id.) In addition to
reviewing these regulations, Ulman “consulted a wetlands
study prepared for Westchester County, NY . . . and
reviewed the wetlands laws of the villages of Chestnut
Ridge, New Hempstead, and South Nyack.” (Id. ¶ 71.)
She further explained that “additional events . . . make
it clear that the Village had to enact this legislation,”
i.e., “Hurricanes Floyd and Irene and super storm
Sandy.” (Id. ¶ 73.) Ulman believed that the Wetlands Law
“would protect the health, safety, and welfare of Village
residents.” (Id. ¶ 69.)

159a
Appendix B
There are several issues with Ulman’s testimony that
detract from her credibility, thus yielding the conclusion
that none of the stated justifications holds any water.
First, the Village did not adopt the Wetlands Law until
2007, even though the idea of adopting such a law dates
back to 1997. (See Trial Tr. 1227-28.) Apparently, the
Village’s wetlands were not at risk until after Tartikov
appeared on the scene. The Court finds this coincidence
very suspicious. See Cottonwood Christian Ctr. v. Cypress
Redevelopment Agency, 218 F. Supp. 2d 1203, 1225 (C.D.
Cal. 2002) (“At first blush, the [defendant] [c]ity’s concern
about blighting rings hollow. Why had the [defendant], so
complacent before [the plaintiff] purchased the [subject]
[p]roperty, suddenly burst into action? . . . [T]he activity
suggests that the [defendant] was simply trying to keep
[the plaintiff] out of the [c]ity, or at least from the use of
its own land.”).
Second, there is no evidence that a regulatory void
in fact existed prior to the enactment of this law. Beall,
Plaintiffs’ expert on wetlands science, testified that
“federal and state wetland regulations covered over 99%
of all aquatic resources within the Village prior to the
passage of the [Wetlands Law].” (Beall Decl. ¶ 51; id.
¶ 58 (noting that “99% of the . . . mapped wetlands in the
Village” are regulated by the Corps of Engineers under
the Clean Water Act); id. ¶ 59 (noting that “80%” of “the
total acreage of . . . mapped wetlands in the Village . . .
are regulated by the NYSDEC under Article 24”). This
testimony is unrebutted. Charles Voorhis, Defendants’
expert on environmental planning, did not do “a full
inventory of wetlands in the [V]illage,” and therefore was

160a
Appendix B
unaware of any wetlands that were not protected by state
or federal law. (Trial Tr. 1275.) The only possible void
filled by the Wetlands Law is that it imposes a 100-foot
buffer around all wetlands, while federal and state law do
not. (See id. at 1290.) However, there is no evidence about
whether this gap is significant because the Village did not
commission a study to determine whether unprotected
wetlands existed in the Village or whether the Wetlands
Law was tailored to protect those areas.
Third, Ulman identified “Hurricanes Floyd and Irene”
and “super storm Sandy” as events that justified the
passage of the Wetlands Law, but the timing of these events
further reinforce the conclusion that the law was passed to
thwart Tartikov’s proposal. (Ulman Aff. ¶ 73.) Hurricane
Floyd occurred in 1999. See Andrew C. Revkin, The Big
Storm: The Northern Suburbs, The New York Times
(Sept. 18, 1999), http://www.nytimes.com/1999/09/18/
nyregion/the-big-storm-the-northern-suburbs-lostlives-ruined-homes-and-close-calls.html?mcubz=1. No
explanation has been proffered for why the Village waited
almost a decade after that hurricane to enact legislation
regulating wetlands. The obvious explanation is that
the Village did not deem it necessary. Hurricane Irene
occurred in 2011 and Superstorm Sandy occurred in 2012,
postdating the passage of the Wetlands Law by several
years. Defendants cannot rely on these events to justify
a law that was passed in 2007. Even if Defendants are
relying on these events merely to show that the Village’s
wetlands have the potential to damage the Village and thus
needed to be regulated, Defendants have not explained
whether the Wetlands Law prevented or lessened the

161a
Appendix B
damage that Hurricane Irene and Superstorm Sandy
would have caused without regulation.
Finally, the Wetlands Law states that the “protection
of all wetlands is vital to the health, safety and welfare
of all persons,” Village Code § 126-1, yet exempts from
its coverage “lots that are improved with single-family
residences,” id. § 126-3(D), effectively rendering the law
toothless. Out of over 1,000 parcels of land in the Village,
only 285 of them are located within 100 feet of protected
wetlands. (See Beall Decl. ¶ 180.) Of those 285 regulated
parcels, 240 of them are improved with single family
residences. (See id. ¶ 181.) Thus, at most, 45 parcels are
subject to the law’s restrictions. By its own terms, the
exception swallows the rule.
Despite Defendants’ failure to credibly explain why
the Wetlands Law was adopted, they have proffered other
evidence that indicates, on its face, that the Board of
Trustees adopted the Wetlands Law for legitimate, nondiscriminatory reasons. Defendants contend that the law
was not enacted to prevent Tartikov from developing a
college because Ulman had “no knowledge of what, if any,
wetlands were on the [Subject] Property” at the time the
law was drafted. (Defs.’ Mem. 19; see also Ulman Aff. ¶ 70
(“While the [Subject] Property is legally subject to this,
the Law was not prepared or enacted with the [Subject]
Property in mind. I can say this because, as I have stated,
I drafted the law and when I drafted it, I had no knowledge
of what, if any, wetlands were on the property.”).) Even
if Ulman did not know whether there were wetlands on
the Subject Property (which is dubious, at best), other

162a
Appendix B
Village officials did know that there were wetlands on
the property. Marshall made reference to wetlands on
the Subject Property as early as 2001, (see Pls.’ Ex.
107, at 2 (October 22, 2001 meeting minutes noting that
Marshall “stressed” that Yeshiva Spring Valley needed
to protect the wetlands located on the Subject Property)),
and acknowledged during trial that he knew prior to 2007
that there were wetlands on the property, (see Trial Tr.
670). Although Marshall was voted out of office before the
Board of Trustees voted on the Wetlands Law, he was
the mayor during the drafting process. (See id. at 670-71;
Ulman Aff. ¶ 74.) Yagel, who was elected to the Board in
March 2007, discussed the presence of wetlands on the
property in January 2007. (See Pls.’ Ex. 69, at 1, 3.) And,
the 1997 Village Master Plan Update contains a large
diagram showing that there are wetlands on the property.
(See Pls.’ Ex. 141, at Fig. 1.)
Defendants also cite to the testimony of Sanderson,
Yagel, and Louie to argue that the Wetlands Law was
not meant to discriminate against Tartikov. (See Defs.’
Mem. 19.) Sanderson testified that the law was not
passed with the intention of keeping Tartikov out of the
Village. (See Trial Tr. 521.) The Court does not credit
this testimony because Sanderson ran for mayor on a
platform that included a promise to fight to keep Tartikov
from developing the Subject Property and expressed
concerns about the “make-up” of the Village changing
if Tartikov were to build on the property. (See Pls.’ Ex.
41; Pls.’ Ex. 47, at 1.) Yagel similarly testified that the
Wetlands Law was not adopted to prevent Tartikov from
building a rabbinical college, (see Trial Tr. 728), and also

163a
Appendix B
that he was unaware of the existence of wetlands on the
property, (see id. at 727). The Court does not credit this
testimony, and in one respect, it is false. The Court does
not credit Yagel’s testimony that the law was not adopted
to discriminate against Tartikov because Yagel made
discriminatory comments leading up to the adoption of
the law. For example, in early 2007, Yagel co-authored a
letter to The Journal News stating that “a virtual minicity within the village . . . that will house thousands of
homogenous individuals” was not a “natural” progression
for the Village, (Pls.’ Ex. 17 (internal quotation marks
omitted)), and was quoted in the New York Times saying
that it was “disgusting” that Tartikov was “trying to
create this minicity in our village,” (see Pls. Ex. 169, at
1 (internal quotation marks omitted)). The Court does
not credit the remainder of Yagel’s testimony because
it is demonstrably false. As indicated in the preceding
paragraph, Yagel discussed the existence of wetlands on
the Subject Property in January 2007. (See Pls.’ Ex. 69,
at 1, 3.) Finally, Louie testified that the Wetlands Law
was “absolutely not” enacted to prevent Tartikov from
developing the property. (See Trial Tr. 703.) For similar
reasons as those provided for Yagel, the Court does not
credit this testimony. For example, Louie was a co-author
of the letter to The Journal News. (See Pls.’ Ex. 17.)
In light of Defendants’ failure to provide any credible
justification for the passage of the Wetlands Law, or
even explain what purpose it serves, the Court is left to
conclude that the law was enacted to thwart Tartikov’s
proposed rabbinical college.

164a
Appendix B
d.

Strict Scrutiny—Narrowly Tailored

Even if Defendants had proffered evidence proving
that the Challenged Laws were justified by compelling
interests, the Challenged Laws would still fail to pass
strict scrutiny because they are not narrowly tailored
to serve those interests. See Turner Broad. Sys., Inc. v.
F.C.C., 512 U.S. 622, 664, 114 S. Ct. 2445, 129 L. Ed. 2d
497 (1994) (noting that a municipality must show “that
the regulation will in fact alleviate [claimed] harms
in a direct and material way”). When “[t]he proffered
objectives are not pursued with respect to analogous nonreligious conduct, and those interests could be achieved by
narrower ordinances that burdened religion to a far lesser
degree[,] [then] [t]he absence of narrow tailoring suffices
to establish the invalidity of the [actions].” Lukumi, 508
U.S. at 546; Jana-Rock Constr., 438 F.3d at 210 (“Strict
scrutiny is applied in order to determine whether the harm
stemming from a particular decision . . . is justified.”).
The Challenged Laws are not narrowly tailored
because the Village Code already provides several layers
of regulation through which Defendants could limit the
development of the Subject Property. Before an educational
institution can be built in the Village, the developer must
obtain a special permit from the Board of Trustees, see
Village Code § 130-10(F), obtain site plan approval from
the Village Planning Board, see id., and go through the
Village’s architectural review process, see id. § 3-4(a)
(“The [Board of Architectural Review] shall review
all applications for building permits for nonresidential
construction . . . .”). All special permit uses are subject to

165a
Appendix B
two standards: (1) those generally applicable to all special
permit uses, and (2) those specifically required for the
special permit use at issue. Village Code § 130-28(E).
All special permit uses are subject to the conditions
set forth in Village Code § 130-28(E)(6). This provision
permits the Board of Trustees to “attach all such
additional conditions and safeguards to any special permit
as are, in its opinion, necessary to ensure initial and
continual conformance to all applicable standards and
requirements,” including:
a) The location and size of the special permit
use, nature and intensity of the operations
involved in it or conducted in connection
with it, the size of the site in relation to it
and the location of the site with respect to
streets giving access to it are such that it
will be in harmony with the appropriate and
orderly development of the area in which it
is located.
b) The location, nature and height of buildings,
walls and fences and the nature and extent
of existing or proposed plantings on the site
are such that the special permit use will
not hinder or discourage the appropriate
development and use of adjacent land and
buildings.
c) Operations in connection with any special
permit use will not be more objectionable to

166a
Appendix B
nearby properties by reason of noise, traffic,
fumes, vibration or other characteristics
than would be the operations of permitted
uses not requiring a special permit.
Id. § 130-28(E)(6)(a)-(c). The special permit provisions
applicable to educational institutions allow the Board of
Trustees to impose additional conditions on the issuance
of a special permit, including:
(9) The Board of Trustees may impose
such restrictions and regulations which
would avoid or minimize traffic hazards,
impairment of the use, enjoyment or value
of property in the surrounding area,
or generally protect the health, safety
and welfare of the neighborhood and to
otherwise implement the purpose and
intent of this chapter.
(10) The location and size of the use, the nature
and intensity of operations involved in or
conducted in connection therewith, its site
layout and its relation to access streets
shall be such that both pedestrian and
vehicular traffic to and from the use and
the assembly of persons in connection
therewith shall not be hazardous.
(11) The location and height of buildings,
the location, nature and height of walls
and fences and the nature and extent of

167a
Appendix B
landscaping on the site shall be such that
the use will not hinder or discourage the
development and use of adjacent land and
buildings.
Id. § 130-10(F)(9)-(11). Defendants have not offered
a credible explanation as to why these provisions are
incapable of restricting the development of the Subject
Property in the way they seek. 26
Moreover, during the site plan review process,
the Planning Board has the “authority to impose such
reasonable conditions and restrictions as are directly
related to and incidental to a proposed site plan.” Id.
§ 119-3(B)(1). No site plan can be approved unless the
Planning Board finds that “the proposed activity and
manner in which it is to be accomplished are in accordance
with the purpose and findings set forth in this chapter,”
and that “the proposed activity and the manner in which
it is to be accomplished will not adversely affect the
preservation and protection of existing wetlands, water
bodies, watercourses and floodplains.” Id. § 119-3(A)(1),
(3). The Planning Board must also “take into consideration
the public health, safety and general welfare and shall
26. Ulman testified that the Village “does not have the ability
to control the size of an educational institution through the special
permit application process unless the zoning law has a limitation
(as the Village Local Laws do).” (Ulman Aff. ¶ 77.) This testimony
is vague and conclusory and belied by the code provisions discussed
above. See Village Code § 130-28(E)(6)(a) (authorizing the Board of
Trustees to place restrictions on the “location and size” of special
permit uses).

168a
Appendix B
set appropriate conditions and safeguards which are in
harmony with the general purpose and intent of this
chapter.” Id. § 119-5(D).
These Village Code provisions are not the only
restriction on Plaintiffs’ development of the Subject
Property. An application to establish an educational
institution in the Village also would likely be subject
to SEQRA, (see Trial Tr. 1242), which is “an overall
environmental review process,” (Defs.’ Ex. 2002 ¶ 97).
SEQRA review can address environmental impacts on
wetlands and water pollution, plant life and wildlife,
floodplains, stormwater, air quality, noise, population
concentration, distr ibution and g row th, ex isting
community character, and human health impacts. (See
Trial Tr. 1243-44; Beall Decl. ¶¶ 134, 140; Pls. Ex. 200.)
Furthermore, as alluded to above, the New York State
Environmental Conservation Law requires permitting
from the New York State Department of Environmental
Conservation for activity within 100 feet of designated
wetlands, (see Ulman Aff. ¶ 68), and wetlands that qualify
as “Waters of the United States” are federally protected
by the Clean Water Act, (Beall Decl. ¶ 89).
Plaintiffs do not dispute that they are subject to all
of these regulations. During oral argument, they went
so far as to suggest one condition that Defendants may
wish to consider: conditioning the issuance of a special
permit on a requirement that only students and their
families live on Tartikov’s campus. This suggestion is
significant because it directly addresses Defendants’
concern that Plaintiffs are secretly planning to build a
housing project for Orthodox/Hasidic Jews. Defendants

169a
Appendix B
have not explained why this type of condition would not
resolve their concerns. Additionally, Defendants have not
explained why only accredited schools and traditional
student-only dormitories are preferable to unaccredited
schools and nontraditional dormitories, or how they pose
greater threats to the Village. Without this information,
the Challenged Laws do not survive strict scrutiny review.
2.

RLUIPA’s Substantial Burden Provision
a.

Jurisdiction

Plaintiffs assert that Defendants must be enjoined
from enforcing the Challenged Laws because the laws
substantially burden their religious exercise in violation
of RLUIPA. Defendants contend that the Court is without
jurisdiction to address this claim because Plaintiffs have
not established the applicability any of the jurisdictional
prerequisites necessary to litigate a substantial burden
challenge. (See Defs.’ Mem. 27-29.) The substantial burden
provision of RLUIPA provides:
No government shall impose or implement a
land use regulation in a manner that imposes
a substantial burden on the religious exercise
of a person, including a religious assembly or
institution, unless the government demonstrates
that imposition of the burden on that person,
assembly, or institution—
(A) i s i n f u r t her a nc e of a comp el l i ng
governmental interest; and

170a
Appendix B
(B) is the least restrictive means of furthering
that compelling governmental interest.
42 U.S.C. § 2000cc(a)(1). This provision
prohibits a governmental entity from applying a
land use regulation “in a manner that imposes a
substantial burden on the religious exercise of a
person . . . or institution, unless the government
demonstrates that imposition of the burden . . .
is in furtherance of a compelling governmental
interest; and . . . [the burden imposed] is the
least restrictive means of furthering that
compelling governmental interest.”
Westchester Day Sch. v. Village of Mamaroneck, 386 F.3d
183, 186 (2d Cir. 2004) (“WDS I”) (alterations in original)
(quoting 42 U.S.C. § 2000cc(a)(1)); see also Fortress Bible
Church v. Feiner, 694 F.3d 208, 218-19 (2d Cir. 2012)
(“Fortress Bible II”). It serves to “backstop[] the explicit
prohibition of religious discrimination in [a] later section
of [RLUIPA], much as the disparate-impact theory of
employment discrimination backstops the prohibition of
intentional discrimination.” Sts. Constantine & Helen
Greek Orthodox Church, Inc. v. City of New Berlin, 396
F.3d 895, 900 (7th Cir. 2005).
The protections afforded by the substantial burden
provision are triggered only if one of three conditions
are met:
(A) the substantial burden is imposed in a
program or activity that receives Federal

171a
Appendix B
financial assistance, even if the burden results
from a rule of general applicability;
(B) the substantial burden affects, or removal of
that substantial burden would affect, commerce
with foreign nations, among the several States,
or with Indian tribes, even if the burden results
from a rule of general applicability; or
(C) the substantial burden is imposed in the
implementation of a land use regulation or
system of land use regulations, under which a
government makes, or has in place formal or
informal procedures or practices that permit
the government to make, individualized
assessments of the proposed uses for the
property involved.
42 U.S.C. § 2000cc(a)(2). “To establish a claim, a plaintiff
bears the burden of demonstrating that at least one of
these predicates applies . . . .” Chabad Lubavitch, 768
F.3d at 192.
Defendants argue that Plaintiffs have not satisfied
any of these jurisdictional prerequisites, devoting most
of their attention to subsection (a)(2)(C). (See Defs.’
Mem. 28.) That subsection requires that the substantial
burden be “imposed in the implementation of a land use
regulation.” 42 U.S.C. § 2000cc(a)(2)(C) (emphasis added).
“[T]his predicate is satisfied when the ‘government may
take into account the particular details of an applicant’s
proposed use of land when deciding to permit or deny that

172a
Appendix B
use.’” Chabad Lubavitch, 768 F.3d at 193 (quoting Guru
Nanak Sikh Soc’y of Yuba City v. County of Sutter, 456
F.3d 978, 986 (9th Cir. 2006)). In Guru Nanak, the Ninth
Circuit explained:
By its own terms, it appears that RLUIPA does
not apply directly to land use regulations, such
as the [z]oning [c]ode here, which typically are
written in general and neutral terms. However,
when the [z]oning [c]ode is applied to grant or
deny a certain use to a particular parcel of
land, that application is an ‘implementation’
under 42 U.S.C. § 2000cc[(a)](2)(C).
456 F.3d at 987 (emphasis added). Under this reading of
subsection (a)(2)(C), Plaintiffs cannot sustain a substantial
burden challenge because the zoning laws have not been
“applied to grant or deny” Tartikov’s proposed use of the
Subject Property. Id.
Plaintiffs mount no opposition to this interpretation
of subsection (a)(2)(C). They instead rely on subsection
(a)(2)(B) to argue that the Court has jurisdiction to hear
their substantial burden claim. (See Pls.’ Post-Trial Mem.
of Law (“Pls.’ Mem.”) 8 n.6 (Dkt. No. 329).) That provision
applies where “the substantial burden affects, or removal
of that substantial burden would affect, commerce . . .
among the several states . . . .” 42 U.S.C. 2000cc(a)(2)(B).
Defendants argue that this provision is inapplicable here
because “the effect, if any, of [Tartikov’s] hypothetical
proposal on commerce is speculative and incalculable.”
(Defs.’ Mem. 28.)

173a
Appendix B
The basis for Plaintiffs’ argument is that “commercial
building construction is activity affecting interstate
commerce.” WDS II, 504 F.3d at 354. In Chabad
Lubavitch, the Second Circuit noted that the construction
of a “17,000-square-foot addition” to a property “almost
certainly renders RLUIPA applicable under the interstate
commerce predicate.” 768 F.3d at 192 n.6. Plaintiffs have
not proffered any evidence about the square footage
of the buildings necessary for their proposed college,
but Tartikov seeks to build “classrooms, study halls,
courtrooms, a library, residences, . . . one or more shuls,
and a facility to house a mikvah.” (Tauber Decl. ¶ 61.) The
square footage of these facilities is likely to total in the
thousands. To build these facilities, Tartikov intends to
hire contractors and purchase all of the supplies necessary
for their construction. (See id. ¶ 84.) The Court has no
reason to doubt that the construction of these buildings
constitutes “commercial building construction.” WDS II,
504 F.3d at 354. Accordingly, the Court has jurisdiction
to hear Plaintiffs’ substantial burden claim.
Although not challenged by Defendants at this
stage, as the Court has previously ruled on this issue,
see Tartikov II, 138 F. Supp. 3d at 385, the Court notes
that while the Challenged Laws have not been “imposed
in the implementation” of a land use regulation, as that
phrase is used in subsection (a)(2)(C), the laws were
“impose[d]” on Plaintiffs for purposes of subsection (a)
(1). The difference being that subsection (a)(1) does not
require that the burden be imposed in the implementation
of a land use regulation; it requires that the burden be
“impose[d] or implement[ed].” See Elijah Grp., Inc. v.

174a
Appendix B
City of Leon Valley, 643 F.3d 419, 422 (5th Cir. 2011)
(“When we focus on the text of the Clause, we read it as
prohibiting the government from ‘imposing,’ i.e., enacting,
a facially discriminatory ordinance or ‘implementing,’ i.e.,
enforcing a facially neutral ordinance in a discriminatory
manner.”); Roman Catholic Diocese of Rockville Centre
v. Incorporated Village of Old Westbury, No. 09-CV5195, 2012 U.S. Dist. LEXIS 56694, 2012 WL 1392365,
at *8 (E.D.N.Y. Apr. 23, 2012) (upholding facial challenge
to zoning law because the plaintiff had adequately
alleged that “the conditions imposed by the [law] would
significantly restrict the [plaintiff’s] use of their [p]roperty
for religious burial purposes”).
b.

Substantial Burden on Religious Exercise

To establish a substantial burden claim, Plaintiffs
“bear[] the burden of demonstrating,” Chabad Lubavitch,
768 F.3d at 192, that the “government . . . impose[d] . . . a
land use regulation” on the Subject Property “in a manner
that imposes a substantial burden” on their “religious
exercise.” 42 U.S.C. § 2000cc(a)(1); see also id. § 2000cc2(b) (“[T]he plaintiff shall bear the burden of persuasion
on whether the law (including a regulation) or government
practice that is challenged by the claim substantially
burdens the plaintiff’s exercise of religion.”). “The burden
then shifts to the defendant to demonstrate that it acted
in furtherance of a compelling governmental interest and
that its action is the least restrictive means of furthering
that interest.” Chabad Lubavitch, 768 F.3d at 192 (internal
quotation marks omitted). The Parties have stipulated that
the Village and the mayor and trustees of the Village are

175a
Appendix B
a “government,” and that the Challenged Law are “land
use regulations.” (See Joint Pretrial Order Stipulations
of Law ¶¶ 1-8.) The Court’s focus, then, is on whether
Plaintiffs’ “religious exercise” has been “substantial[ly]
burden[ed].” 42 U.S.C. § 2000cc(a)(1).
i. 	Plaintiffs’ Religious Exercise & its
Sincerity
RLUIPA “defines ‘religious exercise’ to include ‘any
exercise of religion, whether or not compelled by, or central
to, a system of religious belief,’ and provides further that
‘[t]he use, building, or conversion of real property for
the purpose of religious exercise shall be considered . . .
religious exercise.’” WDS I, 386 F.3d at 186 (alterations
in original) (quoting 42 U.S.C. § 2000cc-5(7)(A), (B)); see
also Sts. Constantine & Helen, 396 F.3d at 900 (same).
“Religious exercise” under RLUIPA is defined broadly
“‘to the maximum extent permitted by the terms of this
chapter and the Constitution.’” WDS II, 504 F.3d at 347
(quoting 42 U.S.C. § 2000cc-3(g)); see also Bikur Cholim,
Inc. v. Village of Suffern, 664 F. Supp. 2d 267, 275, 288
(S.D.N.Y. 2009) (same). It is not for the Court to say that
Plaintiffs’ “religious beliefs are mistaken or insubstantial.
Instead, [the Court’s] narrow function in this context is
to determine whether the line drawn reflects an honest
conviction.” Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct.
2751, 2779, 189 L. Ed. 2d 675 (2014) (alteration and internal
quotation marks omitted); see also Patrick v. LeFevre,
745 F.2d 153, 157 (2d Cir. 1984) (“Sincerity analysis seeks
to determine an adherent’s good faith in the expression
of religious belief . . . [and] provides a rational means of

176a
Appendix B
differentiating between those beliefs that are held as
a matter of conscience and those that are animated by
motives of deception and fraud.”).
Upon the Subject Property, Tartikov intends to
construct “classrooms, study halls, courtrooms, a library,
residences, . . . one or more shuls, and a facility to house
a mikvah.” (Tauber Decl. ¶ 61.) Tartikov does not seek
to provide just any type of residences; rather, it seeks
to provide multi-family housing to accommodate the
rabbinical students and their families. Neither Defendants
nor the Court question the sincerity of Plaintiffs’ beliefs
as they relate to the necessity for classrooms, study halls,
courtrooms, a library, shuls, and a mikvah on the Subject
Property. Defendants do, however, challenge the sincerity
of Plaintiffs desire to build multi-family housing. (See
Defs.’ Mem. 30 (“The evidence demonstrates that the
requirement of multifamily housing on the campus of a
rabbinical college is not a sincerely held religious belief.”).)
The Students are each motivated by their religious
beliefs to become full-time rabbinical judges qualified
in all four books of the Shulchan Aruch. (Pls.’ FOF ¶ 20
(citing Chaim Rosenberg Decl. ¶¶ 14-18, 21; Meilech
Menczer Decl. ¶¶ 18-19, 35, 51-52; Jacob Hershkowitz
Decl. ¶¶ 48, 49, 57, 92, 100).) They further believe that
the Torah commands them to study the Torah day and
night. (See Pls.’ FOF ¶ 27; Chaim Rosenberg Decl. ¶ 14; M.
Babad Decl. ¶¶ 14-17; Jacob Hershkowitz Decl. ¶¶ 18-20;
Meilech Menczer Decl. ¶¶ 14-15; Resnicoff Decl. ¶ 30-31,
33-38.) Any unjustified detraction from Torah study is a
sin, known as bitul Torah. (Meilech Menczer Decl. ¶ 15.)

177a
Appendix B
To avoid bitul Torah, Tartikov wants to build a Torah
community—a community that exists nowhere else in the
United States, (see Pls.’ FOF ¶ 51), the purpose of which is
to isolate the students from the distractions of the outside
world, permitting them to devote themselves to the study
of Jewish law, (see Pls.’ FOF ¶ 69; Resnicoff Decl. ¶¶ 6870). Living in such a community facilitates the learning
experience because the students live among their fellow
students and teachers. (See Tauber Decl. ¶ 25.) The desire
to create this type of community is grounded in religious
texts that, for example, direct Jews to “[e]xile yourself to
a place of Torah.” (Resnicoff Decl. ¶ 70 (internal quotation
marks omitted).) A second motivation for Plaintiffs’ desire
for on-campus housing is that they believe the rabbinical
college would otherwise be unsuccessful in training
judges versed in the four books of the Shulchan Aruch.
(See Tauber Decl. ¶ 56 (“[O]ur prior experiences have
confirmed that the effort that we plan to undertake cannot
succeed if students are not living together with likeminded students and their families.”).) Tauber explained
that over the past 30 years students at two other kollels
in the area have not been successful in finishing all four
books. (See Trial Tr. 69.) Tartikov believes that the only
way to fix this problem is to create a Torah community.
(See id. at 69-70.)
By themselves, these religious beliefs would justify
the existence of student housing on the Subject Property.
The necessity for family housing is explained by other
of Plaintiffs’ beliefs. Jewish law requires men to live
with their families. (See Chaim Rosenberg Decl. ¶ 55
(“According to my religious beliefs, I must live with my

178a
Appendix B
family.”); Jacob Hershkowitz Decl. ¶ 86(n) (“Jews are
obligated to live with [their] family.”); Meilech Menczer
Decl. ¶ 38(n) (same).) Jewish men are also required to
marry at a young age, have large families, and teach
their children the Torah. (See Trial Tr. 197; Pls.’ FOF
¶¶ 24-25.) Thus:
Only by [students] being able to live in a Torah
Community, a Bais Din community where they
live together with their families on-site where
the entire community who lives there together
are immersed 24/7 into the Torah studies
all of them together with their rabbis, with
their mentors, where they are always there
together studying, all of them learning the
same Shulchan Aruch, all together, full-time,
they’re fully supported by their families, by
their wives, their children, being all together
they’re not distracted, they’re not in any way
falling, dropping out because the circumstances
of the family does not allow it, therefore, by
them—in addition to the religious beliefs,
where it’s so many times mentioned in our text
in the Torah, the importance of living in the
Torah Community, in addition to that, those
who don’t live in a Torah Community cannot
immerse themselves 24/7 into the Torah studies
and they’re losing out time because of that
which those who don’t live there and don’t live
that kind of a lifestyle do not fulfill their full
religious beliefs, they cannot, they don’t have
the ability sometimes. If they can’t, they can’t.

179a
Appendix B
Our goal is, and we strongly believe that this
is the only way, not only for them to be able to
fulfill their religious beliefs, but this is the only
way it’s going to get them to accomplish what
we’re looking for them to accomplish. To be able
to stay on for 15, 16 [years], sometimes more as
needed to complete everything and to be able
to become certified judges.
(Trial Tr. 69-70.) As a matter of religious faith, the
Students are motivated to live in this type of community.
(See Chaim Rosenberg Decl. ¶ 54 (“My religious beliefs
motivate me to be part of such a Torah community.”); Jacob
Hershkowitz Decl. ¶ 49 (“To become a rabbinical judge,
I must participate in a program that teaches Shulchan
Aruch, and do so in a community of like-minded students
and teachers, what we refer to as a Torah community.”);
Meilech Menczer Decl. ¶ 46 (“My religious beliefs motivate
me to become part of this Torah Community’s living,
learning, and worshipping environment as proposed by
the Congregation Rabbinical College of Tartikov.”).)
Defendants argue that having family housing on a
rabbinical college campus is not a religious belief, citing
testimony offered by the Students and Tauber. (See
Defs.’ Mem. 30-32.) For example, Jacob Hershkowitz
and Chaim Rosenberg testified that traveling from offcampus housing to campus is not bitul Torah. (See Trial
Tr. 167 (Chaim Rosenberg affirming that “the time [he]
spend[s] going back and forth to the kollel is justifiable
time”); id. at 235-36 (Jacob Hershkowitz affirming that
he is “not committing a sin when [he] travel[s] to and

180a
Appendix B
from the kollel”).) Chaim Rosenberg also testified that
someone building a kollel without on-campus housing
would get “rewarded” for building the kollel because
“[n]ot everybody has the means.” (Id. at 168.) Furthermore,
Tauber testified that he does not believe that “Tartikov
students are religiously obligated to live in multifamily
housing,” (id. at 128), and Meilech Menczer stated that
his religion does not require him to live in multi-family
housing because “there’s no requirement how housing
should be,” (id. at 278).
The Court sees two problems with Defendants’
argument. First, it is based on a misstatement of Tartikov’s
proposal. Defendants are fixated on the provision of student
family housing, but completely ignore the other aspects
of Tartikov’s plan. It is not simply to build multi-family
housing within the Village for Orthodox/Hasidic Jews, it
is to build on-campus housing for rabbinical students and
their families in a manner consistent with Jewish law and
the Students’ beliefs. The purpose of the housing is to
facilitate religious exercise, bringing it within RLUIPA’s
protections. See 42 U.S.C. § 2000cc-5(7)(B) (“The use,
building, or conversion of real property for the purpose
of religious exercise shall be considered to be religious
exercise of the person or entity that uses or intends to
use the property for that purpose.”); see also Fifth Ave.
Presbyterian Church v. City of New York, 293 F.3d 570,
574-75 (2d Cir. 2002) (finding provision of a location for
homeless to sleep to be religious exercise); Candlehouse,
Inc. v. Town of Vestal, No. 11-CV-93, 2013 U.S. Dist.
LEXIS 63353, 2013 WL 1867114, at *18 (N.D.N.Y. May
3, 2013) (noting that there was sufficient evidence at the

181a
Appendix B
summary judgment phase to create a dispute of fact as to
whether the residential component of a religious ministry
for substance abuse was part of the plaintiff’s religious
exercise); Bikur Cholim, 664 F. Supp. 2d at 276 (holding
that operation of “a facility to enable observant individuals
to visit the sick on the Sabbath and holidays as well as the
other individual plaintiff’s [sic] obligations to observe the
Sabbath while being able to visit their family members at
[a nearby hospital] implicate[s] their religious exercise”);
Mintz v. Roman Catholic Bishop of Springfield, 424 F.
Supp. 2d 309, 319 (D. Mass. 2006) (holding that a church’s
proposed development of a “parish center” that would
“house an office for religious education[,] and . . . serve as
a meeting place for the parish council . . . [and as] the locus
of small gatherings related to church services” constituted
“religious exercise” under RLUIPA).
Second, the testimony upon which Defendants rely
is of little value. Focusing on whether it is bitul Torah
to travel from off-campus housing to campus ignores
all of the other aspects of Tartikov’s proposed Torah
community. Tartikov is not seeking to create on-campus
housing to cut down on travel time, but rather to create
a particular type of living and learning community—one
that is free from the distractions of the outside world
and permits students to focus on studying to Torah day
and night, while surrounded by like-minded individuals.
(See Pls.’ FOF ¶¶ 27, 69; Tauber Decl. ¶ 25.) Tauber’s and
Meilech Menczer’s testimony that Tartikov’s students
are not religiously required to live in “multifamily
housing” is similarly of little value. (See Trial Tr. 128,
278.) Defendants place too much reliance on it because the

182a
Appendix B
Court understands this testimony to mean exactly what
the witnesses stated—there is no religious obligation to
live in “multifamily housing.” Plaintiffs, however, have
professed a sincere religious belief based on religious
doctrine to live on campus with their families, whether
that housing be “multifamily” or otherwise. Meilech
Menczer summed it up best: “there’s no requirement how
housing should be.” (Id. at 278.)27
Defendants also cite the actions of Students to cast
doubt upon the sincerity of their beliefs. (See Defs.’ Mem.
32.) The Students are all currently enrolled at Kollel Belz,
which does not provide on-campus housing. (See Trial Tr.
165, 167, 228, 234, 266.) The implication of this testimony is
that the Students do not sincerely believe that on-campus
housing is necessary because they do not currently live
on-campus or in a Torah community. The Court does not
see it this way. The Students are studying the Torah at
Kollel Belz because they have no other option. They cannot
study in a Torah community because no such community
exists within the United States. (See Pls.’ FOF ¶ 51.)
Defendants also focus on the fact that three of Tartikov’s
trustees were able to study all four books of the Shulchan
Aruch without living in on-campus family housing, (see
Trial Tr. 98), and that Tauber admitted that “if someone
wishes to or he has the will and he can pull through the
27. The Court notes that this interpretation of the Students’
and Tauber’s testimony is supported by the fact that during trial
it was evident that English is not their first language. When these
witnesses said that multi-family housing was not required, they were
not saying that they are not required to live with their families on
campus.

183a
Appendix B
whole program, he can get the studies done,” (id. at 93;
see also id. at 273 (Meilech Menczer stating that “in order
to become a rabbinical judge, there’s no requirement the
way you have to study”).) This testimony reveals that there
may be other ways to become conversant in the Shulchan
Aruch, but does not discredit the Students’ beliefs that
they “have to live in a Torah community in order to study,
to succeed in the studies to become a rabbinical judge.”
(Trial Tr. 273.) The effectiveness of these alternative
avenues also is in serious doubt because over the past 30
years, students studying at the kollel at which the three
Tartikov trustees studied have not successfully completed
all four books of the Shulchan Aruch. (Trial Tr. 69; see
also id. 439 (“[T]he[] other programs in America are not
designed . . . to create people who really know Jewish
law.”).) Plaintiffs blame that failure on the absence of a
Torah community, the purpose of which is to facilitate
the learning environment. (See id. at 439 (“[T]he reason
why the[] [students] have to live together with them, the
other students, and with the teachers, is because they
learn from the other students and they really learn from
the teachers.”).)
Accordingly, the Court concludes that Plaintiffs’
religious beliefs regarding the Torah community are
sincere.
ii. 	The Burden Imposed by the Challenged
Laws
RLUIPA does not itself define the phrase “substantial
burden,” but the Second Circuit has held that a land use

184a
Appendix B
regulation constitutes a “substantial burden” within the
meaning of RLUIPA if it “directly coerces the religious
institution to change its behavior.” WDS II, 504 F.3d at
348-49. “The burden must have more than a minimal
impact on religious exercise, and there must be a close
nexus between the two.” Fortress Bible II, 694 F.3d at
219. Among the types of burdens the courts have found
to be minimal, and hence not protected by RLUIPA, are
facially neutral permit and variance requirements. Thus,
courts have regularly found that zoning ordinances that
merely require religious institutions to go through a
routine permit or variance application process do not run
afoul of RLUIPA. See, e.g., id. (“A denial of a religious
institution’s building application is likely not a substantial
burden if it leaves open the possibility of modification and
resubmission.”); Konikov v. Orange County, 410 F.3d
1317, 1323 (11th Cir. 2005) (“[R]equiring applications
for variances, special permits, or other relief provisions
[does] not offend RLUIPA’s goals.”); San Jose Christian
Coll. v. City of Morgan Hill, 360 F.3d 1024, 1035 (9th Cir.
2004) (holding that a city’s requirement that the plaintiff
refile a “complete “ permit application did not constitute
a substantial burden (emphasis omitted)); Civil Liberties
for Urban Believers v. City of Chicago, 342 F.3d 752, 76162 (7th Cir. 2003) (“CLUB”) (finding that “the scarcity of
affordable land available for development in R zones, along
with the costs, procedural requirements, and inherent
political aspects of the Special Use, Map Amendment,
and Planned Development approval processes” did not
impose substantial burden on religious institutions); Hale
O Kaula Church v. Maui Planning Comm’n, 229 F. Supp.
2d 1056, 1071 (D. Haw. 2002) (holding that laws requiring

185a
Appendix B
special use permits did not impose a substantial burden
on religious institution). Indeed, to exempt religious
institutions from the normal permit/variance process
would result in favoring these institutions, something
which neither RLUIPA nor the Free Exercise Clause
more generally require (and which the Establishment
Clause might prohibit). See CLUB, 342 F.3d at 762
(“Otherwise, compliance with RLUIPA would require
municipal governments not merely to treat religious land
uses on an equal footing with nonreligious land uses, but
rather to favor them in the form of an outright exemption
from land-use regulations. . . . [N]o such free pass for
religious land uses masquerades among the legitimate
protections RLUIPA affords to religious exercise.”);
WDS I, 386 F.3d at 189 (“As a legislative accommodation
of religion, RLUIPA occupies a treacherous narrow zone
between the Free Exercise Clause, which seeks to assure
that government does not interfere with the exercise of
religion, and the Establishment Clause, which prohibits
the government from becoming entwined with religion in
a manner that would express preference for one religion
over another, or religion over irreligion.”).
While RLUIPA does not exempt religious institutions
from complying with facially neutral permit and variance
applications procedures, it does not wholly exempt zoning
laws from scrutiny. Rather, RLUIPA protects religious
institutions from land use regulations that substantially
affect their ability to use their property in the sincere
exercise of their religion. See Fortress Bible II, 694
F.3d at 218 (“[T]o hold that RLUIPA is inapplicable to
what amounts to zoning actions taken in the context of a

186a
Appendix B
statutorily mandated environmental quality review would
allow towns to insulate zoning decisions from RLUIPA
review. . . . [The court] decline[s] to endorse a process that
would allow a town to evade RLUIPA by what essentially
amounts to a re-characterization of its zoning decisions.”).
For example, courts have held zoning ordinances, or
zoning decisions, that significantly lessen the prospect
of a religious institution’s being able to use the property
to further its religious mission can contravene RLUIPA.
See, e.g., Guru Nanak, 456 F.3d at 992 (holding that the
defendant county’s two denials of variance permits, under
the circumstances, had “to a significantly great extent
lessened the prospect of [the religious institution] being
able to construct a temple in the future,” thus imposing
a “substantial burden” on the religious institution’s
“religious exercise”); Roman Catholic Diocese of
Rockville Centre, 2012 U.S. Dist. LEXIS 56694, 2012 WL
1392365, at *8 (upholding plaintiff’s facial challenge to
zoning law because plaintiff had adequately alleged that
the “conditions imposed by the [law] would significantly
restrict the [plaintiff’s] use of their [p]roperty for religious
burial purposes”). Zoning schemes that impose conditions
on the use of the property, such as limitations on the
size of the facilities that can permissibly be used by the
religious institution, also may impose a substantial burden.
See Cathedral Church of the Intercessor v. Inc. Village
of Malverne, No. 02-CV-2989, 2006 U.S. Dist. LEXIS
12842, 2006 WL 572855, at *8 (E.D.N.Y. Mar. 6, 2006)
(finding that the plaintiff adequately alleged a substantial
burden, where space limits imposed by the defendants
“constrained” the ability of the church’s parishioners to
“observe or participate” in religious services).

187a
Appendix B
Courts likewise have found a substantial burden
where municipal zoning schemes impose significant “delay,
uncertainty, and expense.” Sts. Constantine & Helen,
396 F.3d at 901; see also WDS II, 504 F.3d at 349 (noting
that “a complete denial” of a religious institution’s zoning
application which results in substantial “delay, uncertainty,
and expense” can be a substantial burden (internal
quotation marks omitted)); Grace Church of N. Cty. v. City
of San Diego, 555 F. Supp. 2d 1126, 1137-39 (S.D. Cal. 2008)
(finding that the plaintiff had established a substantial
burden based on the uncertainty and expense resulting
from the municipality’s zoning regulations and from
municipal officials’ consistent hostility toward plaintiff
in their review of the plaintiff’s land use applications).
In one recent case, the Second Circuit held that when
a municipality’s “willingness to consider [a] proposal is
disingenuous, a conditional denial may rise to the level of
a substantial burden,” Fortress Bible II, 694 F.3d at 219,
and “when [a] town’s actions are arbitrary, capricious,
unlawful, or taken in bad faith, a substantial burden
may be imposed because it appears that the [religious
institution] may have been discriminated against on the
basis of its status as a religious institution,” id. In sum,
“a complete denial” of a religious institution’s intended
or applied-for use of its property “is not necessary for
the Court to find that the government regulation . . .
impose[s] a substantial burden on religious exercise.”
Cathedral Church, 2006 U.S. Dist. LEXIS 12842, 2006
WL 572855, at *8; see also Sts. Constantine & Helen,
396 F.3d at 899-901 (finding that to establish substantial
burden, a religious group need not “show that there was
no other parcel of land on which it could build its church”);

188a
Appendix B
Westchester Day Sch. v. Village of Mamaroneck, 379 F.
Supp. 2d 550, 556-57 (S.D.N.Y. 2005) (same).
The Second Circuit has not provided an exhaustive
list of factors to be considered in determining whether
a substantial burden has been imposed. Relevant
considerations, however, include “whether the law is
neutral and generally applicable,” the arbitrary and
unlawful nature of defendant’s conduct, “whether feasible
alternatives exist[] for [the plaintiff] to exercise its faith,”
and whether the plaintiff “reasonably believed” it would
be able to undertake its proposal “when it purchased the
property.” See Chabad Lubavitch, 768 F.3d at 195-96;
see also Roman Catholic Bishop of Springfield v. City
of Springfield, 724 F.3d 78, 96-97 (1st Cir. 2013) (listing
factors courts have considered relevant when determining
whether a land use restriction imposes a substantial
burden).
Taken together, the Challenged Laws substantially
burden Plaintiffs’ religious exercise in several ways.
The Accreditation Law prevents Tartikov from building
a rabbinical college within the Village because only
accredited educational institutions are eligible for special
use permits, see Village Code § 130-4, and Tartikov
cannot be accredited by any accrediting body, (see Trial
Tr. 446-51; Kinser Decl. ¶¶ 29, 41; Pls.’ Ex. 2.) Defendants
argue that this issue is easily fixable and therefore
does not present a substantial burden. (See Defs.’ Mem.
39-42.) In some respects, this argument is appealing.
Tartikov could make some changes that put it on the
road to accreditation. (See Trial Tr. 453-57.) For example,

189a
Appendix B
Tartikov was informed that it cannot be accredited by
the Association of Advanced Rabbinical and Talmudic
Schools because its proposed curriculum is not broad
enough and it would need to offer an admissions test. (See
Pls.’ Ex. 2.) Likewise, Tartikov cannot be accredited by
the Board of Regents because it does not plan to award a
degree recognized by that body. (See Kinser Decl. ¶ 29.)
Plaintiffs have not explained why Tartikov cannot offer
an admissions test or what burden Tartikov would suffer
if it had to change its curriculum to offer a wider array of
programs. Indeed, Plaintiffs have taken the questionable
position that they do not have to make any changes to
their rabbinical program, no matter how insubstantial
the burden. (See Trial Tr. 116 (“There was no discussion
about changing the curriculum, our curriculum is what
it is, and were are not going to change the purpose of our
curriculum of certifying the judges for the four volumes
of the Shulchan Aruch to be accredited . . . .”).) This
cannot be the case, as RLUIPA requires that Plaintiffs
demonstrate a substantial burden; Tartikov cannot hide
behind RLUIPA to avoid making insubstantial changes.
At the very least, offering an admissions test appears to
represent an insubstantial change, as Plaintiffs have not
provided a religious basis for Tartikov’s decision to admit
students without any such examination.
Defendants’ argument, however, suffers from a
fatal flaw. Tartikov must be operational before it can be
accredited, but Tartikov cannot become operational until it
obtains a special use permit, which requires accreditation.
(See Trial Tr. 452.) Therefore, even if Tartikov changed
its curriculum and instituted an admissions test, it cannot

190a
Appendix B
be accredited. Defendants contend that Plaintiffs could
seek provisional accreditation to overcome this problem,
explaining that the American Bar Association regularly
grants provisional accreditation to law schools, (Defs.’
Mem. 41 & n.41), but there is no evidence that Plaintiffs
can pursue that avenue here. Indeed, Defendants offer no
proof that Plaintiffs could seek provisional accreditation
from the Board of Regents, the Association of Advanced
Rabbinical and Talmudic Schools, or any other body
that accredits rabbinical colleges. Accordingly, the
Court concludes that the Accreditation Law imposes a
substantial burden of Plaintiffs’ religious exercise. This
holding is significant because it does not require the Court
to examine any of the peculiarities of Tartikov’s proposal,
i.e., the creation of a Torah community. Indeed, Defendants
argue repeatedly that the issue in this case “is whether
Plaintiffs have demonstrated that the [Challenged] Laws
impose a substantial burden on their wish to build a
rabbinical college in Pomona.” (Defs.’ Mem. 44.) Thus,
even under Defendants’ understanding of the issues
presented in the case, Plaintiffs have demonstrated a
substantial burden because they cannot build a rabbinical
college on any parcel of land within the Village.
The Dormitory Law similarly presents a substantial
burden on Plaintiffs’ use of the Subject Property, because
the law prohibits dormitories from occupying more than
20% of the total square footage of all of the educational
institution’s buildings and prohibits the development of
“multi-family dwelling units” with separate “cooking,
dining or housekeeping facilities.” Village Code §§ 130-4,
130-10(F)(12). Defendants contend that the 20% square

191a
Appendix B
footage limitation on dormitories does not represent a
substantial burden because Plaintiffs need only increase
the size of the academic buildings on the campus to
increase the capacity of the dormitory building. (See Defs.’
Mem. 36-37.) Plaintiffs concede that the 20% restriction
does not represent a total prohibition of their proposed
use, as Plaintiffs could construct a dormitory building,
but argue that the limitation renders their use effectively
impracticable. (Pls.’ Mem. 16.) The Court agrees with
Plaintiffs; this size limitation places a substantial burden
on Plaintiffs’ religious exercise because it prevents them
from building a Torah community. See Cathedral Church,
2006 U.S. Dist. LEXIS 12842, 2006 WL 572855, at *8 (“[A]
complete denial . . . is not necessary for the Court to find
that the government regulation . . . impose[s] a substantial
burden on religious exercise.”). As discussed above in the
context of Plaintiffs’ equal protection claim, Plaintiffs
would have to build academic buildings totaling 100,000
square feet to house roughly 30 students. 28 However,
Plaintiffs do not seek to build 100,000 square feet of
academic buildings because academic buildings for small
colleges typically cover no more than 30,000 to 45,000
square feet. (Pls.’ Ex. 1505 ( ¶ 45.) Thus, the Dormitory
Law needlessly requires Tartikov to construct academic
28. In their Post-Trial Proposed Findings of Fact, Plaintiffs
state that the Challenged Laws restrict the number of students that
could be housed at Tartikov’s rabbinical college to approximately 6
to 8 students. (See Pls.’ FOF ¶ 396.) This assertion finds no support
in the record. The 20% housing space restriction is tied to the size of
the other buildings on the property. No evidence was offered about
the size of the other buildings that are going to be built upon the
Subject Property.

192a
Appendix B
buildings far in excess of its need to achieve its intended
purpose.
Defendants argue that the prohibition on multi-family
housing does not place a substantial burden on Plaintiffs’
religious exercise because Plaintiffs have “feasible
alternatives” available to them. (Defs.’s Mem. 38 (quoting
Chabad Lubavitch, 768 F.3d at 196).) During trial, Tauber
testified that a “subagent” of Tartikov, Pomona 306 LLC,
was formed to purchase other property in the Village,
including 30 acres of property abutting the Subject
Property upon which 14 single family homes are built. (See
Trial Tr. 128.) Tauber also testified that Tartikov currently
has 10 prospective students. (See id. at 79.) Defendants
argue that these 10 students could live in the single family
residences owned by Pomona 306 LLC and thus Tartikov
has all of the housing it presently needs. (See Defs.’ Mem.
38.)29 The Court does not consider this arrangement to be
feasible. Although Tartikov presently has 10 students, it
is burdensome to limit Tartikov’s student body to 14. 30
29. Defendants also argue that Tartikov could subdivide the
Subject Property and build single family residences to house the
students. (See Defs.’ Mem. 38.) The problem with this argument is
that it would not result in the quantity of homes that Defendants
imply because even though the Subject Property is approximately 100
acres, Tartikov needs at least 10 acres to comply with the minimum
lot area requirements for educational institutions, see Village Code
§ 130-10(F)(1)(a), and would additionally have to subtract the area
for wetlands, steep slopes, and utility easements, see id. § 118-25(C).
30. The Court assumes that Defendants’ response to this
argument would be that Plaintiffs could continue buying property in
the Village as needed. The Court concludes that this arrangement is

193a
Appendix B
Defendants’ argument is also premised on its belief that
the Dormitory Law is otherwise valid. As discussed
above, and as will be discussed in further detail below, the
Dormitory Law represents a substantial burden because
of its discriminatory purpose. See Chabad Lubavitch,
768 F.3d at 195 (noting that the Second Circuit considers
many factors in determining whether a challenged action
imposes a substantial burden, including “the ‘arbitrary
and unlawful nature’ of [the] defendant’s conduct” (quoting
WDS II, 504 F.3d at 352)).
Along these same lines, Defendants argue that the
prohibition on multi-family housing does not impose a
burden of Tartikov’s proposed rabbinical college because
Plaintiffs’ do not need a Torah community on campus to
have a successful rabbinical college. (See Defs.’ Mem.
42-43.) In WDS II, the Second Circuit “expressed doubt
as to whether RLUIPA immunize[s] all conceivable
improvements by religious schools.” 504 F.3d at 347. To
receive protection from RLUIPA “religious schools need
to demonstrate more than that the proposed improvement
would enhance the overall experience of its students.” Id.
The Second Circuit cited gymnasiums used “exclusively
for sporting activities” and a headmaster’s residence
as examples of improvements that may fall outside of
RLUIPA’s protections. Id. Thus, Tartikov must show
not a feasible alternative. Tartikov owns sufficient land upon which
it can build the on-campus housing it seeks. Defendants’ passage of
laws designed to target multi-family housing for Orthodox/Hasidic
Jews imposes a substantial burden on Plaintiffs religious exercise.
But for this burden, Plaintiffs could apply for a permit to build what
they seek without the need to buy yet more property.

194a
Appendix B
that on-campus housing will be “used at least in part for
religious education and practice.” Id. at 348.
Defendants argue that Plaintiffs cannot meet
this standard, citing the aforementioned testimony
of certain witnesses explaining and highlighting the
differences between Tartikov’s rabbinical college and a
Torah community. Also, Chaim Rosenberg testified that
“[t]here’s no requirement to—in order to become a
rabbinical judge, there’s no requirement the way you have
to study.” (Trial Tr. 273.) Mordechai Babad, Tartikov’s
proposed dean, described a Torah community as the
“ideal” learning environment, but he was able to become
a qualified rabbinical judge without living in such a
community. (Id. at 213-14.) Tauber testified that living in
a Torah community “has nothing to do with . . . Tartikov
about the judges.” (See id. at 95.) The Students also
testified that they cannot study the Torah at home by
themselves. (See id. at 184 (Chaim Rosenberg affirming
that he cannot “study to become a rabbinical judge at
home”); id. at 244 (Jacob Hershkowitz stating that he
cannot study at home “without . . . students and teachers”);
id. at 285 (Meilech Menczer explaining that the study
of Torah “usually takes place with a study partner”).)
Defendants take this testimony to mean that Tartikov
can build a rabbinical college without a Torah community.
While rabbinical colleges can and do exist without
on-campus housing, Defendants’ argument ignores the
sincere religious purpose that the Torah community will
serve here. Tartikov’s students will not study at home
by themselves because that is not how Orthodox/Hasidic

195a
Appendix B
Jews study the Torah. Meilech Menczer explained that
the study of the Torah is usually done in study groups
where “everybody has a partner.” (Id. at 286.) The study
of the Torah also “depends heavily on immersing oneself
in a community of Torah scholars.” (Resnicoff Decl. ¶ 75.)
The provision of on-campus housing is a means to serve
these ends. And while Tartikov’s students are not required
to study the Torah in any particular way, they sincerely
believe that they have to live in a Torah community to
“succeed in the study to become a rabbinical judge.” (Trial
Tr. 274.) Accordingly, Plaintiffs have made the connection
between their religious exercise and the provision of
on-campus housing and have demonstrated that the
Dormitory Law substantially burdens that religious
exercise by banning student family housing outright.
With respect to the Wetlands Law, the 100-foot buffer
prohibits Tartikov from building a driveway onto the
campus because the location in which the driveway must
be located falls within 100 feet of regulated wetlands.
(See Trial Tr. 1018; Beall Decl. ¶ 250.) This law would not
be problematic if Tartikov’s rabbinical college could be
built elsewhere in the Village, but the Subject Property
is the only vacant, non-government owned parcel large
enough to satisfy the minimum net lot requirement of
10 acres for educational institutions. (See Trial Tr. 310.)
Defendants, ignoring the problem with the driveway,
argue that Plaintiffs can build a rabbinical college on the
Subject Property without running afoul of the Wetlands
Law. (See Defs.’ Mem. 37.) This argument is beside the
point, as it is undisputed that a rabbinical college could
be built upon the Subject Property but for the need for a

196a
Appendix B
new driveway. (See Trial Tr. 1012 (Beall testifying that the
rabbinical college “would have no impacts on the wetlands
but for the access drive”)).
Defendants’ second argument is stronger. They
contend that any burden on Plaintiffs’ religious exercise
existed before the passage of the Wetlands Law because
the wetlands on the Subject Property were already
regulated by federal and state law. (See Defs.’ Mem. 37;
see also Trial Tr. 981 (Beall testifying that 99% of the
Village’s wetlands are regulated by state and local law).)
The problem, however, is that the standard for receiving
a permit under the Wetlands Law is much more stringent
than under federal and state law. A permit applicant under
the Wetlands Law must show that the law “results in a
deprivation of the reasonable use of a property so as to
constitute a de facto taking.” Village Code § 126-5. The
“taking” requirement does not exist under federal or state
law. See 40 C.F.R. § 230.10 (setting forth the standard
for the issuance of a permit under § 404 of the Clean
Water Act as precluding permit “if there is a practicable
alternative to the proposed discharge which would have
less adverse impact on the aquatic discharge, so long as
the alternative does not have other significant adverse
environmental consequences”); N.Y. Comp. Codes R. &
Regs. tit. 6, § 665.7 (2017) (setting standards for permit
issuance, including “weighing of need against benefits”).
(See also Beall Decl. ¶¶ 60 (describing N YSDEC
regulations covering wetland areas in the Village), 123
(“The Village’s standard is unlike any other standard I
have reviewed in other wetlands regulation in New York
State.”).) It is undisputed that Tartikov cannot establish

197a
Appendix B
that “the Challenged Laws have deprived it of economically
reasonable use or value of the Subject Property, as it may
be developed with single family residences.” (Joint Pretrial
Order Stipulations of Law ¶ 18.) Accordingly, the Court
concludes that the Wetlands Law imposes a substantial
burden on Plaintiffs’ religious exercise.
Defendants offer one other alternative means of
alleviating these burdens, arguing that Plaintiffs could
seek a text amendment or a zone change, but have done
neither. (See Defs.’ Mem. 41.) Before addressing the merits
of this argument, one clarification is necessary. Text
amendments and zone changes are the same thing. A zone
change requires an amendment to the zoning law. (See
Trial Tr. 786.) Therefore, no matter what Defendants want
to call the process, Defendants contend that Plaintiffs
cannot succeed on a substantial burden claim until they
request an amendment to the Village Code.
Turning to the merits, the Board of Trustees is the
body responsible for determining whether to amend the
zoning laws and the Board is not required to consider
a petition for a text amendment. (See Trial Tr. 783.)
The amendment process thus leaves Plaintiffs at the
mercy of the same body that has a now-proven history of
discriminating against them. This history demonstrates
that a zoning amendment does not represent a feasible
solution. See Grace Church, 555 F. Supp. 2d at 1138
(granting summary judgment to the plaintiff based on
evidence that the plaintiff had “no reasonable expectation
that any application for an extension” to use its property
would be granted).

198a
Appendix B
The discriminatory nature of the Challenged Laws
bolsters Plaintiffs’ substantial burden claim. See Fortress
Bible II, 694 F.3d at 219 (“[W]hen the town’s actions are
arbitrary, capricious, unlawful, or taken in bad faith, a
substantial burden may be imposed because it appears
that the applicant may have been discriminated against
on the basis of its status as a religious institution.”); WDS
II, 504 F.3d at 350 (“The arbitrary application of laws to
religious organizations may reflect bias or discrimination
against religion.”); id. at 351 (“Where the arbitrary,
capricious, or unlawful nature of a defendant’s challenged
action suggests that a religious institution received less
than even-handed treatment, the application of RLUIPA’s
substantial burden provision usefully backstops the
explicit prohibition of religious discrimination in the later
section of the Act.” (internal quotation marks omitted));
see also Sts. Constantine & Helen, 396 F.3d at 900 (“If
a land-use decision . . . imposes a substantial burden on
religious exercise . . . and the decision maker cannot
justify it, the inference arises that hostility to religion, or
more likely a particular sect, influenced the decision.”). As
discussed above, Defendants have failed to offer a credible
justification for the Challenged Laws, suggesting that
their only purpose was to single out Tartikov and other
Orthodox/Hasidic land uses.
There is one consideration, however, that weighs
against finding that all of the Challenged Laws impose
a substantial burden. The Second Circuit has instructed
district courts to consider whether a plaintiff “reasonably
believed it would be permitted to undertake its proposed
modifications when it purchased the [relevant] property.”

199a
Appendix B
Chabad Lubavitch, 768 F.3d at 196. Plaintiffs proffer an
interesting interpretation of what restrictions were in
place prior to Tartikov’s purchase of the Subject Property.
(See Pls.’ Mem. 17-18.) They argue that only certain
building coverage and floor area restrictions were in place,
but that otherwise, Tartikov’s proposed use would have
been permitted prior to the adoption of Local Law No. 5
of 2004, which is the first law that placed restrictions on
dormitories. (See id.; Local Law No. 5 of 2004.) Plaintiffs’
understanding of the restrictions in place prior to its
purchase of the Subject Property in August 2004 is
incorrect. Educational institutions have been subject to an
accreditation requirement since at least 2001. Local Law
No. 1 of 2001 mandated that all educational institutions
be “duly licensed by the State of New York.” (Local Law
No. 1 of 2001 § 2.)31 The accreditation requirement was
amended after Tartikov purchased the property, but
the amendment broadened the number of accrediting
bodies from which Tartikov could seek accreditation,
arguably lessening the burden imposed by the original
requirement. See Local Law No. 5 of 2004 § 1 (requiring
that educational institutions be “accredited by the New
York State Education Department or similar recognized
accrediting agency”). During trial, Tauber admitted
that he was not aware “that educational institutions had
to be duly licensed by New York State” until after he
purchased the property and that he has never spoken to
a New York State official about accreditation. (Trial Tr.
31. The Court reiterates that Local Law No. 1 of 2001 was
adopted after town officials learned about YSV’s plans to build a
school. (See Pls.’ Exs. 111, 130 (FPC memoranda regarding updates
to the Village Code in light of YSV’s proposal).)

200a
Appendix B
112-13.) Moreover, even if the accreditation requirement
was imposed in 2004 shortly after Tartikov purchased the
property, there is no evidence that Tartikov, or anyone
associated with Tartikov, examined the accreditation
requirements until January 2007, when Tauber met
with a representative from the Association of Advanced
Rabbinical and Talmudic Schools. (See Pls.’ Ex. 2.)
Therefore, Tartikov’s supposed belief in 2004 that it could
build an unaccredited rabbinical college within the Village
should not have been free of doubt. Even setting aside the
accreditation requirement, there is no evidence about what
Tauber and Tartikov reasonably believed could be built
on the Subject Property because no one examined the
zoning restrictions placed on the Subject Property until
after Tartikov purchased the land. (See Trial Tr. 104-08.)
In the absence of other evidence, this deficiency
may have been fatal. See Petra Presbyterian Church v.
Village of Northbrook, 489 F.3d 846, 851 (7th Cir. 2007)
(“Having decided to go ahead and purchase the property
outright after it knew that the permit would be denied, [the
plaintiff] assumed the risk of having to sell the property
and find an alternative site for its church should the denial
be upheld . . . just like any other religious organization that
wanted to build in the industrial zone.”). However, all of
the Challenged Laws were passed for a discriminatory
purpose and they bar completely Tartikov’s rabbinical
college from the Village. See id. (“Any such organization
would have to show that a paucity of other land available
for churches made the exclusion from the industrial zone
a substantial burden to it.”); Bethel World Outreach
Ministries v. Montgomery Cty. Council, 706 F.3d 548, 558

201a
Appendix B
(4th Cir. 2013) (“[W]e find it significant that the County
has completely prevented [the plaintiff] from building
any church on its property, rather than simply imposing
limitations on a new building.”). Therefore, the Court
concludes that Plaintiffs have carried their burden of
showing that the Challenged Laws substantially burden
their religious exercise.
iii. Compelling Governmental Interest &
Least Restrictive Means
Plaintiffs having carried their burden, Defendants
must demonstrate that the Challenged Laws were
adopted “in furtherance of a compelling governmental
interest” and that they were “the least restrictive means
of furthering that compelling governmental interest.” 42
U.S.C. § 2000cc(a)(1)(A)-(B); see also Chabad Lubavitch,
768 F.3d at 192 (same). For the same reasons discussed
above in the context of Plaintiffs’ equal protection
claim, Defendants have failed to carry their burden.
Defendants have proffered no compelling governmental
interest justifying the Challenged Laws. Even more
fundamentally, Defendants have not proffered a credible
justification for their passage. Had Defendants shown
a compelling governmental interest, their defense
nonetheless would have failed because the Challenged
Laws are not the least restrictive means of achieving their
desired goals. Defendants are able to limit the size and
scope of Plaintiffs’ use through other provisions in the
Village Code. Before Plaintiffs can build any rabbinical
college, they must obtain a special permit from the Board
of Trustees, see Village Code § 130-10(F), obtain site plan

202a
Appendix B
approval from the Village Planning Board, see id., and go
through the Village’s architectural review process, see
id. § 3-4(a). Defendants have not credibly explained why
these processes are inadequate to protect any interests
that they seek to protect.
Accordingly, the Court concludes that Plaintiffs
have proven a violation of RLUIPA’s substantial burden
provision.
3. 	Free Exercise
Plaintiffs contend that the Challenged Laws burden
the free exercise of their religion. The First Amendment,
which is applicable to the states by operation of the
Fourteenth Amendment, “prohibits the enactment of
any law prohibiting the free exercise of religion.” Bronx
Household of Faith v. Cmty. Sch. Distr. No. 10, 127 F.3d
207, 216 (2d Cir. 1997) (internal quotation marks omitted);
see also Hosanna-Tabor Evangelical Lutheran Church
and Sch. v. E.E.O.C., 565 U.S. 171, 181, 132 S. Ct. 694, 181
L. Ed. 2d 650 (2012) (“The First Amendment provides,
in part, that Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof.” (internal quotation marks omitted)). “Because
the free exercise of religion means, first and foremost, the
right to believe and profess whatever religious doctrine
one desires, courts are not permitted to inquire into the
centrality of a professed belief to the adherent’s religion or
to question its validity in determining whether a religious
practice exists.” Fifth Ave. Presbyterian Church, 293 F.3d
at 574 (alteration and internal quotation marks omitted).

203a
Appendix B
“An individual claiming violation of free exercise rights
need only demonstrate that the beliefs professed are
sincerely held and in the individual’s own scheme of things,
religious.” Id. (internal quotation marks omitted).
“At a minimum, the protections of the Free Exercise
Clause pertain if the law at issue discriminates against
some or all religious beliefs or regulates or prohibits
conduct because it is undertaken for religious reasons.”
Lukumi, 508 U.S. at 532; see also Trinity Lutheran
Church, 137 S. Ct. at 2019 (“The Free Exercise Clause
protects religious observers against unequal treatment
and subjects to the strictest scrutiny laws that target the
religious for special disabilities based on their religious
status.” (alteration and internal quotation marks omitted)).
It is not a violation of the Free Exercise Clause, however,
to enforce a generally applicable rule, policy, or statute
that incidentally burdens a religious practice, as long
as the government can “demonstrate a rational basis
for [the] enforcement” of the rule, policy, or statute, and
the burden is only an incidental effect, rather than the
object, of the law. Fifth Ave. Presbyterian Church, 293
F.3d at 574; see also Emp’t. Div., Dep’t of Human Res.
of Or. v. Smith, 494 U.S. 872, 878-79, 110 S. Ct. 1595, 108
L. Ed. 2d 876 (1990) (explaining that enforcement of a
neutral law of general applicability does not offend the
Free Exercise Clause), superseded by statute, 42 U.S.C.
§ 2000bb et seq., as recognized by Holt v. Hobbs, 135 S.
Ct. 853, 859, 190 L. Ed. 2d 747 (2015). Thus, to state a
free exercise claim under the aforementioned Lukumi
standard, a plaintiff must establish that “the object of [the
challenged] law is to infringe upon or restrict practices

204a
Appendix B
because of their religious motivation,” or that the law’s
“purpose . . . is the suppression of religion or religious
conduct.” Lukumi, 508 U.S. at 533. Such a law is subject to
strict scrutiny review, and it “will survive strict scrutiny
only in rare cases.” Id. at 546. A plaintiff alleging such a
“religious gerrymandering” claim, “must be able to show
the absence of a neutral, secular basis for the lines [the]
government has drawn.” Commack Self-Serv., 680 F.3d
at 211 (emphasis and internal quotation marks omitted).
“To determine the object of a law, [the Court] must
begin with its text, for the minimum requirement of
neutrality is that a law not discriminate on its face.”
Lukumi, 508 U.S. at 533. But, even if neutral on its face,
a law may still run afoul of the Free Exercise Clause if it
“targets religious conduct for distinctive treatment.” Id.
at 534 (“Facial neutrality is not determinative.”). As the
Supreme Court has cautioned, the Free Exercise Clause
“forbids subtle departures from neutrality,” id. (internal
quotation marks omitted), and “covert suppression of
particular religious beliefs,” Bowen v. Roy, 476 U.S. 693,
703, 106 S. Ct. 2147, 90 L. Ed. 2d 735 (1986); see also
Lukumi, 508 U.S. at 534 (“Official action that targets
religious conduct for distinctive treatment cannot be
shielded by mere compliance with the requirement of facial
neutrality. The Free Exercise Clause protects against
governmental hostility which is masked, as well as overt.”).
In this regard, courts may find “guidance” in equal
protection jurisprudence, which, among other things,
requires consideration of “both direct and circumstantial
evidence” regarding the goals of those who enacted the law
in question. Lukumi, 508 U.S. at 540. Indeed, “[r]elevant

205a
Appendix B
evidence [of the basis for a law] includes . . . the historical
background of the decision under challenge, the specific
series of events leading to the enactment or official policy
in question, and the legislative or administrative history,
including contemporaneous statements made by members
of the decisionmaking body.” Id. Another measure of a law’s
object is the temporal proximity between the perceived
land use and the adoption of the regulation of that use. See
Vision Church v. Village of Long Grove, 468 F.3d 975, 999
(7th Cir. 2006) (suggesting that the “temporal proximity
between [the plaintiff’s] dispute with the [defendant]
[v]illage over a special use permit and the enactment of
the [o]rdinance” at issue was evidence of the purpose of
the ordinance). Based on these factors, “if the object of
a law is to infringe upon or restrict practices because of
their religious motivation, the law is not neutral.” Lukumi,
508 U.S. at 533.
As the Court has previously held, each of the
Challenged Laws is facially neutral. Tartikov I, 915 F.
Supp. 2d at 621; see also id. at 615 (“[T]he challenged
ordinances are facially neutral with respect to religion
(and race).”). Therefore, absent evidence of discriminatory
intent, only intermediate scrutiny would apply. See Turner
Broad., 512 U.S. at 662 (noting that “the intermediate
level of scrutiny [is] applicable to content-neutral
restrictions that impose an incidental burden on speech”);
Mastrovincenzo v. City of New York, 435 F.3d 78, 98
(2d Cir. 2006) (“Regulations that . . . are . . . contentneutral . . . trigger intermediate, rather than strict,
scrutiny.”); Hobbs v. County of Westchester, 397 F.3d
133, 149 (2d Cir. 2005) (“[A] less stringent test—applying

206a
Appendix B
‘intermediate scrutiny’—is applicable to regulations of
expressive activity that are not based on content.”). Also,
the Parties agree that to succeed on this claim Plaintiffs
must show that their religious beliefs are sincerely held,
that the Challenged Laws burden Plaintiffs’ religious
practice, and that the Challenged Laws were enacted
to infringe upon or restrict religious practices because
of their religious motivation. (See Pls.’ Mem. 23; Defs.’
Mem. 45.)32
Plaintiffs have satisfied each of the elements necessary
to mandate strict scrutiny review. First, the Court has
already explained the underpinnings of Plaintiffs’ religious
beliefs and concluded that those beliefs are sincerely held.
Second, as the Court discussed in relation to Plaintiffs’
RLUIPA substantial burden claim, the burden imposed
by the Challenged Laws is substantial. Finally, drawing
“guidance” from the discussion regarding Plaintiffs’ equal
protection claim, Lukumi, 508 U.S. at 540, the Court holds
that the laws were enacted to infringe upon religious
practices because of their religious motivation.
The Court will briefly reiterate certain of its findings
in response to specific arguments raised by Defendants.
32. The Parties disagree on the extent to which the Challenged
Laws must burden Plaintiffs’ religious exercise. Defendants argue
that the burden must be “substantial.” (Defs.’ Mem. 45.) Plaintiffs,
on the other hand, argue that any burden is sufficient. (See Pls.’
Proposed Conclusions of Law (“Pls.’ COL”) ¶ 16 (Dkt. No. 328).) The
Court need not resolve this dispute because, as discussed above, the
Challenged Laws impose a substantial burden of Plaintiffs’ religious
exercise.

207a
Appendix B
Defendants argue that “laws regarding educational
institutions first were enacted because the pre[-]2001 laws
were lacking—they were ‘scant’—[and] did not address the
upsurge in development that was occurring in Pomona as
noted in the [Village’s] Master Plan.” (Defs.’ Mem. 46.) The
Court does not credit this argument because it overlooks
the context in which Local Law No. 1 of 2001 was passed.
Defendants have not cited to any evidence indicating that
the Board of Trustees was concerned with an “upsurge”
in development. Rather, the only evidence proffered on
this issue shows that Local Law No. 1 of 2001 was passed
in response to YSV’s informal presentation regarding its
desire to build a yeshiva on the Subject Property. (See
Pls.’ Exs. 111, 130 (FPC memoranda regarding updates
to the Village Code in light of YSV’s proposal).) There
was certainly no “upsurge” regarding the development of
schools within the Village because none exist, (see Joint
Pretrial Order Stipulations of Fact ¶ 27 (“No Educational
Institutions existed within the Village in 2001, in 2004, in
2007, or presently.”)), and the only institution seeking to
build a school within the Village at the time Local Law
No. 1 of 2001 was passed was YSV, (see Trial Tr. 594).
Therefore, the purported increase in development does
little to rebut the inference of discrimination that arises
from the context in which the laws regarding educational
institutions were first passed.
Defendants next argue that the other local laws
were adopted to “address[] inconsistencies and case law
requirements,” (Defs.’ Mem. 46), relying on Ulman’s
testimony, (see Ulman Aff. ¶¶ 48-55). As explained above,
the Court credits very little of Ulman’s testimony on these

208a
Appendix B
matters. None of Ulman’s proffered justifications detracts
from the strength of Plaintiffs’ case.
Finally, Defendants argue that the Wetlands Law
was adopted “to protect wetlands not subject to Federal
or State wetland regulations” and “had been under
consideration by the Village for many years.” (Defs.’ Mem.
46.) The last piece of this argument is particularly harmful
to Defendants’ position. The fact that the Wetlands Law
was under consideration dating back to the 1990s, but
was not adopted until after Defendants were aware of
Tartikov’s desired use for the Subject Property, is proof
that the law was designed to single out Plaintiffs’ religious
practices. Moreover, Beall’s testimony that there was no
meaningful regulatory gap between federal and state
regulations went unrebutted at trial. (See Beall Decl. ¶ 60.)
Accordingly, the reasons behind the Wetlands Law do not
support a finding that it serves a neutral, secular purpose.
As Plaintiffs have carried their burden of showing that
the Challenged Laws were passed to infringe on religious
practices because of their religious motivation, the burden
shifts to Defendants to show that the laws are “narrowly
tailored” to “further a compelling state interest.” Pyke II,
567 F.3d at 77. Defendants have not done so, as discussed
at length earlier. Accordingly, Plaintiffs have proven a
violation of the Free Exercise Clause.
4. 	Free Association
In addition to the freedom of exercise, the First
Amendment protects the freedom of association. See Baird

209a
Appendix B
v. State Bar of Ariz., 401 U.S. 1, 6, 91 S. Ct. 702, 27 L. Ed.
2d 639 (1971). 33 The Supreme Court has “identified two
types of ‘freedom of association’ that merit constitutional
protection: (i) ‘choices to enter into and maintain certain
intimate human relationships’ and (ii) association ‘for
the purpose of engaging in those activities protected by
the First Amendment.’” URI Student Senate v. Town of
Narragansett, 631 F.3d 1, 12-13 (1st Cir. 2011) (quoting
Roberts v. U.S. Jaycees, 468 U.S. 609, 617-18, 104 S. Ct.
3244, 82 L. Ed. 2d 462 (1984)); see also Sanitation &
Recycling Indus., Inc. v. City of New York, 107 F.3d 985,
995-96 (2d Cir. 1997) (same); AK Tournament Play, Inc.
v. Town of Wallkill, No. 09-CV-10579, 2011 U.S. Dist.
LEXIS 4873, 2011 WL 197216, at *2 (S.D.N.Y. Jan. 19,
2011) (same).
In evaluating Plaintiffs’ free association claim,
“[t]he first question . . . is whether and to what extent
[D]efendants’ actions burdened” Plaintiffs’ right to
associate for the purpose of engaging in those activities
protected by the First Amendment, Tabbaa v. Chertoff,
509 F.3d 89, 101 (2d Cir. 2007), “such as speech, assembly,
redress of grievances, and the exercise of religion,” see
NYC C.L.A.S.H., Inc. v. City of New York, 315 F. Supp. 2d
461, 472 (S.D.N.Y. 2004). “To be cognizable, the interference
33. Because the Parties agree that the corollary provision to
the First Amendment’s Free Association clause in the New York
Constitution is interpreted consistently with the federal Constitution,
the Court addresses both Plaintiffs’ state and federal free association
claims here. (See Pls.’ COL ¶ 18; Defs.’ Proposed Conclusions of
Law (“Defs.’ COL”) 16 ¶ 5 (Dkt. No. 279).) See also Tartikov I, 915
F. Supp. 2d at 622 n.21.

210a
Appendix B
with associational rights must be direct and substantial or
significant,” rather than simply “make it more difficult”
for Plaintiffs “to exercise their freedom of association.”
Fighting Finest, Inc. v. Bratton, 95 F.3d 224, 228 (2d Cir.
1996) (internal quotation marks omitted). Plaintiffs meet
this burden here, as the Challenged Laws directly and
substantially interfere with Plaintiffs’ associational rights
because the laws bar completely Tartikov’s rabbinical
college from the Village. Defendants disagree with this
conclusion, arguing that any interference posed by the
Challenged Laws is insignificant because “[t]he laws do
not prohibit Tartikov from building classrooms and study
halls for . . . students to associate with teachers and each
other.” (Defs.’ Mem. 52.) However, Defendants’ argument
is factually incorrect because the Village Code requires
that Tartikov be accredited before it may obtain a special
use permit, which cannot happen under the challenged
laws. Defendants offer no rebuttal to the challenge posed
by the accreditation requirement. Setting aside this issue,
even if Tartikov could be accredited, the prohibition on
student family housing likewise represents a substantial
burden for all of the reasons discussed above—Plaintiffs
sincerely believe that a Torah community serves as a
necessary part of their rabbinical college and religious
exercise. The Challenged Laws present insurmountable
obstacles to Plaintiffs achieving their desired community.
“Having found a cognizable burden,” the second
question is “the appropriate level of scrutiny to employ
in evaluating [D]efendants’ actions.” Tabbaa, 509 F.3d
at 102. “[A]n infringement on associational rights is not
unconstitutional so long as it serves compelling state

211a
Appendix B
interests, unrelated to the suppression of ideas, that
cannot be achieved through means significantly less
restrictive of associational freedoms.” Id. (alteration and
internal quotation marks omitted). As already discussed
at length, Defendants have not proffered a compelling
state interest to justify the adoption of the Challenged
Laws. Accordingly, Plaintiffs’ have established a Free
Association claim.
5.

RLUIPA Exclusions and Limits

The Exclusions and Limits provision of RLUIPA
provides that “[n]o government shall impose or implement
a land use regulation that . . . (A) totally excludes religious
assemblies from a jurisdiction; or (B) unreasonably limits
religious assemblies, institutions, or structures within a
jurisdiction.” 42 U.S.C. § 2000cc(b)(3). Plaintiffs assert
claims under both the total exclusion and the unreasonable
limitations prongs.
The Parties disagree on the appropriate frame of
reference for the Court to utilize in determining whether
the Challenged Laws totally exclude religious assemblies
from the Village. Defendants argue that Plaintiffs must
“prove that the [Challenged] Laws totally exclude religious
assemblies from the entire Village.” (Defs.’ Mem. 49.)
Plaintiffs, on the other hand, argue that the appropriate
frame of reference is Plaintiffs’ total exclusion from the
Village. (See “Pls.’ COL” ¶ 100 (“To prove a violation
of RLUIPA’s [t]otal [e]xclusion provision, the Plaintiffs
must produce prima facie evidence demonstrating that
the Challenged Laws completely exclude the Plaintiffs

212a
Appendix B
from the Village.”).) Plaintiffs’ interpretation of the
total exclusion provision finds no support in the law. 34
To succeed on a total exclusion claim, Plaintiffs must
demonstrate that the Village has totally excluded all
religious assemblies from the Village. See Vision Church,
468 F.3d at 989-90 (holding that the total exclusion
provision applies “only to the complete and total exclusion
of activity or expression” and that the defendant did not
“completely or totally exclude[] religious assemblies
from its jurisdiction”); Miles v. Lansdowne Borough,
No. 11-CV-1913, 2012 U.S. Dist. LEXIS 169338, 2012
WL 5960874, at *9 (E.D. Pa. Nov. 29, 2012) (“There is no
evidence that [the defendant] imposed or implemented
a land use regulation that totally excludes religious
assemblies from its borders . . . .” (emphasis added)); Adhi
Parasakthi Charitable, Med., Educ., and Cultural Soc’y
v. Township of West Pikeland, 721 F. Supp. 2d 361, 38687 (E.D. Pa. 2010) (noting that the plaintiff’s religious use
was not totally excluded and that the defendant’s zoning
ordinance “d[id] not operate as a total exclusion upon
religious land use” (emphasis added)); House Where
Jesus Shines, Inc. v. City of Bellmead, No. 08-CV-117,
2009 U.S. Dist. LEXIS 138183, 2009 WL 10669584, at
*5 (W.D. Tex. Sept. 11, 2009) (noting that under the total
exclusion clause a defendant is “prohibited from imposing
or implementing a land use regulation that completely
excludes religious assemblies from [its] jurisdiction”). 35
34. To the extent the Court indicated otherwise in Tartikov I
or II, it has reconsidered its earlier position.
35. Plaintiffs cite Vision Church as supportive of their
position, including the following parenthetical: “(classifying Schad

213a
Appendix B
While Plaintiffs’ proposed religious use is excluded from
the Village, there is no evidence that other religious
institutions are similarly excluded. The evidence actually
indicates the opposite—there currently are “three houses
of worship” in the Village. (See Trial Tr. 760.) Accordingly,
Plaintiffs have not established a violation of RLUIPA’s
total exclusion provision.
The Parties likewise disagree over the appropriate
frame of reference with respect to Plaintiffs’ unreasonable
limitations claim. (See Pls.’ COL ¶ 106 (“To prove a
violation of RLUIPA’s [u]nreasonable [l]imitations
provision, the Plaintiffs must produce prima facie evidence
demonstrating that the Challenged Laws have the effect of
depriving Plaintiffs or any rabbinical college of reasonable
opportunities to practice their religion, including the use
and construction of structures, with the Village.”); Defs.’
Mem. 49 (“To prove the RLUIPA unreasonable limitations
claim, . . . Plaintiffs must show that the [Challenged]
Laws unreasonably limit religious assemblies, institutions
and structures across the Village.”).) “From the plain
language of the statute it is clear that the purpose of
this subsection is not to examine the restrictions placed
on individual landowners, but to prevent municipalities
from broadly limiting where religious entities can locate.”
Adhi Parasakthi, 721 F. Supp. 2d at 387; accord Rocky
as addressing an ordinance [that] completely prohibit[ed] the
expressive conduct at issue. . . . The same is true of section 2(b)(3)
(A) of RLUIPA.).” (Pls.’ COL ¶ 102 (alterations in original) (internal
quotation marks omitted).) However, this quotation is inaccurate.
Plaintiffs have misattributed language quoted by the court in a
parenthetical to the court itself. See Vision Church, 468 F.3d at 989.

214a
Appendix B
Mountain Christian Church v. Bd. of Cty. Comm’rs, 613
F.3d 1229, 1238 (10th Cir. 2010) (noting that district court’s
jury instruction properly required the plaintiff to establish
that the county’s “regulation, as applied or implemented,
ha[d] the effect of depriving both [the plaintiff] and
other religious institutions or assemblies of reasonable
opportunities to practice their religion, including the use
and construction of structures, within [the defendant]
[c]ounty” (internal quotation marks omitted)).
The Court is unaware of any case, and Plaintiffs do
not cite to one, holding that the Court should consider only
the plaintiff’s use or the use of similarly situated entities
in determining whether the unreasonable limitation
clause has been violated. (See Pls.’ COL ¶ 106.) In Adhi
Parasakthi, the court mentioned the plaintiff’s proposed
use for a parcel of land, but ultimately concluded that the
plaintiff did not demonstrate that the defendant “broadly
limit[ed] where religious entities c[ould] locate.” 721 F.
Supp. 2d at 387. In Vision Church, the court focused on
the ability of churches to locate within the defendant
village, but ultimately concluded that churches were
not unreasonably limited and therefore did not consider
whether other religious institutions were unreasonably
limited. 468 F.3d at 990. Given the lack of directly
applicable precedent, the Court will rely on the plain
meaning of RLUIPA’s text. The unreasonable limitation
clause prohibits a government from “unreasonably
limit[ing] religious assemblies, institutions, or structures
within [its] jurisdiction.” 42 U.S.C. § 2000cc(b)(3)(B).
Nothing in this provision suggests that the Court should
constrain its focus to Plaintiffs’ proposed use and the

215a
Appendix B
uses of similarly situated entities. The question, then,
is whether the Village’s zoning ordinance unreasonably
limits religious institutions within its jurisdiction.
No evidence was offered during trial regarding the
limitations placed generally on religious assemblies,
institutions, or structures. Plaintiffs’ proposed rabbinical
college is excluded, but only because of its unique nature
and the way that the Challenged Laws were crafted, i.e.,
in a way tailored to prevent Plaintiffs’ use. Indeed, this
has been a theme of Plaintiffs’ case. Houses of worship
are designated as special permit uses, (see Village Code
§ 130-10(G)), but Plaintiffs have offered no evidence that
this places any real limitation on their location within the
Village. And, as already noted, there are three houses of
worship within the Village already. (See Trial Tr. 760.)
Plaintiffs also are mistaken about the evidence relevant
to an unreasonable limitations claim. They argue that
the Wetlands Law is “hardly . . . reasonable” because it
does not apply to “98.4% of the parcels in Pomona,” (see
Pls.’ Mem. 20 (internal quotation marks omitted)), but
this information is irrelevant. If the Wetlands Law does
not apply to 98.4% of parcels, the location of religious
institutions on those parcels is not unreasonably limited.
Plaintiffs offer only evidence about the limitations placed
on the Subject Property when the relevant question is the
limitations placed on all religious uses within the Village’s
jurisdiction. See 42 U.S.C. § 2000cc(b)(3)(B) (barring
governments from unreasonably limiting religious
structures “within a jurisdiction” (emphasis added)).
Essentially, Plaintiffs brief this claim as if it should be
treated similar to a substantial burden claim. That is not

216a
Appendix B
the case. See Adhi Parasakthi, 721 F. Supp. 2d at 387
(noting that the unreasonable limitation provision was
designed “to prevent municipalities from broadly limiting
where religious entities can locate”). The unreasonable
limitations provision does not mandate that the Village
have a reasonable zoning ordinance; it requires only that
the zoning ordinance in place not unreasonably limit
religious uses. As Plaintiffs have failed to present evidence
on the way in which religious uses were otherwise limited
by the Village’s zoning ordinance, they have failed to
establish an unreasonable limitations claim.
6.

RLUIPA Nondiscrimination

RLUIPA’s nondiscrimination provision provides
that “[n]o government shall impose or implement a land
use regulation that discriminates against any assembly
or institution on the basis of religion or religious
denomination.” 42 U.S.C. § 2000cc(b)(2). Defendants
concede that “Plaintiffs must provide the same proof
required under an Equal Protection claim” to succeed
on an RLUIPA nondiscrimination claim. (See Defs.’
COL 12 ¶ 1.) Plaintiffs bear the “initial burden of
establishing a prima facie claim, after which [Defendants]
bear[] the burden of persuasion on the elements of the
nondiscrimination claim.” See Chabad Lubavitch, 768
F.3d at 198. Because Plaintiffs have established an equal
protection violation, they also have established a violation
of RLUIPA’s nondiscrimination provision.

217a
Appendix B
7.

RLUIPA Equal Terms

The equal terms provision of RLUIPA provides that
“[n]o government shall impose or implement a land use
regulation in a manner that treats a religious assembly
or institution on less than equal terms with a nonreligious
assembly or institution.” 42 U.S.C. § 2000cc(b)(1). This
“statutory command ‘requires equal treatment of secular
and religious assemblies and allows courts to determine
whether a particular system of classifications adopted by
a city subtly or covertly departs from requirements of
neutrality and general applicability.’” Primera Iglesia
Bautista Hispana of Boca Raton, Inc. v. Broward
County, 450 F.3d 1295, 1307 (11th Cir. 2006) (alterations
and internal quotation marks omitted). As with the
substantial burden component of RLUIPA, the meaning
of the equal terms section is far from clear, see Guru
Nanak Sikh Soc’y of Yuba City v. County of Sutter, 326
F. Supp. 2d 1140, 1154 (E.D. Cal. 2003) (asserting that
this section “is even less clear” than the “substantial
burden” section), aff’d, 456 F.3d 978 (9th Cir. 2006), but
courts have determined that the “substantial burden and
nondiscrimination provisions are operatively independent
of one another,” CLUB, 342 F.3d at 762. Moreover,
some courts have concluded that the nondiscrimination
provisions of RLUIPA, which include the equal terms
provision, “codify existing Equal Protection Clause and
Free Exercise Clause jurisprudence.” Petra Presbyterian
Church v. Village of Northbrook, No. 03-CV-1936, 2003
U.S. Dist. LEXIS 15105, 2003 WL 22048089, at *11 (N.D.
Ill. Aug. 29, 2003), adopted by 2004 U.S. Dist. LEXIS
3910, 2004 WL 442630 (N.D. Ill. March 8, 2004); accord

218a
Appendix B
Guru Nanak, 326 F. Supp. 2d at 1155; Freedom Baptist
Church of Del. Cty. v. Twp. of Middletown, 204 F. Supp.
2d 857, 869 (E.D. Pa. 2002).
An equal terms claim has four elements: “(1) the
plaintiff must be a religious assembly or institution;
(2) subject to a land use regulation, that (3) treats the
religious assembly on less than equal terms, with (4) a
nonreligious assembly or institution.” See Primera, 450
F.3d at 1307; see also Chabad Lubavitch, 768 F.3d at 197
(noting that a plaintiff must produce prima facie evidence
of “unequal treatment” (emphasis and internal quotation
marks omitted)). The Eleventh Circuit has “discern[ed]”
three kinds of equal terms violations:
(1) a statute that facially differentiates between
religious and nonreligious assemblies or
institutions; (2) a facially neutral statute that
is nevertheless ‘gerrymandered’ to place
a burden solely on religious, as opposed to
nonreligious, assemblies or institutions; or (3) a
truly neutral statute that is selectively enforced
against religious, as opposed to nonreligious[,]
assemblies or institutions.
Primera, 450 F.3d at 1308; accord Vision Church, 468 F.3d
at 1003 (following same analysis); Church of Scientology
of Ga., Inc. v. City of Sandy Springs, 843 F. Supp. 2d
1328, 1361 (N.D. Ga. 2012) (same); Family Life Church
v. City of Elgin, 561 F. Supp. 2d 978, 989 (N.D. Ill. 2008)
(same). Plaintiffs assert that the first (“Primera Type 1
Cases”) and second (“Primera Type 2 Cases”) categories
are applicable here. (See Pls.’ Mem. 54-55.)

219a
Appendix B
In Primera Type 1 Cases, the Court is concerned
with “facial discrimination.” Primera, 450 F.3d at 1308.
Plaintiffs assert that the Challenged Laws facially
differentiate between its proposed use and the use of other
nonreligious institutions, such as libraries, museums,
and recreational facilities, but the Court is unpersuaded.
Plaintiffs believe that Tartikov is treated differently than
museums and libraries because Tartikov is subject to two
area requirements while libraries and museums are not
subject to any specific building coverage requirements.
(See Pls.’ Mem. 55 (“‘Libraries’ and ‘Museums’ are not
subject to any specific building coverage or floor area
limitation . . . .” (emphasis added)).) However, they are
only partially correct. The Village Code limits maximum
building coverage for educational institutions to 10% of the
net lot area of a property and maximum total floor area to
20% of the net lot area. See Village Code § 130-10(F)(2)(a)(b). Museums and libraries are not subject to any explicit
floor coverage limitation, (see Weinstein Decl. ¶ 81), but are
subject to a maximum lot coverage restriction, see Village
Code § 130-12(I) (“In order to ensure the maximum
coverage of a lot with vegetation, the prevention of over
development of lots, to minimize the adverse visual impacts
and to minimize negative impacts of stormwater runoff,
there is hereby established a maximum lot coverage of
15%.”). Plaintiffs refer to this limitation as an “impervious
surface coverage limitation,” (Pls.’s Mem. 55), but they
offer no support for this description. Indeed, their own
expert admits that museums and libraries are “subject to
the 15% lot coverage limitation in Village Code § 130-12
I.” (Weinstein Decl. ¶¶ 77-78 (emphasis added).)

220a
Appendix B
Plaintiffs also assert that Tartikov is treated
differently than museums and libraries because Tartikov
must obtain a special use permit to operate within the
Village while those other uses are permitted as of right,
citing Centro Familiar Cristiano Buenas Nuevas v. City
of Yuma, 651 F.3d 1163 (9th Cir. 2011). (See Pls.’ Mem.
56.) In a parenthetical, Plaintiffs state that Centro stands
for the proposition that the “requirement of having to
obtain a conditional use permit, while other nonreligious
assembly were permitted by right, was by itself an Equal
Terms violation.” (Id.) This is not how the Court interprets
Centro. In Centro, the Ninth Circuit held that the
defendant city’s code violated the equal terms provision
because it required all “religious assemblies” to obtain
a conditional use permit, but did not require “similarly
situated secular membership assemblies to do the same.”
651 F.3d at 1175.
In the Village, all educational institutions are subject
to the special permit requirement and building and floor
area restrictions and all libraries and museums are
subject to the lot coverage limitation. See Village Code
§§ 130(10)(F), 130(12). It does not matter whether those
institutions are religious or secular. Plaintiffs mistakenly
believe that Primera Type 1 Cases are concerned with the
limitations placed on the Subject Property in comparison
to limitations placed on other uses within the Village. Their
belief is incorrect because the key question is whether the
Village’s zoning ordinance “facially differentiates between
religious and nonreligious assemblies or institutions.”
Primera, 450 F.3d at 1308 (emphases added). There is
no proof that the Village’s zoning ordinances do that. All

221a
Appendix B
Plaintiffs have established is that the Village Code treats
educational institutions differently than libraries and
museums. Accordingly, Plaintiffs have not established a
violation of the equal terms provision on this ground.
Plaintiffs argue next that this is a Primera Type
2 Case because the Village’s zoning ordinance is
“‘gerrymandered’ to place a burden solely on religious,
as opposed to secular, assemblies or institutions.” (Pls.’
Mem. 57.) To succeed on this type of claim, Plaintiffs must
“show that the challenged zoning regulation separates
permissible from impermissible assemblies or institutions
in a way that burdens ‘almost only’ religious uses.”
Primera, 450 F.3d at 1309. 36 Plaintiffs contend that the
36. In Tartikov II, the Court denied summary judgment on
this claim because Plaintiffs had proffered sufficient evidence that
Defendants had “engaged in a religious gerrymander,” focusing
on the fact that the evidence suggested that “Defendants used the
Challenged Laws to uniquely restrict the ability of Plaintiffs to build
their rabbinical college in the Village.” 138 F. Supp. 3d at 442. Upon
further reflection, this may not have been the appropriate standard.
The Court relied on evidence that Defendants discriminated against
Plaintiffs in adopting the Challenged Laws, but Primera suggests
that the focus should be on whether the challenged zoning ordinance
“burdens almost only religious institutions,” 450 F.3d at 1309
(internal quotation marks omitted), placing the focus on the effect
of the ordinance rather than on whether the ordinance was adopted
to discriminate against the plaintiff. This distinction makes sense.
If discrimination against the plaintiff is sufficient to establish an
equal terms violation, RLUIPA’s nondiscrimination clause could be
rendered superfluous, violating the maxim that effect be given to
all of a statute’s provisions. See Corley v. United States, 556 U.S.
303, 314, 129 S. Ct. 1558, 173 L. Ed. 2d 443 (2009) (noting that “one
of the most basic interpretive canons” of statutory construction is

222a
Appendix B
20% restriction on student housing space treats religious
educational institutions worse than nonreligious ones
because the “vast majority of colleges and universities
that offer 100% housing for their students are religious in
nature.” (Pls.’ Mem. 58.) See also Village Code § 130-10(F)
(12) (“A dormitory building shall not occupy more than
20% of the total square footage of all buildings on the lot.”).
What the vast majority of religious colleges do, however,
is not evidence that the 20% restriction places a limitation
on that practice. As far as the Court knows, those colleges
could both offer housing to 100% of their students and
comply with the 20% housing space restriction. In any
event, this requirement applies to religious and secular
educational institutions. Accordingly, Plaintiffs have not
established an equal terms violation.
8. 	Fair Housing Act
The FH A “prohibit[s] gover nmental entities
from implementing or enforcing housing policies in
a discriminatory manner.” Tsombanidis, 352 F.3d
at 573. The Act itself make it unlawful to “otherwise
make unavailable . . . a dwelling to any person because
of race, color, religion, sex, familial status, or national
origin.” 42 U.S.C. § 3604(a). 37 “The phrase ‘otherwise
that “a statute should be construed so that effect is given to all of its
provisions, so that no part will be inoperative or superfluous, void
or insignificant” (alteration and internal quotation marks omitted)).

37. It is undisputed that Tartikov’s student family housing
qualifies as a dwelling under the FHA. See 42 U.S.C. § 3602(b)
(defining “[d]welling” to include “any building, structure, or portion
thereof which is occupied as, or designed or intended for occupancy

223a
Appendix B
make unavailable’ has been interpreted to reach a wide
variety of discriminatory housing practices, including
discriminatory zoning restrictions.” LeBlanc-Sternberg,
67 F.3d at 424.
A plaintiff can establish a violation of the FHA by
proving discrimination in the form of: (1) “disparate
treatment or intentional discrimination” or (2) “disparate
impact of a law.” Human Res. Research & Mgmt. Grp.,
Inc. v. County of Suffolk, 687 F. Supp. 2d 237, 254
(E.D.N.Y. 2010); see also Tex. Dep’t of Hous. & Cmty.
Affairs v. Inclusive Cmtys. Project, Inc., 135 S. Ct. 2507,
2525, 192 L. Ed. 2d 514 (2015) (“The Court holds that
disparate-impact claims are cognizable under the Fair
Housing Act . . . “); LeBlanc-Sternberg, 67 F.3d at 425 (“An
FHA violation may be established on a theory of disparate
impact or one of disparate treatment.”). “To establish a
prime facie case of intentional discrimination under the
FHA, plaintiffs must present evidence that animus against
the protected group was a significant factor in the position
taken by the municipal decision-makers themselves or
by those to whom the decision-makers were knowingly
responsive.” Human Res. Research, 687 F. Supp. 2d
at 254 (internal quotation marks omitted). Relevant
considerations for “discerning a racially discriminatory
intent include the historical background of the decision
particularly if it reveals a series of official actions taken
for invidious purposes, departures from the normal
procedural sequence, substantive departures, and the
legislative or administrative history especially where
as, a residence by one or more families”).

224a
Appendix B
there are contemporary statements by members of the
decisionmaking body, minutes of its meetings, or reports.”
Mhany Mgmt., 819 F.3d at 606 (alterations, citations, and
internal quotation marks omitted).
“After the plaintiff has established a prima facie
case, the burden then must shift to the defendant to
articulate some legitimate, nondiscriminatory reason for
the action.” Harris v. Itzhaki, 183 F.3d 1043, 1051 (9th
Cir. 1999). If the defendant proffers such a reason, the
burden shifts back to the plaintiff to show that he or she
has “been the victim of intentional discrimination, either
directly by persuading the court that a discriminatory
reason more likely motivated the defendant or indirectly
by showing that the defendant’s proffered explanation
is unworthy of credence.” Id. (alterations and internal
quotation marks omitted); see also Mhany Mgmt., 819
F.3d at 613 (“If a defendant meets its burden of production,
the sole remaining issue is discrimination vel non. The
plaintiffs must prove that the defendants intentionally
discriminated against them on a prohibited ground.”
(alteration and internal quotation marks omitted)).
The considerations relevant to whether Defendants
acted with discriminatory intent are the same as those the
Court has already considered in connection with Plaintiffs’
equal protection claim. The Court need not rehash them
here. Plaintiffs have established that discriminatory
animus was a significant factor in the passage of the
Challenged Laws. Focusing on the housing aspect of the
Challenged Laws specifically, Defendants first adopted the
laws prohibiting student family housing in direct response

225a
Appendix B
to Ramapo’s decision to enact the ASHL, crafting Local
Law No. 5 of 2004 to prohibit the student family housing
contemplated by the ASHL. Marshall was particularly
displeased with the ASHL, stating that Ramapo officials
passed the law to cater to the Orthodox Jewish vote. (See
Trial Tr. 619; Pls.’ Ex. 109, at POM0013281.) Then, as more
information became available about Tartikov’s intended
use for the Subject Property, Defendants supported and
passed additional laws placing even more hurdles in front
of Plaintiffs. 38
Because Plaintiffs have carried their initial burden,
Defendants must come for ward w ith “legitimate,
nondiscriminatory reason[s] for the[ir] action[s].” Harris,
183 F.3d at 1051. None of the reasons Defendants proffer
38. The allocation of burdens for a disparate impact claim are
slightly different than those applicable to disparate treatment claims.
First, a plaintiff “must . . . establish a prima facie case by showing,
(1) the occurrence of certain outwardly neutral practices, and (2)
a significantly adverse or disproportionate impact on persons of a
particular type produced by the defendant’s facially neutral acts
or practices.” Mhany Mgmt., 819 F.3d at 617 (internal quotation
marks omitted). The defendant may rebut the prima facie case by
“proving that the challenged practice is necessary to achieve one
or more substantial, legitimate, nondiscriminatory interests of
the . . . defendant.” Id. (internal quotation marks omitted). “[I]f the
defendant meets its burden, the burden of proof shifts back to the
plaintiff to show that the substantial, legitimate, nondiscriminatory
interests supporting the challenged practice could be served by
another practice that has a less discriminatory effect.” Id. (internal
quotation marks omitted). Because Plaintiffs have established a
disparate treatment claim, the Court declines to consider whether
the same evidence also is sufficient to establish a disparate impact
claim.

226a
Appendix B
for adopting the Challenged Laws is legitimate. As
discussed above, the Court credits very little of Ulman’s
testimony about what motivated the adoption of the laws.
Plaintiffs have proven that their intended purpose was to
thwart the development of the rabbinical college because
it was proposed by Orthodox/Hasidic Jews. Accordingly,
Plaintiffs have established a violation of 42 U.S.C. § 3604.
The FHA also makes it unlawful “to coerce, intimidate,
threaten, or interfere with any person in the exercise or
enjoyment of, or on account of his having exercised or
enjoyed, or on account of his having aided or encouraged
any other person in the exercise or enjoyment of, any
right granted or protected” by the FHA. 42 U.S.C. § 3617.
The implementing regulations interpret § 3617 to cover
“[t]hreatening, intimidating or interfering with persons
in their enjoyment of a dwelling because of the race,
color, religion, sex, handicap, familial status, or national
origin of such persons, or of visitors or associates of such
persons.” 24 C.F.R. § 100.400(c)(2). To establish a § 3617
claim, Plaintiffs “must demonstrate (1) that they aided or
encouraged members of a protected class in the exercise or
enjoyment of their FHA rights, and (2) that as a result of
their actions, they suffered coercion, intimidation, threats,
interference or retaliation.” Wentworth v. Hedson, 493
F. Supp. 2d 559, 565 (E.D.N.Y. 2007); see also United
States v. Weisz, 914 F. Supp. 1050, 1054 (S.D.N.Y. 1996)
(“[T]o bring a claim within § 3617, a plaintiff must allege
conduct on the part of a defendant which in some way or
other implicates the concerns expressed by Congress in
the FHA. If it were otherwise, the FHA would federalize
any dispute involving residences and people who live

227a
Appendix B
in them.”). Plaintiffs’ proof is sufficient to establish a
violation of § 3617 because Defendants have piled on
layers of regulation to interfere with Plaintiffs’ use of the
Subject Property. Indeed, Defendants’ principal purpose
in enacting the Challenged Laws was to prohibit Plaintiffs
from building dwellings on the property.
9. 	New York Constitutional Right to Freedom of
Worship
The New York State Constitution provides that
“[t]he free exercise and enjoyment of religious profession
and worship, without discrimination or preference, shall
forever be allowed in this state to all humankind . . . .”
N.Y. Const. Art I, § 3. The New York Court of Appeals
has held, in analyzing a state free exercise claim, that
“when the State imposes an incidental burden on the
right to free exercise of religion,” the courts are to
consider the “interest advanced by the legislation that
imposes the burden,” and then “the respective interests
must be balanced to determine whether the incidental
burdening is justified.” Catholic Charities of Diocese
of Albany v. Serio, 7 N.Y.3d 510, 859 N.E.2d 459, 466,
825 N.Y.S.2d 653 (N.Y. 2006) (alteration and internal
quotation marks omitted); see also Fortress Bible II,
694 F.3d at 221 n.9 (noting that New York state courts
“employ a balancing test to determine if the interference
with religious exercise was unreasonable”). As discussed
above, the burden imposed on Plaintiffs’ religious exercise
is substantial. Therefore, Defendants interests must be
equally substantial. Defendants fall short of the mark
because their stated interests and justifications for the

228a
Appendix B
Challenged Laws do not hold up to scrutiny. Moreover,
Defendants can achieve many of their goals through
other avenues, such as imposing size restrictions on the
issuance of a special permit. Accordingly, balancing the
burden imposed on Plaintiffs’ religious exercise against
the interests advanced by the Challenged Laws, the Court
concludes that Defendants have violated the New York
State Constitution.
10. Berenson
Plaintiffs contend that Defendants’ zoning ordinance
must be set aside because it violates the standard
established by the New York Court of Appeals in Berenson
v. Town of New Castle, 38 N.Y.2d 102, 341 N.E.2d 236,
378 N.Y.S.2d 672 (N.Y. 1975). In Berenson, the plaintiffs
filed a declaratory judgment action attacking the “validity
of the [z]oning [o]rdinance of the Town of New Castle in
its entirety on the ground that the ordinance exclude[d]
multifamily housing from the list of permitted uses.”
Id. at 238. The court established a two-part test for
determining whether an ordinance “excluding multifamily
housing as a permitted use” is valid. Id. at 241-42. “The
first branch of the test . . . is simply whether the board
has provided a properly balanced and well ordered plan
for the community.” Id. at 242. The second requirement is
that, “in enacting a zoning ordinance,” the town or village
board must give “consideration . . . to regional needs and
requirements.” Id. The court noted that “a town need not
permit a use solely for the sake of the people of the region
if regional needs are presently provided for in an adequate
manner.” Id. at 242-43.

229a
Appendix B
In Tartikov II, the Court stated that there are two
ways to prove a Berenson violation: (1) by showing that
the town’s or village’s zoning ordinance was enacted
with an exclusionary purpose, or (2) that it ignored local
or regional housing needs. See 138 F. Supp. 3d at 44445. The Court concluded that summary judgment was
inappropriate on this claim because, although Plaintiffs
failed to demonstrate that the Challenged Laws were
enacted without giving proper regard to local and
regional housing needs, there was “sufficient evidence for
a reasonable jury to conclude that the Village enacted the
Challenged Laws for an improper exclusionary purpose.”
Id. at 445. In reaching this conclusion, the Court focused
on the Challenged Laws rather than the Village’s Zoning
Code as a whole. But, the issue before the Court in
Berenson was the validity of “the [z]oning [o]rdinance of
the Town of New Castle” and the town’s decision to exclude
“multifamily residential housing from the list of permitted
uses.” Berenson, 341 N.E.2d at 238. While no Party
directly addresses the Court’s approach in their papers,
the Court finds it significant that Plaintiffs’ papers focus
on the Village’s Zoning Code rather than the Challenged
Laws themselves in addressing their Berenson claim.
(See Pls.’ Mem. 59 (“With respect to the second Berenson
prong, the appropriate inquiry is whether the zoning
ordinance on its face allows the construction of sufficient
housing to meet the town’s share of the region’s housing
needs. Here, Plaintiffs established that Pomona’s zoning
scheme is impermissible pursuant to New York law
because its exclusionary scheme was enacted for an
improper, discriminatory purpose and, consequently, is
invalid.” (emphases added) (internal quotation marks

230a
Appendix B
omitted)).) Certain provisions of the Village’s zoning
ordinance were enacted for a discriminatory purpose,
i.e., the Challenged Laws, but no evidence was introduced
proving that the zoning scheme itself was enacted for an
improper purpose. Nor is there any evidence that the
Board of Trustees failed to consider regional housing
needs in adopting the Village’s zoning ordinance. Indeed,
Ulman testified that the Village has always believed that
it is in “compliance with the regional requirements of
housing.” (Trial Tr. 922.) Therefore, Plaintiffs have not
established a Berenson violation.
C. 	The Appropriate Remedy
Plaintiffs’ seek an order enjoining the enforcement of
the Challenged Laws such that Tartikov will be permitted
to “apply for a special permit and site plan not subject to
the challenged provisions.” (Pls.’ Mem. 60.) The Court
finds that this is an appropriate and adequate remedy.
Cf. United States v. City of New York, 717 F.3d 72, 95(2d
Cir. 2013) (“Once liability for racial discrimination has
been established, a district court has the duty to render
a decree that will eliminate the discretionary effects of
past discrimination and prevent like discrimination in
the future.”) Plaintiffs shall submit a proposed judgment
consistent with the Court’s rulings within 30 days from
the date of this Opinion. Within 15 days of Plaintiffs’
submission, Defendants may file a letter specifying its
position on the proposed judgment. The Court will review
the submissions and enter the judgment forthwith.
Plaintiffs also ask that the Court appoint a federal
monitor to oversee all future proceedings. “This Court

231a
Appendix B
has broad discretion to appoint a compliance monitor
as a form of equitable remedy.” See U.S. Commodity
Futures Trading Comm’n v. Deutsch Bank AG, 16-CV6544, 2016 U.S. Dist. LEXIS 145479, 2016 WL 6136664,
at *2 (S.D.N.Y. Oct. 20, 2016); see also United States v.
Yonkers Bd. of Educ., 29 F.3d 40, 44 (2d Cir. 1994) (“The
power of the federal courts to appoint special masters
to monitor compliance with their remedial orders is well
established.”). The Court holds that the appointment of
a monitor is not warranted in this case. The only issue
before the Court is whether Tartikov’s special use permit
should be subject to the Challenged Laws. The Court
has held that Defendants cannot enforce the Challenged
Laws against Tartikov. The onus is now on Plaintiffs to
submit an application to the appropriate body. The Court
finds it inappropriate to insert a federal monitor into the
permit application process. “[F]ederal courts should not
become zoning boards of appeal.” Harlen Assocs., 273
F.3d at 505. “State courts are better equipped in this
arena” and “principles of federalism” dictate that the
Court should refrain for interfering unnecessarily in
the application process. Id. (internal quotation marks
omitted). Accordingly, Plaintiffs’ request is denied.
III. Conclusion
For the foregoing reasons, the Court holds that
Plaintiffs have established violations of the First
and Fourteenth Amendments of the United States
Constitution, certain provisions of RLUIPA, the FHA,
and §§ 3, 9, and 11 of the New York State Constitution.
Plaintiffs are directed to submit a proposed judgment

232a
Appendix B
within 30 days of the date of this Opinion that is consistent
with the Court’s ruling. Defendants have 15 days to
respond.
SO ORDERED.
Dated: December 7, 2017
White Plains, New York
/s/ Kenneth M. Karas
KENNETH M. KARAS
United States District Judge

